<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2021</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2021

                              ----------                              


                        THURSDAY, MARCH 5, 2020

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:08 a.m. in room SD-124, Dirksen 
Senate Office Building, Hon. Roy Blunt (chairman) presiding.
    Present: Senators Blunt, Alexander, Capito, Kennedy, Hyde-
Smith, Lankford, Murray, Shaheen, Merkley, Schatz, Baldwin, 
Murphy, and Manchin.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. BETSY DeVOS, SECRETARY


                 opening statement of senator roy blunt


    Senator Blunt. The Appropriations Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies will 
come to order.
    Secretary DeVos, we are glad to have you here with us 
again. Thanks for appearing at the subcommittee today to talk 
about your budget request.
    I would say that the budget request--the one word I came up 
with when I looked at it is bold--it is a bold request. It 
makes some significant recommendations about what we ought to 
do.
    Now, similar to previous requests, there is a 9 percent cut 
to the discretionary funding for the Department, and we will 
talk about that, and I will talk about that in a minute, and I 
am sure you will hear a lot about that this morning.
    But it also proposes a significant change in the Federal 
Government's role in elementary and secondary education. 
Consolidating almost every elementary and secondary program, 
approximately 29 of them, putting that in a new formula block 
grant that would go directly to school districts.
    I am not quite sure whether that proposal is to go through 
States or literally go directly to school districts. And then, 
frankly, educational performance including that performance 
that is measured by the National Assessment Education Program 
has been stagnating.
    No matter how much money we spend, we do not seem to be 
making the improvements we would like to make. Doing more of 
what you have been doing is unlikely to produce anything 
different than what you have been getting.
    And so I like the idea, frankly, of looking at this in a 
bold and innovative way. Average math and reading scores as 
measured by the NAEP (National Assessment of Educational 
Progress) have been mostly flat for a decade now.
    There is a growing divergence between the highest scores 
and the lowest scores. I think at the end of the day, we will 
find in our work here in this committee that it is not our job, 
frankly, to make these kind of authorizing and policy 
decisions.
    Now, the good thing about this committee in many cases 
including this one is that whatever you say to us you are also 
saying to the ranking member of the Authorizing Committee and 
the chairman, Senator Alexander, of the Authorizing Committee.
    So whether we can have much more than a discussion showing 
interest on my part, at least, in what you are proposing to do, 
I don't know. But we are going to write the fiscal year 2021 
appropriations bill under current law.
    But, personally, I am glad to talk to you about your idea 
of how we can do this or other things to get different results.
    Now, because we are going to be talking about current law, 
we will have a conversation not unlike some of the others we 
have had about the cuts proposed. I think it is unlikely that 
this committee will accept limitations to large formula grants 
that support after-school programs or STEM (Science, 
Technology, Engineering and Mathematics) education, school 
safety, teacher professional development.
    I think almost certainly we would not cut programs like 
TRIO and campus-based student aid programs like Federal Work-
Study. But, again, we are glad to talk to you about why you 
think those programs aren't doing what they should be doing.
    So, really, my goal is for us to work together on these 
issues. The budget does propose some increases in areas that I 
think we have shown interest in in the way we have appropriated 
money in the committee.
    In particular, the budget proposes a $763 million increase, 
which would be a 60 percent increase for Career and Technical 
Education (CTE).
    I am interested in the ideas you have of what we can do to 
provide students more insight earlier into what jobs are out 
there, meaningful workplace-based learning opportunities, and 
exposure to different career paths.
    So we put some money in last year's budget to do exactly 
that, certainly, in secondary education and even in middle 
school to begin to create a stronger sense than we have had for 
at least a generation about what opportunities are out there, 
what kind of fulfillment there is available in different jobs, 
what those jobs pay, how long it takes you to get to that 
point, how far along you can be by the time you get out of 
secondary education--all areas that I want to see more of.
    I think the committee has shown a real willingness to work 
with you on that and that is one area where you are proposing a 
big increase in the budget that you are working with right now.
    We gave Labor $10 million to work in this area and the 
Department of Education $10 million to look at ways to develop 
new pathways to work. I think we increased the technical and 
career State grants, the CTE grants, in this budget as well.
    The request for CTE also includes dedicated funding for 
innovation and modernization grants focused on STEM education 
and computer science.
    This year's budget included similar funding to what you are 
asking for next year. I am interested in how you think the 
money we provided last year is being spent and what you see 
happening there.
    And, finally, we hope to work closely with the Department 
as it reforms and modernizes Federal student loan servicing 
programs from the time a student gets that loan until the time 
they come to the end of the process involving that loan.
    This budget includes review of the Office of Federal 
Student Aid. That office is responsible for managing that 
process for 43 million Federal student loan borrowers. I am 
certainly interested to know what you intend to do with that 
review of how that office works.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Good morning. Thank you, Secretary DeVos, for appearing before the 
Subcommittee today to discuss the Department of Education's fiscal year 
2021 budget request.
    This budget request is bold.
    While it is similar to previous requests in many respects, with a 9 
percent cut to discretionary funding for the Department of Education, 
it also proposes a significant change to the Federal Government's role 
in elementary and secondary education. The request consolidates almost 
every elementary and secondary education program, approximately 29 in 
all, into a new formula block grant that goes directly to school 
districts.
    At a time when student educational performance, including as 
measured by the National Assessment of Educational Progress (NAEP) is 
largely stagnating, any discussion of how to help schools improve 
educational opportunities and outcomes for all students is welcome. 
Average math and reading scores as measured by the NAEP (pronounced 
nape) have been mostly flat over the last decade, and there is a 
growing divergence between the highest and lowest-performing students.
    However, it is not this Committee's role to consider the policy 
implications of consolidating 29 distinct programs into a single 
district-level block grant. That is an issue that will need to be 
addressed in the reauthorization of the Elementary and Secondary 
Education Act and this Subcommittee will write a fiscal year 2021 
appropriations bill under current law.
    Accordingly, as in previous years, there are cuts in this request 
that we will not support. As we have done previously, this Subcommittee 
will not accept eliminations to large State formula grants that support 
afterschool programs, STEM education, school safety, and teacher 
professional development. We will not cut programs like TRIO and 
campus-based student aid programs like Federal Work Study that help 
students get into college, succeed when they are there, and graduate 
with less debt.
    It is my goal for us to work together on many of these and other 
important issues. In particular, the budget proposes a $763 million, or 
60 percent, increase for career and technical education (CTE). I am 
interested in your ideas for how this and other efforts could improve 
educational opportunities for students beginning in high school, or 
earlier, to pursue the full-range of post-secondary college and career 
opportunities.
    Providing students meaningful work-based learning opportunities and 
exposure to different career paths early in high school can help them 
identify interests that lead to good well-paying jobs and careers. Too 
often individuals only find opportunities through apprenticeships or 
high-quality credential programs paired with associate's degrees that 
lead to jobs in in-demand fields later in life, in their late twenties 
or thirties. I want to give more students exposure and access to these 
opportunities in high school or even middle school.
    To that end, the fiscal year 2020 Labor/HHS bill included $10 
million at the Department of Education and $10 million at the 
Department of Labor to expand and improve career pathways, guidance, 
and exploration systems. It also included an increase for CTE State 
grants, building on increases made the several years previously. I 
believe this is consistent with what you are envisioning with a 
significant increase for CTE in this budget request.
    The request for CTE also includes dedicated funding for innovation 
and modernization grants focused on STEM education, and computer 
science education in particular. The fiscal year 2020 Labor/HHS bill 
included similar funding within the Education Innovation and Research 
program. I am interested in how you think funding provided last year 
and requested this year can improve access to computer science 
education.
    Finally, this Committee has worked closely with the Department as 
it reforms and modernizes the Federal student loan servicing system, 
from when a student first applies for financial aid through making 
their last payment, and everything that might happen in between. The 
budget includes a review of the Office of Federal Student Aid that is 
responsible for managing that process for 43 million Federal student 
loan borrowers. I am interested to know more about what you envision 
there.
    Madame Secretary, thank you again for being here today. I look 
forward to hearing your testimony and appreciate your dialogue with us 
about these and other important issues.
    Thank you.

    Senator Blunt. So, again, Madam Secretary, glad you are 
here. Look forward to our discussion this morning. Let me turn 
to Senator Murray for any comments she has.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman, and 
thank you, Madam Secretary, for being here. This is really an 
important opportunity for all of us to hear from you about your 
budget proposal and get answers to our questions and understand 
more about the Department's use of taxpayer dollars. So I 
appreciate you being here.

                    CORONAVIRUS AND SCHOOL CLOSURES

    First of all, I do want to talk about coronavirus. It is an 
issue that families and students and teachers and educators 
across the country are, obviously, worried about, especially in 
my home State of Washington.
    Schools across my State have had to cancel classes. One 
will remain closed for at least the rest of this week, and I 
had a message sent to me in the middle of the night by my own 
daughter that her school district is closing down for 2 weeks 
at least. So this is really impacting families.
    Tragically, as of today 11 deaths have already been 
reported and, 10 of those have been in my State. So this is 
truly a serious crisis and we need every agency and this 
administration to respond quickly and thoroughly.
    We need to plan properly for continued school operations 
and make sure in the event of school closures the millions of 
families who do rely on school meals, for example, continue to 
have access to those nutrition programs and that to every 
extent possible schools can still provide educational services 
to students and their families.
    I am also concerned by media reports describing bullying, 
harassment, and discrimination in schools targeted at students 
of Asian descent at this time.
    The Department needs to ensure school districts understand 
their responsibility to prevent and address this type of 
harassment and discrimination, and I do appreciate that you 
reminded education leaders of their role to prevent 
discrimination yesterday.
    I know you established a task force to help schools prepare 
for the coronavirus----
    [Laughter.]
    Senator Murray. I have said it so many times I can't say 
it. Coronavirus outbreak. But the administration's response so 
far has, I have to tell you, not inspired confidence, and there 
is a lot more unknowns than knowns.
    Parents, students, and teachers got to have the facts. They 
need to know what to do so they can respond effectively. So I 
wanted to make certain today that you are doing everything you 
can to support our school districts and our colleges, our 
teachers, and school and staff during this time.
    I can tell from what I already know, President Trump's 
budget for America's future presents a vision that is deeply 
harmful to students and family. It cuts vital services for 
families who have low incomes.
    It requests another $2 billion for the unnecessary border 
wall the President promised Mexico would pay for, and it breaks 
the budget deal that we just reached on the discretionary 
spending caps by proposing to reduce nondefense discretionary 
spending by $37 billion in fiscal year 2021.

                    CONCERNS REGARDING PROPOSED CUTS

    So as a result, the fiscal year 2021 budget for the 
Department of Education is slashed by more than $6 billion. 
That is 8\1/2\ percent below the bipartisan bill that we agreed 
to last December.
    The proposed budget you are here to defend fails to invest 
in public schools, and educators and students and families and 
really ignores the voices of educators in my State and across 
the country.
    Schools and educators have voiced their concerns time and 
again: they do not have the resources they need to meet the 
needs of every student, nor are they properly compensated for 
the important work they do.
    Instead of helping educators and students, your budget 
proposes to consolidate 29 elementary and secondary education 
programs into an unauthorized block grant that would cut $4.8 
billion below current funding for the programs you propose to 
consolidate.
    That proposal will eliminate more than $91 million in 
formula grant funding for elementary and secondary education 
for Washington State public schools. That is about a quarter of 
what Washington schools are currently getting to support public 
education for--particularly for students with low incomes.
    This is just in Washington State. Every member here would 
see similar reductions in their State. It appears President 
Trump has no concern about increasing the Federal deficit when 
it involves giveaways to the wealthy in the Republican tax bill 
but chooses to cut billions from public schools around the 
Nation, all in the name of fiscal discipline.

                     EDUCATION FREEDOM SCHOLARSHIPS

    To make matters worse, at the same time the President's 
Budget proposes providing $5 billion annually for a Federal 
private school voucher tax scheme called Education Freedom 
Scholarships.
    That proposal would divert Federal tax revenues that could 
be used to invest in public education by establishing a new tax 
credit for individuals and corporations that make donations 
that expand State-developed private school voucher programs.
    This tax credit scholarship scheme is just another attempt 
to advance a disastrous privatization agenda by shifting 
resources away from public education and into unaccountable 
private schools.
    The Orlando Sentinel investigated one of these programs in 
Florida and found the program allowed the participation of 83 
private schools that refused to admit LGBTQIA students or could 
expel them if their sexual orientation or gender identity was 
made public.
    It is appalling this budget could dedicate Federal 
resources, our tax dollars, to programs that support blatant 
discrimination against schools, students, and staff, yet cuts 
billions from Federal support for public schools attended by 
more than 90 percent of our Nation's students.

             COLLEGE AFFORDABILITY AND FOR-PROFIT COLLEGES

    The budget also does nothing to address the college 
affordability crisis that is facing our Nation. Instead, it 
proposes to cut more than $1.6 billion from grants and work-
study that will force students to borrow more while 
dramatically reducing benefits for student loan borrowers, even 
eliminating loan forgiveness for student borrowers who become 
teachers or enter their other public service professions.
    I also have a concern--concerns about a range of your 
policies and, specifically, I am concerned about your partial 
relief formula that would eliminate $11 billion in relief for 
more than 210,000 borrowers around our country, including more 
than 6,000 in my home State.
    Time and again, it seems that you put the interests of 
predatory for-profit colleges ahead of our students. I have 
serious concerns about the fact that you reinstated the failed 
accreditor ACICS (Accrediting Council for Independent Colleges 
and Schools) that accredited Reagan National University, which 
an investigation by USA Today recently reported does not even 
have any faculty or staff.

                  CAMPUS SEXUAL HARASSMENT AND ASSAULT

    I am also deeply concerned about your proposed Title IX 
rule that would weaken protections for survivors of campus 
sexual harassment and assault and make it easier for K-12 
schools, colleges, and universities to avoid accountability for 
student safety.
    Let me be clear. This is not about restoring balance. This 
is about silencing survivors. Your rule will make it harder for 
a student to report an incident while making it much easier for 
a school to sweep it under the rug.
    Mr. Chairman, we have worked together previously to reject 
the administration's harmful budget requests from proposals to 
cut funding for students, teachers, and public schools or to 
gut funding for students who are struggling to afford college, 
and I hope that, again, as we have in the past, we will work 
together to restore these cuts in this budget.
    Thank you.
    Senator Blunt. Thank you, Senator Murray.
    Secretary DeVos, glad you are here. We have your statement 
for the record, but we will take some time for you to share as 
much of that with us as you would like to.

                 SUMMARY STATEMENT OF HON. BETSY DEVOS

    Secretary DeVos. Thanks so much, Chairman.
    Chairman Blunt, Ranking Member Murray, members of the 
subcommittee, thank you for the opportunity to testify on the 
President's fiscal year 2021 Budget.
    While we are discussing a budget, it is important to 
remember that, as it has been said, the size of the Federal 
budget is not an appropriate barometer of social conscience. 
Federal Government spending does not determine everything that 
is important to us, nor is it the only solution when we 
encounter challenges and opportunities.

                 SCALING BACK FEDERAL ROLE IN EDUCATION

    Instead, we, the people, overcome challenges and seize 
opportunities. That is why this Department's budget is focused 
on returning power to the people, to those closest to students 
and to students themselves.
    Our budget begins by recognizing that education is a local 
issue. Congress codified that truth when it created the U.S. 
Department of Education 40 years ago. It promised the move 
would, and I quote, ``not increase the authority of the Federal 
Government over education nor diminish the responsibility for 
education, which is reserved to the States,'' end quote.
    This administration proposes Congress align the budget with 
that 40-year-old promise. Our budget would take a big step 
toward right-sizing the Federal role in education so that 
families, teachers, States, and local leaders are free to do 
what is right for students.
    The budget would expand education freedom for students so 
that they can prepare for successful careers, and it would 
refocus our approach to higher education so that students are 
at the center of everything we do.
    First, let us consider recent history. Over 40 years 
Federal taxpayers have spent more than $1 trillion trying to 
fix K-12 education. Each year Congress grew the budget from 
nearly $7 billion in 1980 to more than $41 billion in 2010 for 
K-12 education alone.
    What have we bought with all that spending? Just open up 
the latest Nation's Report Card to see the sad results. No real 
improvement in student achievement in decades.
    So instead of holding fast to what we know does not work, 
let me suggest we find the courage to do something bold and 
begin a new era of student growth and achievement.
    The Every Student Succeeds Act gives us good insights into 
where we should go. ESSA (Every Student Succeeds Act) became 
law because many of you on both sides of the aisle realized 
Federal overreach in education had failed.
    So you moved to restore the proper roles in education. The 
bipartisan K-12 law affords States and communities more 
flexibility to address local challenges. This administration 
proposes Congress complement its work on ESSA and make the 
budget match the law.
    States must work with local communities and families to 
develop comprehensive plans that best meet the needs of their 
students, and States should be able to target their Federal 
taxpayer dollars accordingly.

  ELEMENTARY AND SECONDARY EDUCATION FOR THE DISADVANTAGED BLOCK GRANT

    To that end, we propose putting an end to education 
earmarks by consolidating nearly all Federal K-12 programs into 
one single block grant.
    To be clear, this proposal does not eliminate any program. 
It simply affords States the flexibility they need to enhance 
programs that work for their students. Overall, Americans spend 
about $860 billion on K-12 education every year.
    Last year, Congress appropriated about $24 billion of that 
through the programs in our proposed block grant, or merely 2.5 
percent of total education funding.
    And yet, each year teachers and school leaders spend more 
than 2 million hours complying with Federal reporting and 
recordkeeping requirements for that small slice of the pie. Two 
million hours, more than 83,000 days, more than 225 years--time 
that could have been focused on helping students learn and 
grow.
    Teachers, administrators, and State leaders need to be free 
to focus on people, not paperwork. Results, not regulations. 
Different States will invest their share of the block grant 
differently, and that is okay.
    In fact, that is what we hope they do. They can better 
figure out what their students need because they know their 
students. Every student is unique, and each one of them learns 
differently. Every child needs the freedom to learn in places 
and in ways that work for them.

                     EDUCATION FREEDOM SCHOLARSHIPS

    That is why the President's 2021 Budget also renews its 
call for a historic investment in America's students, Education 
Freedom Scholarships.
    Our proposal is a dollar-for-dollar Federal income tax 
credit for voluntary contributions to State-based nonprofit 
organizations that provide scholarships directly to students.
    I like to picture kids with backpacks representing funding 
for their education following them wherever they go to learn. 
The budget also requests a $100 million increase in supporting 
children with disabilities, amounting to a total of $14 billion 
for IDEA (Individuals with Disabilities Education Act) 
programs.

                     CAREER AND TECHNICAL EDUCATION

    There is also a request for a dramatic expansion of Career 
and Technical Education programs, an overall increase of nearly 
$900 million. It is the largest investment in CTE ever.
    It includes a total of $2 billion for Perkins and State 
grants, which is an increase of nearly $800 million. 
Additionally, we are requesting $150 million, an increase of 
more than $135 million, to fund STEM activities led by HBCUs 
(Historically Black Colleges and Universities) and other 
Minority-Serving Institutions located in Opportunity Zones.
    This administration wants every student in America to have 
more education options that focus on preparing them for 
successful careers. That goes hand in hand with our 
groundbreaking initiatives at Federal Student Aid.

                          FEDERAL STUDENT AID

    Consider that FSA (Federal Student Aid) is essentially a 
$1.5 trillion bank that has dramatically outgrown its 
governance structure. We propose evaluating a new governance 
structure and whether FSA should be a stand-alone entity.
    In the meantime, we are continuing to build on our 
important reforms that establish one platform, one operating 
system, one website and, importantly, on providing customers--
students and their families--with a seamless student loan 
experience.
    In the end, our budget is about one thing: putting students 
and their needs above all else. It is a budget that recognizes 
that no student and no State, no teacher and no town, are the 
same.
    States need to be free to address the particular problems 
and possibilities of their people, and students of all ages 
need the freedom to find their fit. This budget proposes that 
Congress give it to them.
    Thanks for this opportunity to testify. I will be happy to 
answer your questions.
    [The statement follows:]
                 Prepared Statement of Hon. Betsy DeVos
    Good morning Chairman Blunt and Ranking Member Murray.
    I'm pleased to be here today to present the President's fiscal year 
2021 Budget Request for the Department of Education. I'm excited about 
our 2021 Budget proposal because it puts a clear focus on helping 
students achieve better outcomes by ending the Washington-knows-best 
controls of the past and restoring authority to States and local 
communities. At the same time, our request would invest in supporting 
continued economic growth and significantly improving services to 
recipients of postsecondary student financial aid.
    President Trump and I are asking Congress to take several bold 
steps in our request. As the president urged in his recent State of the 
Union, we ask you to help approximately one million students find the 
right education fit by creating a Federal income tax credit for 
voluntary contributions to State-based, non-profit organizations that, 
in turn, provide scholarships directly to students. To help students 
enter high-demand careers, we ask you to make a historic investment in 
Career and Technical Education State Grants so that every student has 
access to a high-quality CTE program. To better serve students with 
disabilities, we ask you to increase funding for State Grants under the 
Individuals with Disabilities Education Act. And to unleash innovation 
by giving local educators more control of their Federal K-12 funds, we 
ask you to consolidate several programs into a block grant for 
elementary and secondary education.
    But before I get into those and other proposals, I want to remind 
the committee that none of us should be comfortable with the dismal 
results in the latest ``Nation's Report Card.'' We have not seen 
meaningful progress in a decade, and worse yet, the most vulnerable and 
disadvantaged are actually performing worse. The failures of our 
education system are dooming too many students as they pursue further 
education, meaningful work, and successful lives.
    Our education system is demonstrably not preparing all students for 
today's workforce, much less tomorrow's. There are nearly 7 million 
jobs left unfilled today because employers are unable to find the 
workers with the needed skills and education.
    This skills gap is the inevitable result of America's antiquated 
approach to education. Can we really be surprised that employers have 
trouble finding workers with the needed education and skills when the 
Nation's Report Card tells us that more than 25 percent of our 8th 
graders cannot read a basic, grade-level passage? ``The system'' is 
failing far too many children, and they need something far better.
    The Members of this Subcommittee should recognize that the answer 
is not merely supplying more Federal taxpayer dollars. You have nearly 
doubled spending on K-12 education since 2000, from $23 billion in 2000 
to just over $41 billion in 2020. You've increased funding six-fold 
over 40 years. The Federal taxpayer has been asked to invest $1 
trillion over the past half-century, and the achievement gap has failed 
to budge. I could go on, but suffice it to say, there is no evidence at 
all that the Federal Government can simply spend its way to better 
educational outcomes.
    We must try a new approach, and I have a two-part prescription for 
change.
    First, we need to expand education freedom for all students. Every 
family in America should be able to choose the education setting that 
they believe is best for each child. Assigning students to schools 
based on district boundaries may be convenient for public school 
systems, but it clearly doesn't work for our children, our economy, or 
our Nation.
    Second, the Trump Administration wants to empower State and local 
leaders and educators by dramatically reducing the Federal Government's 
prescriptive, compliance-driven role in K-12 education. Fifty-five 
years of steadily increasing Federal involvement in K-12 since 
enactment of the Elementary and Secondary Education Act (ESEA) has not 
improved outcomes or reduced the achievement gaps for our disadvantaged 
students. Federal rules and regulations often make it harder for local 
officials to target taxpayer resources optimally.
    You will see both of those solutions--education freedom and local 
control--throughout the President's fiscal year 2021 request.
    Overall, the President's Fiscal Year 2021 Budget Request includes 
$66.56 billion in new discretionary budget authority for the Department 
of Education, an 8.4 percent reduction below the fiscal year 2020 
appropriation. This is consistent with the Administration's belief that 
we cannot continue to increase Federal spending for K-12 education and 
simultaneously expect to shift power and control back to local 
educators. Federal money inevitably comes with Federal rules, 
regulations, and burdens that constrain local educators and students. 
If you doubt this, remember that only about 3 percent of total K-12 
spending is tied to the Elementary and Secondary Education Act. Any 
superintendent will tell you that ESEA represents far more than 3 
percent of the administrative burdens placed on them.
                     education freedom scholarships
    The most transformative proposal in the Administration's Fiscal 
Year 2021 Budget is our Education Freedom Scholarship tax-credit 
proposal, which would encourage voluntary contributions to State-based 
elementary and secondary education scholarship programs. States could 
create scholarship programs that give families more education options, 
including public, private, home schooling, or all of the above. My goal 
is to help States create more options for families, and the Federal 
Government should be agnostic about which types of options are offered. 
Because the scholarships would be funded by private donations, 
Education Freedom Scholarships would not divert a single dollar away 
from public school students or public school teachers. Nor would they 
create any Federal entanglements for students or schools.
  elementary and secondary education for the disadvantaged block grant
    Our 2021 Budget also would build on the 2015 Every Student Succeeds 
Act (ESSA), which reauthorized the ESEA and sought to restore State and 
local control over education by significantly reducing the mandates 
from Washington that accompany Federal education funds. As ESSA expires 
in 2020, we ask Congress to take the next logical step and block-grant 
Federal funds to States and local districts, so that people closest to 
students can determine how best to use those funds to improve student 
outcomes.
    Our proposed Elementary and Secondary Education for the 
Disadvantaged Block Grant would consolidate 29 Federal elementary and 
secondary education programs into a single$19.4 billion formula grant 
program. Funds would be allocated to the district level through the 
same need-based formulas used by the Title I program, and grantees 
would have discretion to use those funds for any authorized purpose of 
the onsolidated programs. We believe this would unleash new innovation 
at the State and local level, and continue to expand proven reforms, 
including public charter schools, magnet schools, and student-weighted 
funding.
    Under the new block grant, States and school districts would 
continue to meet key ESEA accountability and reporting requirements 
aimed at protecting students, supporting meaningful school improvement 
efforts, and giving parents information they need to support a high-
quality education for their children. In addition to eliminating 
Federal overreach and empowering State and local educators, the 
consolidation of 29 formula and competitive grant programs into a 
single formula grant would allow the Department, State educational 
agencies, and local districts to reduce staffing and administrative 
costs over time by streamlining program administration.
                     career and technical education
    President Trump has compiled an extraordinary record in spurring 
strong economic growth, creating new jobs, and increasing wage growth. 
The 2021 Budget would double down on this commitment to ensuring that 
every American can pursue success by increasing our investment in 
Career and Technical Education (CTE) by nearly $900 million. In 
particular, a $680 million or 53 percent increase in CTE State Grant 
funding supports the Administration's goal of ensuring that every high 
school student in America has access to CTE programs that provide 
multiple high-quality pathways to high-paying, in-demand jobs. The 
Request also renews the President's proposal to double fees under the 
H-1B visa program and redirect a portion of the proceeds--totaling an 
estimated $117 million--to the CTE State Grants program. Finally, we 
are seeking $90 million for CTE National Programs, an increase of $83 
million, to spur the development and implementation of high-quality CTE 
programs in STEM fields and careers, including computer science.
                       special education programs
    We also are proposing to increase support for programs that serve 
more than 7 million children with disabilities in our Nation's schools. 
The Request would provide $12.9 billion for Grants to States under the 
Individuals with Disabilities Education Act (IDEA), an increase of $100 
million over the 2020 enacted level, while maintaining level funding 
for all other IDEA programs. Our Budget proposal urges Congress to 
provide more resources for States and school districts to ensure every 
student with a disability receives a high-quality education.
                       higher education programs
    Our Request for higher education programs also reflects our 
continued effort to consolidate duplicative programs and funding 
streams, reduce administrative burden for applicants and grantees, and 
streamline the Federal bureaucracy. The Request renews and expands our 
proposal for a Consolidated Minority-Serving Institutions (MSI) Grant 
program, which for fiscal year 2021 would combine 11 discretionary and 
mandatory MSI funding authorities into a single institutional formula 
grant funded at $336.3 million.
    Title III funding for Historically Black Colleges and Universities 
(HBCUs) and Tribally Controlled Colleges and Universities (TCCUs) would 
continue to be delivered through existing authorities at the 2020 
enacted levels.
    In addition, the President's Budget would transform the Minority 
Science and Engineering Improvement Program (MSEIP) through a $150 
million investment--an increase of $137.4 million. These competitively 
awarded grants would fund STEM activities led by HBCUs and MSIs located 
in Opportunity Zones, with the goals of both preparing the future 
generation of STEM professionals and promoting technology-based 
economic development in some of our Nation's most distressed 
communities. The expanded MSEIP would target $50 million to HBCUs, $50 
million to Hispanic-Serving Institutions (HSIs), and $50 million to all 
other MSIs.
    The Request also renews last year's $950 million proposal for a 
TRIO Student Supports Block Grant that would transition the TRIO 
programs from a complex and difficult to administers et of Federal 
competitive grant programs into a single State formula grant program. 
Under this proposal, States would have discretion to use their funds to 
implement the best mix of activities, including those currently 
authorized under TRIO, Gaining Early Awareness and Readiness for 
Undergraduate Programs (GEAR UP), and the College Assistance Migrant 
Program, that will improve postsecondary access and attainment for 
their low-income and disadvantaged students.
                          federal student aid
    Finally, I want to talk about Federal student aid. I'd like to 
first thank Ranking Member Murray and Senator Alexander for their 
leadership in passing the bipartisan FUTURE Act, which included the 
Faster Access to Federal Student Aid (FAFSA) Act, that was signed into 
law this past December. This important law marks a long-sought victory 
for simplifying and improving the FAFSA for the nearly 20 million 
students and families who complete it each year. From day one, I have 
been committed to advancing these common-sense reforms, and I want to 
assure you all that my team is hard at work implementing this new law.
    However, students and families continue to face numerous challenges 
in financing postsecondary education so we must continue to rethink and 
modernize the Federal financial aid system. Our 2021 Request includes 
proposals to simplify the Federal student loan programs and student 
loan repayment, establish reasonable loan limits for all Federal 
student loans, and afford postsecondary institutions more flexibility 
to help students avoid borrowing more than they will be able to repay. 
The Request also would expand Pell Grant eligibility to students 
enrolled in high-quality short-term programs offered by institutions 
that provide students with a credential, certification, or license in a 
high-demand field, make Pell Grants available to certain incarcerated 
students to improve employment outcomes, reduce recidivism, and 
facilitate their successful reentry to society, and make crucial 
reforms to the Federal Work Study program to support workforce and 
career-oriented training opportunities for low-income undergraduate 
students.
    We hope you will continue to support our transition to the multi-
year Next Generation (Next Gen) student aid platform, which includes 
building the technology and operational components that will help us 
deliver world-class services to postsecondary students and their 
families while continuously enhancing cyber security and improving 
accountability for taxpayer funds. Key enhancements include the 
development and implementation of an improved loan servicing platform 
and the consolidation of all customer-facing websites into a single, 
user- friendly hub to complement our new mobile platform and the highly 
successful myStudentAid mobile app. These changes will give students, 
parents, and borrowers a seamless experience from application through 
repayment. Our request includes $1.9 billion for such improvements 
through the Student Aid Administration account, $114 million more than 
fiscal year 2020 enacted levels.
    To carry out these reforms, we also need to ensure that the Office 
of Federal Student Aid has the professional leadership and independence 
needed to efficiently and effectively deliver each year more than $120 
billion in new Pell Grants, Campus-Based Aid, and Direct Loans, while 
managing a student loan portfolio of more than $1.5 trillion held by 
over 42 million borrowers. In total assets, the Office of Federal 
Student Aid is the country's biggest lender. But unlike banks, it does 
not have a clear governing structure with deep financial experience to 
provide strategic direction and oversight. Instead, the Office relies 
mostly on the Secretary of Education, along with Congress and others, 
for these critical roles. In 1998, when the Office of Federal Student 
Aid was established as a performance-based organization, annual aid was 
less than half of what it is today, and the Office was largely tasked 
with overseeing and guaranteeing privately issued student loans. Many 
of the complex programs we are familiar with today-- TEACH grants, 
Public Service Loan Forgiveness, most income-based repayment plans--
didn't even exist. While just about everything in world of student aid 
has changed, the Office of Federal Student Aid's structure and 
governance has stayed the same. Moreover, we should all be concerned 
that political interference could distract the Office from what should 
be a laser-like focus on delivering world-class service to help 
students and their families finance postsecondary education.
    For all of these reasons, we believe it is time to consider whether 
the Office of Federal Student Aid would be a stronger and more 
effective organization if it had a reformed governance structure. As 
part of this discussion, we also believe Congress should consider 
whether FSA would work better as a separate organization from the U.S. 
Department of Education. Managing one of the world's largest consumer 
loan portfolios requires a different set of skills than managing the 
distribution of grants to local and State educational agencies. Our 
Budget proposes to launch this overdue discussion by evaluating these 
issues in order to ensure that we best serve students and taxpayers 
alike.
    Each of these bold proposals marks a significant change from the 
status quo. I know that will invite criticism and handwringing. But let 
me urge all of us to move beyond the immediate discomfort of change and 
instead focus on the needs of the rising generation. A generation who, 
by most accounts, will be less literate than the generation before it 
if we do not implement significant changes to our approach to 
education. A generation who will face unprecedented economic change and 
need more nimble education options. A generation who will be more 
mobile and more connected than any in history. What they need from 
American education is not the programs we fund today, simply because we 
funded them yesterday and the year before that and the decade before 
that. What they need is a complete rethinking and challenging of 
everything we do so that nothing stands in the way of their continued 
growth and success.
    Thank you again for this opportunity to lay out our 2021 Budget 
proposals and related reforms. I look forward to discussing these 
proposals further with you over the coming weeks and months as we work 
together to improve educational opportunities and outcomes for all 
Americans.

    Senator Blunt. Well, thank you, Secretary. Again, we are 
glad you are here today.

                 ELIGIBILITY FOR RURAL EDUCATION REFORM

    First question. Last month, the Department notified States 
that some rural school districts would no longer be eligible 
for funding under the Rural Low-Income School Program because 
they were using the wrong data to demonstrate eligibility. You 
and I talked about this Tuesday, and your view was that is what 
the law says.
    Last night, the Department announced that they had found an 
alternative way to move forward on this. Do you want to talk 
about how you found that and maybe why you didn't find it 
before you announced that they were going to have cuts in all 
these districts?
    I know Senator Collins from Maine on the full committee has 
worked very vigorous about this. I think Oklahoma also was 
really impacted. Missouri districts were impacted. Tell us how 
you found the flexibility to not make the reductions that you 
said were going to have to be made.
    Secretary DeVos. Well, thanks, Senator, and let me just 
back up a little bit to help you better understand how we 
actually got there in the first place.
    We did a review of many of our grant programs in this last 
year, and then it was discovered that States had, indeed, since 
the inception of the program, been using the wrong data, and in 
order to comply with the law, that was the move we had to make.
    However, understanding that States had for now 17 years 
been operating under one thesis and theory, we also are very 
concerned about the impact on schools and districts in rural 
communities, and having received expressions of concern that 
schools were budgeting on those for this next year, we felt 
that using a transition authority to allow for this to ease 
into for a year to happen and Congress being able in this next 
year to do a relatively simple fix to have the law comply with 
what apparently is the intent of the law, that there would be 
ample time with a transition year to be able to do that so 
students aren't impacted this year.
    But it is something that Congress is going to have to act 
upon in order to continue to comply with the law.
    Senator Blunt. Well, apparently not, since you found the 
transition way to do it, and they have done it the other way 
for 17 years. Did nobody recommend this to you before you 
announced you were going to make the cuts?
    Secretary DeVos. Well, unfortunately, it is one of those 
things that got communicated, probably prematurely, directly to 
the involved individuals rather than coming to my attention and 
others'. We clearly don't want to see individuals and students 
in rural areas hurt.
    That said, clearly, for this long period of time, the data 
on which the grants have been let out has been inaccurate and 
not in compliance with the law.
    And so having a year of transition--and I think the defense 
for it is the disruption that would take place for those 
schools that have been budgeting accordingly for this period of 
time--is an appropriate transition. But it is something that is 
going to have to be fixed in the law.
    Senator Blunt. But not for this year?
    Secretary DeVos. Well, again, I think we feel that there is 
a valid reason to use a transition authority for a limited 
period of time.
    Senator Blunt. Well, we will see what the authorizers 
decide about that.

                            CAREER PATHWAYS

    On Career Pathways, what are you doing? As I suggested 
earlier, we gave the Department $10 million in the budget we 
are in right now to begin to look for ways to create 
opportunities earlier.
    The Department of Labor has increased their funding 
request, at least, for Career and Technical Education State 
Grants by 15 percent. I think this is an area where you and 
Labor both have responsibility and opportunity.
    What are you encouraging to happen in the next few months 
that wouldn't have been happening a year ago before we got to 
where we are? Apprenticeships at the Department of Labor have 
been an area of great growth. But what are you doing at the 
Department of Education?
    Secretary DeVos. Well, we are continuing to support and 
promote under the existing budget, and with the additional 
funds that you appropriated last year, we have begun a 
competition for those grants to encourage the exploration of 
multiple--supporting these multiple pathways. And our budget 
this year, as you noted, takes--it requests a significant 
uptick increase in current technical education funds.
    With the reauthorization of the Perkins Act, States have 
been working on their plans for this year. Those plans are 
coming due this spring, and many of them are very ambitious 
around expanding these opportunities for students not only in 
high school but reaching down, as you noted in your opening 
comments, into the middle school years to begin helping 
students understand what multitude of options they have.
    And I had the opportunity just late last week to visit 
another career and technical facility in Tennessee that is 
doing tremendous work to provide options for students of all 
ages, frankly, so it would--you know, what they do would span 
both the elementary and secondary funding but also the Labor 
Department funding into these career and technical options that 
are so needed.
    The demand for them is great and they are great 
opportunities for students. So we are continuing to focus very 
keenly on all of these opportunities.
    Senator Blunt. Great. Thank you, Secretary.
    There will be a second round of questions if anybody wants 
to stay for that. But let us try to stay as close as we can to 
the questioning time.
    And Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. Again, 
Madam Secretary, thank you.

                              CORONAVIRUS

    As you know, 10 people in my home State of Washington have 
already died from coronavirus, and it is really a frightening 
time for students and families in my State, and it will be 
across the country.
    I understand you created a task force and launched a 
webpage with some information and resources and, as you know, I 
sent you a letter yesterday with questions about those and 
other efforts to prepare for this continued spread and 
communicate with the frontline stakeholders--school districts, 
State educational agencies, institutions of higher education--
about how they can best protect their students, their teachers, 
and other staff.
    Given the urgency of this issue, I hope you can respond 
fully to my letter. But I wanted to ask you a few questions 
today. CDC (Centers for Disease Control and Prevention) has 
urged schools to prepare for the continued spread of 
coronavirus.
    How is the Department coordinating now with Federal, State, 
and local public health officials to develop preparedness and 
response plans related to the virus?
    Secretary DeVos. Senator, from the start, President Trump 
and the whole administration have been focused very keenly on 
preparing individuals and at the most local level, preparing 
them with information and preparing across government.
    So the working group that has been stood up in the 
Department of Education is in regular, frequent, multiple-
times-daily contact with the CDC for updates from them on 
latest developments.
    As you noted, we have created a webpage for schools and 
districts for anyone affiliated with education to go and see 
the latest information from the CDC, links to that. We have 
established a dedicated email at the Department and can help 
refer on specific questions through that email.
    And then as you noted in your opening comments, we have 
just released guidance from the Office for Civil Rights 
reminding schools of their responsibilities around ensuring 
that students are not discriminated against based on their 
ethnicity or heritage, and we have also released guidance for 
the higher education world, talking about the multiple 
different flexibilities that we will be, you know, open to and, 
again, depending on the development of the circumstances, that 
we will ensure happen.

   INFORMATION TO THE PUBLIC REGARDING VULNERABLE STUDENT POPULATIONS

    And then I think also, importantly, Mark Schultz, the 
Assistant Secretary for OSERS (Office of Special Education and 
Rehabilitative Services), is working on updating the 2009 H1N1 
plan and guidance around students with disabilities.
    Senator Murray. Do you know when that will be available?
    Secretary DeVos. It should be very soon. I know it was--it 
did not seem that there had to be a lot of amendments or 
changes made.
    Senator Murray. Okay. Because as I mentioned in my opening 
remarks, I know North Shore School District in my home State 
has now announced in the middle of the night that they will be 
closed for 2 weeks.
    They said 26 of the schools in their district had been 
affected via direct or indirect exposure at that point. The 
absentee rate was 20 percent, and 16 percent of their employees 
are over 60, and in Washington State right now, if you are over 
60 they are asking you to stay home. So we will see more of 
this.
    And because of that, I wanted to ask you specifically, and 
we need information quickly, as this continues to spread, how 
are you talking to districts about students with particular 
needs, students with disabilities, students who are--come from 
food insecure families, students experiencing homelessness?
    As school districts close, what is your guidance to those 
schools to deal with those difficult populations?
    Secretary DeVos. Well, thank you. I would, you know, refer 
to some of the things I just mentioned and we are working hard 
to make sure the guidance around students with disabilities is 
updated and released very soon here.
    I know that that is a need and a necessity. We are going to 
continue to be working very hard along with all of my 
colleagues across government to ensure that all of the 
resources and information that we have here is made available 
as quickly and as promptly as possible to those at the local 
district.
    You know, local communities being able to have that 
information and updated regularly to make the best decisions 
for their communities is certainly our goal.
    Senator Murray. Well, the challenges are going to be real 
and I would just let all my colleagues know there is a lot of 
parents going, how do I deal with day care, how do I go to 
work, I don't have paid sick leave, I don't have the ability to 
stay home from work and care for my kids and pay rent. So 
this--the impacts of this are going to grow.
    Senator Blunt. Thank you, Senator.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Welcome, Madam Secretary. Glad to have you here.
    Secretary DeVos. Thank you.

                FREE APPLICATION FOR FEDERAL STUDENT AID

    Senator Alexander. Last December, the Senate adopted an 
amendment that Senator Murray and I made to a House bill that, 
number one, permanently funded Historically Black Colleges, and 
number two, simplified filling out the Federal aid application 
form for college for 20 million American families.
    You played a critical role in that, in getting the 
administration to agree to that, and I want to give you most of 
the time that I have here to allow you to talk about how you 
are going to implement both of those.
    But I want to take about a minute and remind everyone of 
how important that is. I have held this up so often that people 
are tired of seeing it. But in Tennessee there are 400,000 
families that fill this out every year. If they do--this is a 
FAFSA (Free Application for Federal Student Aid)--if they do, 
they can get 2 years of free community college. That is the way 
that works.
    Former Governor Haslam says the biggest obstacle to that 
two free years is this obstacle because it is so cumbersome. 
The president of Southwest Community College, largely an 
African-American population, says that he loses 1,500 students 
a day because of the complexity of that. The way it works is 
you fill this out in February.
    You get notified, maybe in April through June, that you 
have completed it, and then come something in the summer called 
verification. For 5\1/2\ million American families, say, 
100,000 in Tennessee where the IRS--where the Department checks 
to see through the college that you are going to attend whether 
you made a mistake in translating your IRS information to this 
form.
    Well, of course, many students do make a mistake, and that 
slows down the money they get. At the East Tennessee State 
University, the president told me 10,000 were subjected to this 
verification.
    What the amendment did that Senator Murray and I offered 
and which was adopted and which you had a critical role in 
signed by the president was to have the IRS fill out the 22 
questions on this form so there won't be those mistakes in most 
cases, thereby eliminating the so-called verification process 
for, in our State, about 100,000 families every year.
    What steps are you going to take to implement this, and 
when can we see this law in place?
    Secretary DeVos. Well, Senator, thanks so much for setting 
that up, and thank you to you and Senator Murray for your 
leadership here to ensure that that act was actually passed 
into law.

        STREAMLINING STUDENT AID APPLICATION AND LOAN DISCHARGE

    It is a really big step in the direction of simplifying 
FAFSA for students and, importantly, streamlining things like 
Total and Permanent Disability, Income-Driven Repayments, and 
just the whole application process.
    So we have, immediately upon passage and signing of the 
law, begun meeting with the IRS to work on implementation steps 
and are diligently proceeding with those and hope to have a 
timeline soon as to when it can all be fully implemented 
because, importantly, this is going to be impactful for all 
students, both current and prospective.
    As you noted, I mean, I just want to run through a couple 
of the benefits of full implementation. The streamlining will, 
you know, populate 22 different questions directly from the IRS 
and it will also, importantly, for Income-Driven Repayment 
borrowers, eliminate the need to annually recertify their 
income.
    So another really important benefit: it will simplify the 
Total and Permanent Disability discharge process, and it will 
significantly reduce the burden on student applicants in 
schools related to income verification.
    As you have noted, that has been increasingly onerous. And 
then, very importantly for everyone, it will ultimately reduce 
improper payments because mistakes are made in manual 
transmission. And so it is our goal, and I know that the folks 
that our team has been working with at the IRS are fully 
committed to implementing this as quickly as possible.
    Senator Alexander. Well, I commend you for it. I commend 
you also for putting the FAFSA on the device so students can 
use it.
    This should make it a lot easier, and I think it is 
important to say that by adopting this law, by enacting this 
law, we saved them enough money from improper payments, 
according to the Congressional Budget Office, to fully fund 
permanent funding for Historically Black Colleges.
    Secretary DeVos. Absolutely.
    Senator Alexander. So it was a significant----
    Secretary DeVos. A win-win.
    Senator Alexander  [continuing]. Accomplishment and I 
credit the administration as well as Senator Murray for 
patience and persevering and making it happen.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Alexander.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman, Ranking Member.

             STUDENT SUPPORT AND ACADEMIC ENRICHMENT GRANTS

    Secretary DeVos, once again, your budget proposes 
eliminating the Student Support and Academic Enrichment Grant 
Program under Title IV(a). This formula grant for which 
Congress increased funding yet again last year in debating the 
fiscal year 2020 budget to $1.21 billion.
    This formula grant supports programs and provides for a 
well-rounded education, safe and healthy schools, and effective 
use of technology. This year your budget would consolidate this 
program and many others into a new elementary and secondary 
education for the disadvantaged block grant while slashing a 
total of $4.7 billion in funding from the many programs that it 
would combine.
    You argue that this will provide greater flexibility for 
school districts to meet their students' needs. But I fail to 
see how cutting $4.7 billion in funding gives schools greater 
flexibility when in fact it requires them to do more for their 
students with fewer resources.
    I certainly want to allow you the time to respond to defend 
that assertion. But last year when you argued that Title IV(a) 
was ineffective and underutilized, I asked whether the 
Department had actually collected data on how districts are 
using this money, and at that time last year you had not done 
so.
    I am curious to know whether that has changed. Do you have 
data that supports your contention that there is insufficient 
flexibility for districts that are using their Title IV(a) 
money?
    Secretary DeVos. Well, Senator, thanks for the--thanks for 
those questions, and I would just take a step back and look 
more broadly at our proposal that seeks to not eliminate any of 
the elementary and secondary education programs but instead 
combine them all together and give them to the States to then 
fund the local districts and allow those--that flexibility at 
the district level to prioritize what of those programs really 
has been meaningful for the students in their district.
    And we know from, you know, talking with many educators at 
the local level, the difficulty with all of the siloed pots of 
money. There is a less efficient and effective way to actually 
meet the needs of the most vulnerable students they are 
serving.
    And as I said in my opening remarks, we have invested the 
last 40 years at the Federal level alone over $1 trillion 
seeking to close that achievement gap between those at the 
highest performing end of the spectrum and those at the lowest 
end of the spectrum, and not only have we not closed that gap 
one little bit, by many measures and in many places, that gap 
has actually widened.
    And so our contention is that we need to do something 
different. We can't keep doing the same things and expect a 
different result, and allowing those closest to the students--
--
    Senator Baldwin. Because I do want to ask another question, 
let me just ask specifically, last year when I asked, the 
Department had not collected data on how districts were using 
the Title IV(a) money. Have you done that since? Yes or no.
    Secretary DeVos. To the extent that we have been required 
to, we certainly have. But I go back to the idea that----
    Senator Baldwin. Well, I would like to see that, but I--
last year the answer was no, and so if you have started 
beyond--since then I would like to see.

   USE OF STUDENT SUPPORT AND ACADEMIC ENRICHMENT GRANTS FOR STUDENT 
                                 HEALTH

    My second question is related to the first. Because Title 
IV(a) gives school districts resources that they can use to 
support student health and safety, there are more and more 
demands, as you know, on schools every day regarding their 
students' health and well being, and they now face a daunting 
set of challenges related to the novel coronavirus, as you 
heard from the ranking member in significant detail. At the 
same time, schools are grappling with shortages of staff to 
help meet those needs.
    So, Secretary DeVos, by cutting funding the schools can use 
for student health, aren't you making it harder for them to 
respond to these new demands like the outbreak of the novel 
coronavirus, and have you done any sort of assessment on what 
those costs are going to be as we look at an all of government 
response to the novel coronavirus?
    Secretary DeVos. Well, Senator, as you know, you are the 
appropriators and you decide where to set the budget, and our 
proposal suggests, importantly, the policy around how local 
districts will access funds.
    In our proposal to combine all of those different line 
items from the elementary and secondary education budget into 
one to allow that flexibility for a district that does have a 
high need and/or concern in the areas of health and safety for 
their most vulnerable students, they could use more of those 
resources in that way, and for another community that has a 
different priority, they would have the flexibility to use 
their funds, any one of those 29 programs, in that way.
    So I think what the proposal suggests is that those closest 
to the students are best able to target the resources to the 
students that are most vulnerable in their area for whatever 
reason and whatever supports are most beneficial for them.
    Senator Blunt. Thank you, Senator.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman, and thank you, 
Secretary DeVos.
    I would like to say to my friend from Washington State 
that, you know, any way that we can be helpful because it can 
be really critical what your response is in the education realm 
and, really, all cylinders.
    We want to be helpful, I think, and we wish--you know, we 
want you to be strong and we want you to--and we want to help 
you as much as we can. So our thoughts are with you. I am not 
expressing myself as well as I would appreciate it.

                     CAREER AND TECHNICAL EDUCATION

    But anyway, Secretary DeVos, on the career and technical 
education, workforce development is exceedingly important.
    The administration is--through the budget is looking at a 
53 percent increase in CTE State grant funding, and that is 
very encouraging to me, coming from a State that is trying to 
transition our economy from a more energy-based economy to a 
more high tech, more entrepreneurial, and also to create an 
enthusiasm with our younger students for careers to where we 
are having shortages, whether it be welding or other--coding 
and all kinds of things like that.
    So I guess my question is how do you measure success in 
this area, and how do you know which parts of career and 
technical education need bolstering up, and how do you intend 
to measure that success?
    Secretary DeVos. Well, those are very good questions, 
Senator, and I think we would seek to work with you on specific 
areas of measurement.
    But our proposal to dramatically expand the funding for CTE 
comes at a time when the State plans have--are just in the 
process of being finalized after the reauthorization of Perkins 
and I think will be very beneficial to the extent that you all 
decide to fund CTE at a higher level to all of the States.
    We are seeing some, you know, interesting different kinds 
of approaches and plans, and that is exactly what I think is 
going to be helpful and beneficial for a State to be able to 
sort of benchmark another State and see what they are doing and 
how they are using those funds to really dramatically expand 
these opportunities for students as young as down into the 
middle school years.
    Senator Capito. I agree. I think it is concerning, though, 
when the Nation's Report Card says that 25 percent of our 
eighth graders cannot read a basic grade level passage. Very 
concerning.
    That skill has to be translated into CTE. You can't go into 
a successful CTE program and be successful if you can't read 
the manual or read the computer instructions or whatever else.
    So I think that concerns me as well. These are not simple 
jobs in the career and technical space as maybe they were 20 or 
30 years ago where you didn't have to have maybe as acute 
skills in those areas.
    Secretary DeVos. No, every single one of our students does 
need to be able to read. That is a skill for life and a 
necessary skill that you can't do without for sure.

                         PELL GRANT ELIGIBILITY

    Senator Capito. One of the other areas that the president's 
budget, again, included an expansion of: Pell Grant eligibility 
for students enrolled in high-quality short-term programs, and 
also we expanded the Pell eligibility through the summer 
programs, which I have gotten a lot of very positive feedback 
on as well as a continuity of education.
    There was a bill out there, Jumpstart Our Businesses by 
Supporting Students--the JOBS Act--which I supported, which 
would help with the short-term eligibility. How is that 
expansion of that eligibility and Pell Grant been rolled out, 
and has it been successful, and are there a lot of--is there a 
lot of uptake on it?
    Secretary DeVos. Well, the short-term Pell programs have 
been limited to pilots and, you know, we are very hopeful. Part 
of the administration's budget proposal is that a short-term 
program actually be made a permanent and expanded part of the 
repertoire for the Pell.
    Senator Capito. Right. So I would assume that by the 
administration's desire to increase that program that the pilot 
studies have shown success and a willingness for students to 
enroll in these types of programs if the affordability issue is 
answered. Is that what you are finding?
    Secretary DeVos. Absolutely, and, I mean, there is great 
demand. Of course the demand varies from State to State, from 
region to region, depending on what the opportunities are, and, 
you know, we would look forward to working with you to ensure 
the right kind of guards around--you know, guardrails around 
the program. But I think it is something that you all need to 
look seriously at making it a permanent expanded program.
    Senator Capito. So I would like to see, and maybe you could 
follow up with our office later, where these pilot programs are 
and maybe we could get in touch with them directly----
    Secretary DeVos. Certainly.
    Senator Capito  [continuing]. To see where their successes 
and failures have been.
    Thank you.
    Senator Blunt. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Good morning, Secretary DeVos. Thank you for being here.

                    PUBLIC SERVICE LOAN FORGIVENESS

    I am very concerned about the repeated requests to 
eliminate the Public Service Loan Forgiveness Program, which, 
again, is in the budget this year.
    I am even more concerned about the Department's 
mismanagement of the program, about which I and others in the 
Senate have written you several times.
    As you know, the program was created in 2008, and it 
commits to participants that if they work for 10 years in 
public service, if they stay current on their student loan 
payments, the remainder of their debt will be forgiven.
    But under your administration of that program, 99 percent 
of borrowers have had this promised debt relief denied. Again, 
this denial comes after they have already participated in the 
program for many years and made serious career and life 
decisions based on the promise that they would get relief.
    And I just want to share a message that I received from a 
constituent, Regan, who is a social worker in Claremont, New 
Hampshire, about this program.
    She wrote to me, and I am reading from her message, ``I 
wanted to email you regarding the loan forgiveness program. I 
have learned that this program may go away or is on the 
chopping block.
    Several years ago, I went to school to get my Master's in 
social work in an effort to do more for my community. I 
graduated with a Master's in social work in 2008 and have been 
paying ever since. I eventually entered the loan forgiveness 
program and as of right now, I believe I have 5 years left as 
long as I continue to meet the requirements.
    In 2015, I was diagnosed with MS, multiple sclerosis. I 
thought I was seeing the light at the end of the tunnel that 
perhaps in 5 years my loan would be forgiven. Without the loan 
forgiveness program, I will surely be working to pay this loan 
off until I am dead.
    I am asking that every effort be made to maintain this 
program. To me, this is huge, especially with my medical 
condition.''
    So, Madam Secretary, how do you answer Regan from 
Claremont?
    Secretary DeVos. Well, I assume she has applied for the 
Public Service Loan Forgiveness Program and is probably in 
process making her payments. Our proposal----
    Senator Shaheen. She says that in her message.
    Secretary DeVos. Our proposal is to sunset the Public 
Service Loan Forgiveness Program. The administration feels that 
incentivizing one type of work and one type of job over another 
is not called for.
    We have a demand in our--you know, over 7 million jobs 
going unfilled today--and favoring one type of pursuit over 
another type of pursuit philosophically doesn't line up with 
where we are.
    Senator Shaheen. But, Madam Secretary, I am----
    Secretary DeVos. But just to be clear on the existing 
program, our commitment is to ensure that those who are part of 
the program today and who meet the qualifications--now, you all 
made it a very difficult program to qualify for and, you know, 
10--first of all, 10 years----
    Senator Shaheen. But it didn't seem to be so difficult 
under the previous administration.
    Secretary DeVos. Well, it----
    Senator Shaheen. It is under your administration that 99 
percent of the applicants have been denied. And so I guess that 
is what I am trying to understand.
    Secretary DeVos. Well, I have to point out that under the 
previous administration no student qualified because it is a 
10-year program.
    Senator Shaheen. Ten-year--10-year program. I understand.
    Secretary DeVos. So we have just come into the time period 
that even those in the earliest end of the program who have 
done all of the requirements are coming due for consideration. 
So----
    Senator Shaheen. So do you have recommendations for 
Congress on what we should do to make it better, short of 
eliminating it?
    Secretary DeVos. We do----

                INCENTIVES FOR PUBLIC SECTOR EMPLOYMENT

    Senator Shaheen. Because I guess I would disagree with your 
comment about we don't have reason to incentivize work in 
certain areas. In rural New Hampshire, we can't get social 
workers.
    We can't get healthcare workers. We can't get so many of 
the people that we need in order to maintain our communities 
and keep people there and keep them healthy and having 
opportunities.
    So having incentives to attract them is something that is 
really important, especially in a time when our unemployment 
rate is one of the lowest in the country.
    So I want people to get the best jobs that they can paying 
the most that they can. But if they want a job that is going to 
help a community, that is going to help the State of New 
Hampshire, that is going to help the country and we can 
incentivize them to do that, then I think that is in the public 
interest.
    So I would fundamentally disagree with your thinking about 
this and the administration's thinking about this. I just think 
it is shortsighted in terms of what we need in our economy.
    Secretary DeVos. Well, I appreciate that. But how do you 
tell a nurse that works in privately-owned hospital that her 
work is less important than a nurse that works in a not for 
profit hospital?
    Senator Shaheen. Because there are incentives in the 
private sector that can help attract people that in the public 
sector we often don't have, and that is the benefit of having 
this program.
    In the State of New Hampshire, when I was governor, we had 
significant challenges getting rural healthcare workers because 
they just couldn't come. We couldn't afford to pay them. Our 
rural hospitals couldn't afford to pay them what they needed. 
And so we had people who had unmet needs because of that.
    So we set up a State incentive program to try and benefit 
them. But we didn't have the funding to do everything we needed 
to do, and that is why this kind of program is so important, 
and to say that 99 percent of the people who have applied are 
going to be rejected is just not acceptable.
    If there is a fix that Congress needs to do for that, then 
I hope you will let us know that so we can do it.
    But to just say this is a program that suddenly the 
Department has decided we are going to reject because even 
though Congress passed it is not the direction that I think we 
should be going in.
    I am out of time, Mr. Chairman.
    Secretary DeVos. No, ma'am. That is not fair to say. The 
reality is that most of those individuals have not yet 
qualified and so there are suggestions that we can and would 
make at your invitation to improve the existing program and we 
still would appeal, going forward, that the program be ended 
and that those in the program currently be allowed to process 
through.
    But we have a lot of opportunity and a lot of need in terms 
of careers and employment in our country.
    Senator Blunt. Thank you, Senator. I think we would like 
those suggestions as to how the current law should be improved, 
assuming that the current law continues to move forward.
    Senator Lankford.
    Senator Lankford. Mr. Chairman, thank you.
    Secretary DeVos, thank you. Thanks for all your work. You 
all have done a lot of work in a lot of areas, from the very 
young to the graduate student. So thank for your engagement on 
this.

                ELIGIBILITY FOR RURAL EDUCATION PROGRAM

    I do appreciate as well--Senator Collins, Senator Blunt, 
several others, and I have sent you a letter about the rural 
schools formula. That is a very big issue in Oklahoma with a 
lot of rural schools there, trying to be able to work through 
those schools.
    All were trying to do their best and to be able to honor 
what they thought was the rule and then to be able to find out 
another rule may be different. They need time to be able get 
the right data.
    So I appreciate their ability to be able to get time to be 
able to get the right data in and not hurting those schools 
that as far as they knew were following the rules as they went 
through it.

                   AID FOR INSTITUTIONAL DEVELOPMENT

    I also appreciate--I have learned today on the Title III 
grants that there is an extension for colleges to be able to 
get a little more time to be able to apply. I have several in 
Oklahoma that are going through that process of the Title III 
grant application process.
    They need a little bit more time on it. They got it today, 
and that is another thing I would ask you about, and so I 
appreciate that very much.
    Let me ask you an odd question. Have you ever been to 
Konawa, Oklahoma?
    Secretary DeVos. Konawa, Oklahoma?
    Senator Lankford. Konawa, Oklahoma? No?
    Secretary DeVos. Yes. Yes, I have.
    Senator Lankford. Have you ever been to Jenks, Oklahoma?
    Secretary DeVos. Jenks? No.
    Senator Lankford. How about Burns Flat, Altus, Stroud, or 
Jay?
    Secretary DeVos. No, Senator, I have not.
    Senator Lankford. Fantastic towns. You ought to come visit 
at some point.
    Secretary DeVos. I am sure they are.

 ELEMENTARY AND SECONDARY EDUCATION FOR THE DISADVANTAGED BLOCK GRANTS

    Senator Lankford. Different as can be, all over the State, 
and they need different things in education. I do appreciate 
very much that you have put a very bold proposal in front of 
us, and I know there will be debate on it and conversation.
    But you are not trying to treat Jay, Konawa, Jenks, and 
Stroud the same when they are very different in their 
communities and have very different needs and have very 
different structure.
    So I just want to tell you, I appreciate the idea. The idea 
is worthy of debate. There will be lots of argument about 
funding and amounts and how that should be done. But I 
appreciate you're not abolishing any programs. You are just 
giving the flexibility to all those communities to be able to 
do that.

                  ANTI-SEMITISM AND RELIGIOUS FREEDOM

    I also appreciate some of the work that you and the 
administration have done on dealing with anti-Semitism and 
trying to get a definition.
    We have had in the State Department a definition on anti-
Semitism for a very long time that has not extended into the 
Department of Education until the latest executive order on 
dealing with anti-Semitism and to try to get a clear definition 
across the education spectrum on that.
    I would like to know how that is going and what you are 
finding with that.
    Secretary DeVos. Well, Senator, that has become an 
increasingly important issue. We have seen more and more 
incidents on campuses across the country, and I am thankful for 
the President's executive order to help clarify and spur the 
movement in the direction to ensure that students on campus are 
protected and that--both their free speech and their ability to 
practice their faith openly and without concern is protected in 
every way and we are committed to seeing that through.
    And where there have been cases that are civil rights 
infringements, we encourage individuals to approach the 
Department and the Office for Civil Rights is looking at those 
incidents carefully.
    Senator Lankford. How is that going with all issues of 
faith on campuses, wherever it may be? Are you dealing with 
other unique challenges that need to be addressed by us, or do 
you have what you need?
    Secretary DeVos. Well, I think with some of the most recent 
clarifications and steps taken, it does put the onus back on 
schools at the K-12 level to be clear about their process for 
if a student feels they have been--their rights have been 
infringed--and it also makes clear that those schools have got 
to report those incidents to the Department of Education so we 
have full transparency into what is going on.
    Senator Lankford. Okay. Let us know on what we need to do 
to be able to address that because it is very important as a 
constitutional protection for all individuals based on faith.
    We should have open free speech on campuses. We should have 
the ability to be able to practice faith. We should be able to 
live that out. And so if you are finding barriers to that, you 
need to let us know on it.

          90/10 LIMIT ON FINANCIAL AID FOR FOR-PROFIT COLLEGES

    I have sent something to your office before. I am not 
asking you to be able to sign on at this point, but I want to 
keep your team involved. There are several of us that have 
worked very hard to be able to deal with the 90/10 rule on--
especially for for-profit schools--and to be able to make sure 
that we are very clear.
    Now, this was something in statute a long time ago. There 
have been a lot of issues on interpretation on this basic 
issue: should a school have, basically, 100 percent of their 
funding all come from Federal sources?
    We determined as Congress a long time ago 90 percent is the 
maximum that they could do, and then there has been this debate 
about VA funding and such, whether that is Federal or whether 
that is something else. We are trying to clarify that.
    We have sent over a copy of that to your office to be able 
to make sure that you have the opportunity to be able to get 
some input on.
    But that is a bipartisan effort that we are trying to be 
able to work through on the 90/10 rule and we would appreciate 
your engagement in the days ahead to be able to make sure that 
we get that right.
    We are not trying to box out any school, but we are trying 
to be able to keep the spirit and the letter of that 90/10 rule 
as we go through.
    Secretary DeVos. I appreciate that. Thank you.
    Senator Lankford. With that, I thank you. Thank you, Mr. 
Chairman.
    Senator Blunt. Thank you, Senator Lankford.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.

                        RESTRAINT AND SECLUSION

    Good to see you again, Madam Secretary. Thank you for being 
here. I am holding in my hand a press release from January of 
last year where you announced an initiative to address the 
inappropriate use of restraint and seclusion to protect 
children with disabilities and ensure compliance with Federal 
laws.
    I thank you for this. This is an incredibly important 
issue. There is a need for guidance for school districts that, 
for a variety of reasons, are doing this wrong today and are 
restraining far too many children, are locking certain kids up 
in seclusion.
    We had incidences in my State of Connecticut in which some 
schools were using something called scream rooms in which they 
would lock kids in rooms for hours at a time with no meaningful 
supervision.
    I think it is really important that you have tasked OCR 
(Office for Civil Rights) with monitoring this and working with 
States to do better. I don't know if you have any update to 
share on this today. But I think this is an incredibly 
important partnership that we can engage in, Republicans and 
Democrats, to try to reduce the need for restraints and, I 
would argue, the elimination of seclusion as a practice in 
schools, especially for kids with disabilities.
    Secretary DeVos. Well, thanks, Senator. I appreciate your 
bringing this up, and it is an ongoing initiative. We initiated 
audits in--across the country through the 12 regional offices 
of the Office for Civil Rights to ensure--well, audit a number 
of schools in districts and then to ensure--communicate and 
ensure that schools know what their responsibility is around 
the law, primarily to bring a lot more sunlight to this and a 
lot more transparency.
    And don't yet have a report or a result to share with you, 
but it is an ongoing concern, and it is very high on my list of 
priorities as well.
    Senator Murphy. Well, if there is going to be a product, a 
report, I would encourage you to present that as soon as 
possible. I think there is interest in Congress in legislating 
appropriately on this question, and your guidance could be 
helpful. Thank you for your focus on that.
    I wanted to stay on the issue of civil rights. Civil rights 
data collection is something that I have cared a lot about, in 
part because I have seen how important it is for the Federal 
Government to be in the business of collecting national data.
    National data is really important so that we can compare 
apples to apples. I know you are a believer in States having as 
much discretion as possible. But it is kind of hard for 
Connecticut to know whether we are doing something right or 
wrong if we can't compare ourselves to other States.
    And so the Civil Rights Data Collection is a report that is 
produced every 2 years that allows States to take a look and 
see how they are doing compared to other States in terms of how 
children of color or children with disabilities are performing.

           CIVIL RIGHTS DATA COLLECTION QUESTION ELIMINATIONS

    And I am really concerned because you have proposed getting 
rid of a lot of the data that is collected here, and you are 
proposing to eliminate data including teaching experience, 
school funding, chronic absenteeism, advanced coursework, and 
access to early childhood education.
    And I have an example of why some of the data that you are 
proposing to get rid of has helped, and one of the things we 
have figured out is that, well, African-American kids represent 
only 20 percent of preschool children.
    They represent 50 percent of preschool children who are 
suspended. That is an abomination. And because we knew that, 
Connecticut actually led the way in reforming our practices.
    We, in fact, just eliminated preschool out of school 
suspensions, and many other States are now acting because we 
had that data nationally and States could see how they are 
doing.
    So given the importance of data, something that Republicans 
and Democrats have generally agreed on, why would the 
Department try to make it harder for policy makers and 
advocates to use data to make change?
    Secretary DeVos. Thanks for the question.
    We have, indeed, proposed the elimination of some of the 
questions from the most recent data collection universe and 
adding additional ones. There has been a back and forth on the 
comment period, and we are certainly open to and considering 
the second round of comments on that.
    It is, clearly, our interest to ensure that the data that 
is collected is useful for States and communities, and we will 
look more closely at the areas of concern that you have 
expressed.
    I would say that some of the proposed changes and/or 
eliminations are now captured under ESSA reporting requirements 
as well, and so there is some of that going on as well.
    Senator Murphy. I would just encourage you to take another 
look at this. I understand the concern about unfunded mandates. 
I don't hear a lot of complaints from school districts on the 
civil rights data reporting, and if the Federal Government is 
involved in education for any reason, it is for the purposes of 
defending people's and children's civil rights.
    And so I think this is really important data to get back in 
that collection system.
    I appreciate your response. Thank you.
    Senator Blunt. Thank you, Senator Murphy.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman, and thank you, 
Madam Secretary, for being here and for your good work.
    I want to ask your thoughts on a subject. Let me preface it 
by saying that I have never met a politician who didn't support 
children and prosperity and jobs and education, and I am one of 
them. I support education.

            STUDENT AID FUELING COLLEGE AFFORDABILITY CRISIS

    My question is about higher education. It is undeniable 
that the cost of higher education, tuition in particular, but 
the fees that are added on have increased dramatically since 
1985. I have seen studies that show since 1985 the cost of 
tuition has risen faster than healthcare and housing.
    Some would argue that our universities cost more and teach 
less, but I am not sure I agree with the second part of that. I 
just know they cost more. What, if any, relationship--and the 
money doesn't seem to be going to the faculty. It just doesn't 
seem to be--at least not in Louisiana, and I bet we are not 
that different from other States.
    What do you--do you see a relationship between the dramatic 
increase in tuition and fees and the fact that for a variety of 
reasons it is easier than ever to borrow money?
    Secretary DeVos. I think there is definitely a relationship 
there, and one of our proposals--part of our proposal in the 
budget----
    Senator Kennedy. And by the way, a lot of people make money 
off of lending that money, do they not?
    Secretary DeVos. Well, that is----
    Senator Kennedy. Excuse me for interrupting. You go ahead.
    Secretary DeVos. That is okay. I think it is--the cost of 
higher education is a very complex issue. But you look at any 
chart over the last 30 or 40 years and it shows the cost of 
higher education increasing dramatically while at the same time 
many different consumer goods and things that we take for 
granted daily have continued to decrease in cost.
    One of our--part of our proposal in the budget is capping 
the amount that graduate students can take out in loans because 
currently they are--as you well know, they are uncapped, and we 
have today over 800,000 students that have over $200,000 in 
debt.
    Ninety-three percent of them would still be captured under 
the proposal that we have advanced there.
    That is one step, one thing we can do. Another thing that I 
think is really important that we have done and that I think is 
going to be more and more useful and people become more and 
more aware of it is adding data to the College Scorecard down 
to the program level by institution.
    So if I am considering going to two or three different 
colleges for a specific program, I can compare the costs 
between the three and, importantly, I can compare what the 
earning potential is from each of those programs after I have 
graduated from that program.
    Senator Kennedy. That is a great idea.
    Secretary DeVos. And this is a lot more granular data that 
is going to become very useful for students, I think, on the 
prospective and I hope, importantly, for institutions to shut 
down programs that are really not what they are worth.

      HIGHER EDUCATION COST NOT ASSOCIATED WITH ACADEMIC LEARNING

    Another area that, you know, the costs have continued to go 
wild on--you said it is not necessarily going to the faculty. 
You look at any other data chart the administrative costs at 
every higher ed institution have continued to grow at multiple 
times the rate of any of the other costs.
    And, you know, I don't know that that is defensible thing. 
There is also lots of bells and whistles. There is lots of 
schools adding, you know, climbing walls and what have you to 
try to attract students when in fact a traditional college 
student is a declining population.
    The schools that are ultimately going to thrive in the long 
term are the ones that are recognizing this and that are 
changing themselves to anticipate what they need to be for 
students today and in the future. Most of the students today 
are nontraditional students.
    So what are higher Ed institutions doing to acknowledge 
that and embrace that and make what they have to offer relevant 
for their students?
    Senator Kennedy. Thank you for your good work. Thank you 
for your support for charter schools. I believe competition is 
a moral good.
    Secretary DeVos. Thank you.
    Senator Kennedy. It makes us all better.
    Secretary DeVos. Well, we know there are over a million 
kids on waiting lists nationwide for charter schools.
    Senator Kennedy. Thank you, Mr. Chairman.
    Secretary DeVos. Thanks, Senator.
    Senator Blunt. Thank you, Senator Kennedy.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.

                              CORONAVIRUS

    And I understand Senator Murray asked you a few questions 
about coronavirus in schools. But I wanted to follow up on that 
because our first case in Oregon was a school building 
maintenance engineer, if you will, and so the school shut down.
    But they were desperate for guidance on what is proper, and 
have you all--have you generated guidance on a situation on 
when a school should shut down, how long it should shut down, 
how should it be cleaned, how should the--those who are doing 
the cleaning be provided with protective gear and training to 
do that?
    Secretary DeVos. Well, we are working very closely. This is 
an area really for the CDC's expertise and information to--for 
schools to access and we are making sure that every interface 
we have provides updated information from the CDC through links 
and/or emails and/or, you know, telephonic communication and we 
are committed to continuing to do that.
    The administration has taken a very aggressive 
administration wide approach, and our working group within the 
Department of Education is tied in very closely with all of the 
efforts across the government and will continue to be providing 
the information that will be most useful to those at the local 
level.
    Senator Merkley. Okay. So, so far, there really isn't any 
information providing advice to schools, and I do take the 
point that that should come from experts on the disease.
    But I think your Department, with its connections, can push 
for that, try to get specific guidance for schools and then try 
to make sure all the schools have an understanding because we 
had in the last 5 days a six fold increase in the reported 
cases.
    If it was to continue at that pace, which we have no idea 
if it will or not, we would be talking over 100,000 cases by 
the end of the month. Schools are going to be affected. They 
are all going to be asking the same questions and you are in a 
position to help make sure they understand the answers to that.
    Also, that for them to understand the best information 
about the vulnerability of students, which the good news is 
students in good health are rarely affected.
    Secretary DeVos. Right.
    Senator Merkley. But those who have special conditions need 
to take special protections and, again, that is a role I think 
your team could help people understand in the school community.

                            BORROWER DEFENSE

    I wanted to turn to the issue of Borrower Defense, and this 
is where individuals who were signed up for for-profit schools 
didn't get the education that they paid for.
    They are left with big loans and useless--sometimes useless 
degrees or no degree. And we have--the applications just seem 
to stack up and not get resolved. We have for Oregon about 
3,000 applications pending and--at your Department but only 13 
claims were approved last quarter. And it just seems like 
people need an answer, a fair answer, a correct answer, a right 
answer, but they need an answer.
    Is there a way we can--I know I have asked you about this 
before but I am coming back to say it hasn't been resolved. How 
can we apply more energy to getting people answers on these 
claims?
    Secretary DeVos. Well, thanks for that question, Senator, 
and just to take a step back on that, between 1995 and 2015 
there were 60, six zero, Borrower Defense claims made with the 
Department of Education.
    After 2015 it was like the spigot was turned on, and we 
have been--there is nothing I want more than to get those 
claims resolved. And to be clear, Borrower Defense claims are 
claims of fraud against a school where there is financial harm 
to the student, and we have been--we worked very hard to put a 
process in place because when I came into office there was no 
process.
    We put a methodology, a process, in place to considering 
the pending claims, began processing under that new methodology 
and were immediately shut down by a court--a lawsuit challenge.
    The pending appeal has been pending in the 9th Circuit for 
almost 2 years. So we had to develop a second methodology 
because these claims continue to pile up and, frankly, there is 
a lot of marketing efforts going on to promise students their 
loan forgiveness under, I would say, often specious claims.
    So the second methodology we have begun processing the 
pending claims that we can. We can't for the ones that are 
under the first lawsuit.
    But we are processing the ones that we have and it is our 
goal to ensure that every student's claim is considered for the 
individual attention that it needs and deserves and that we 
resolve these as quickly as possible.
    Senator Merkley. Thank you. My time is up so I will just 
close by noting an example from Oregon is Donovan Nugent. He is 
a military veteran. He submitted an affidavit in--regarding 
this. He served in post-9/11. He used the GI Bill.
    Heald College took out student loans in his name. There was 
no degree, no real education. He is a victim of misleading and 
unethical student loan practices, has overwhelming debt.
    He can't afford to borrow again. But he is just exactly the 
type of victim we see time and time again, and we need to get 
these claims processed.
    Senator Blunt. Thank you, Senator Merkley.
    Secretary DeVos. I couldn't agree more.
    Senator Blunt. Thank you, Senator Merkley.
    Senator Hyde-Smith.

                    IMPROVEMENT IN STATE TEST SCORES

    Senator Hyde-Smith. Thank you, Mr. Chairman, and Secretary 
DeVos, thank you so much for all you have done and the 
incredible job you have done over the past year. You have 
improved opportunities for career advancements and educational 
opportunities for the students in Mississippi as well as 
throughout the country.
    First of all, just for a little update and to be able to 
brag on my own home State, at the end of last year Mississippi 
had a huge win in educational advancement. The State ranked 
number one in gains on the National Assessment of Educational 
Progress.
    We were the only State in the Nation to show significant 
increases in three of the four core subject areas, and this was 
due to the hard work of our State's leaders, the teachers, the 
students really buying into this, and we can also point to our 
success from the support of your Department that gives us 
through important Federal programs like Title I and Title II 
that have been very beneficial.

                     CAREER AND TECHNICAL EDUCATION

    Second, I am very pleased the President's budget request 
includes a significant increase for Career and Technical 
Education programs.
    My constituents tell me regularly about the importance of 
the CTE programs to provide valuable career exposure and 
workforce training, and it is very important that we continue 
to give the students those opportunities.

                            RURAL EDUCATION

    Third, I understand the Department recently announced it 
would provide a temporary hold harmless provision related to 
the rural education achievement program for fiscal year 2020 
funding.
    I joined the letter led by Senator Collins expressing my 
concerns that this change could have on rural school districts 
in my State, and I am thrilled to hear that you are willing to 
provide flexibility to rural schools while Congress works on a 
permanent solution to this issue.
    Now to my question. As you are aware, Mississippi is mostly 
comprised of rural school districts. We have different 
challenges and needs, ranging from teacher recruitment to 
infrastructure to funding.
    But please share with the committee the programs in the 
budget request that you believe specifically benefit or address 
the needs of rural school districts like those we have in 
Mississippi.
    Secretary DeVos. Well, thank you so much, Senator. I 
appreciate your question.
    I share your concern for rural school districts and the 
opportunities there for kids, and one of--I think one of the 
most important ways our budget proposal addresses the varying 
needs of kids in rural school districts is by the proposal to 
take all of the elementary and secondary education funding 
programs and combine them together in a block grant that would 
go to the States and then be distributed out to the districts, 
allowing them the greatest flexibility for the uses of those 
funds.
    So for a student in one rural community that may, like the 
one I visited in Mississippi, want to add an AP Physics course 
for students there, perhaps they could use some of those funds 
to do that, really tailoring and personalizing the education 
dollars committed by Congress to personalize it and tailor it 
to the needs of every community and the students in those 
communities.
    Senator Hyde-Smith. Yes, that flexibility is extremely 
important to us for sure.
    Secretary DeVos. Then you will love the block grant 
proposal.
    Senator Hyde-Smith. Great. Thank you so much.
    Senator Blunt. Thank you, Senator.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.

                    EDUCATION FOR HOMELESS STUDENTS

    Madam Secretary, thank you for being here and we always 
appreciate you coming and going over. The thing I have is 
that--and I know this touches everybody. This is nonpolitical. 
It is, basically, homelessness for children, and it is a 
horrible, horrible scourge on our whole society. It really is.
    Rural States and a State like mine that has been hit so 
hard with the opioid epidemic and then just society breakdown 
in general has really fueled this. They said there is 1.5 
million homeless children right now in our school systems, 
youth enrolled in public schools.
    We have over 10,500 in West Virginia that we can account 
for, and we are not accounting for nearly what we know is out 
there. So it really gets to the crux of what I am going to be 
asking you on this.
    The McKinney-Vento Act that you might be familiar with for 
homeless children and youth funding, and these services ensure 
that the students are going to have some chance of normality 
the best they possibly can.
    The thing that concerns me, Madam Chairman, I would hope 
you all would maybe reconsider this. That is lumped in with 28 
other Federal education programs right now, and being lumped in 
with them and there is a total cut of over $4.7 billion on top 
of that for those same programs that we had last year.
    I would hope that this is something that I--I mean, if we 
are going to save the future generations, we have got to all 
come together on this one. If you could separate McKinney-Vento 
from the 28 to make sure it gets the proper funding--I don't 
know how else we are going to be able to take care of this 
problem. I really don't.
    And I have got a situation where children that come to 
school that are homeless have no place to sleep except either 
on someone else's couch, surfing with a family member in a car, 
a motel room, whatever it may be; they are not really worried 
about did they get their homework done and not worried about 
the next test they have got to take. That is not in their mind. 
They are worried about how they are going to survive until 
tomorrow.
    So I don't know if you have that flexibility, if you would 
reconsider that or--but this is such an absolutely dire 
situation that we are in, and it is growing exponentially.
    Secretary DeVos. Senator, I share your concern about that 
particular issue and your State being very hard hit on that. In 
fact, I recall our conversation several months ago about the 
McKinney-Vento program----
    Senator Manchin. Right.
    Secretary DeVos [continuing]. And the fact that many----
    Senator Manchin. Your people are very good. They have been 
talking to us and trying to work with us. We appreciate all 
that. But----

                      FLEXIBILITY OF BLOCK GRANTS

    Secretary DeVos. But, no, let me just say, this is exactly 
the argument for doing a block grant to the States, because as 
we talked about, nobody in the State really knew about the 
McKinney-Vento program or how to access the dollars, what forms 
you had to fill out. I mean, all of the bureaucracy that went 
around that.
    Senator Manchin. Well, how would block grant--here, I have 
been the governor, so I understand block grants.
    Secretary DeVos. It--so, yes. So----
    Senator Manchin. I understand flexibility.
    Secretary DeVos. Right.
    Senator Manchin. I am probably more compassionate with 
block grants as a former governor. But on the other hand, I 
know the downturn if it is just on population base and nothing 
changes because then I am stymied.
    Secretary DeVos. Well, you all will decide the 
appropriation level. But our proposal wants to give as much 
flexibility to the States and local districts. If the McKinney-
Vento program is one that you want to double down on through a 
block grant, it would allow you to do that. And if there is 
another program in the 29 that isn't as important----
    Senator Manchin. Well, our biggest thing was reporting, 
basically. How many counties did we have not even participate? 
How many?
    Voice. We have about 30.
    Senator Manchin. Out of 55 counties, 30 didn't even 
participate.
    Secretary DeVos. They might not have even known about it, 
right?
    Senator Manchin. Well, they don't have the personnel. They 
tell us they don't have the personnel to be able to track these 
students to report properly to get the drawdown.
    Secretary DeVos. So this--but this is, in my view, one of 
the best arguments for block granting all of the funds from all 
those various programs to the States and then allowing those 
local communities to--the funding level--so you decide the----
    Senator Manchin. For the discussion purpose----
    Secretary DeVos. You decide the funding level.
    Senator Manchin. I understand for the----
    Secretary DeVos. We are not proposing eliminating any of 
those programs but giving the flexibility----
    Senator Manchin. But you reduced $4.7 billion by putting 29 
together. So my block money has got to be less.
    [Laughter.]
    Secretary DeVos. Not by putting 29. So it is not by putting 
29 together. We have proposed a funding level but, again, you 
all decide the funding level. We are advocating for the 
flexibility to go down to the community level.
    Senator Manchin. So what you are trying to say, basically, 
in education there is 29 programs in education and we know it 
had been cut. Your recommendation is reducing it $4.7 billion.
    But whatever the number is, you are saying that then West 
Virginia should look at all these programs, how these service 
these kids in these 29 areas and decide what we can do with 
less money?
    Secretary DeVos. Decide what you can do with the money that 
Congress appropriates.
    Senator Manchin. Uh-huh.
    Secretary DeVos. Decide what--where you want to put your--
where the priorities are depending on the needs of the most 
vulnerable students in each community. And as Senator Lankford 
just said, you know, he named about six or eight different 
towns in Oklahoma, all of which are quite different and have 
different needs.
    And so giving every local district that kind of flexibility 
with the Federal funds for elementary and secondary education 
will allow them to actually----
    Senator Manchin. If I could say one more thing, Mr. 
Chairman, if you give me just one more minute.
    Senator Blunt. Senator Schatz.
    [Laughter.]

                      BLOCK GRANTS VERSUS WAIVERS

    Senator Manchin. As a former governor, okay, we used to ask 
for waivers. So what you are saying a block grant, I would say, 
okay, here I am on the receiving end from West Virginia, 
Missouri, Hawaii.
    Secretary DeVos. Right.
    Senator Manchin. Just give me a waiver. Let me--you don't 
have to give me a block grant. Do the funding the same as you 
are doing it. Let me have a waiver when I have to have some 
latitude. That works very well. It has worked before. I had it 
with DHHS (Department of Health and Human Services)----
    Secretary DeVos. Okay.
    Senator Manchin [continuing]. And I am just saying----
    Secretary DeVos. I just think a block grant is a much 
better tool because it allows all the allowable uses for the 
programs and it is--and the proposal is----
    Senator Manchin. The Chairman has been really kind with me 
on this. The only thing I am going to say is that I think we 
want to get to the same end. I am just not sure in a rural 
State----
    Secretary DeVos. But why should I have to go give you a 
waiver and give you permission? You should be able to decide 
that with the folks in your State.
    Senator Manchin. Now, I know what you are saying from that 
standpoint. But on the other end of it, the cutting back--
ratcheting the money back for the amount of money, I am going 
to have less money to work. I have got all the needs of 29 
programs. I have got to----
    Secretary DeVos. So separate out the funding level----
    Senator Manchin. You want me to make the decision on who 
gets cut.
    Secretary DeVos. No, separate out the funding level from 
the proposal.
    Senator Blunt. Thank you. Thank you, Senator. Thank you, 
Senator. Thank you, Senator.
    Senator Manchin. I yield. Okay.
    Senator Blunt. Senator Schatz.
    Senator Schatz. Thank you, Chairman. And Governor Manchin, 
I will follow up on this line of questioning. I mean, I think--
look, let us be as blunt as possible. There are sort of two 
public policy issues.

 ELEMENTARY AND SECONDARY EDUCATION FOR THE DISADVANTAGED BLOCK GRANTS

    One is the flexibility that a block grant allows and the 
balance there is that, on the authorizing side, we have decided 
as Federal public policy that certain lines of funding ought to 
be mandatory, that we actually don't want to give total 
flexibility to every governor in every district because we have 
decided certain things need lines of funding.
    Now, we can have that argument about flexibility, and I 
think there are equities on both sides. But the fact is your 
budget has a $4.7 billion cut, and the answer to the question 
why did you cut education by $5 billion cannot be as though you 
are answering the question, ``why are you doing block grants'' 
because it is still a $5 billion cut whether you slice it with 
incredible flexibility, or you still have the kind of 
bureaucratic lines of authority and accountability that 
currently exist in the law.
    The basic question I have for you is why cut $5 billion 
from public education?
    Secretary DeVos. Well, budget--every time I have come here 
defending the budget for the administration, the administration 
has priorities and we had to make difficult decisions around 
the entirety of the budget.
    I will point out that the funding request for education 
this year is higher than the funding request was last year.
    Senator Schatz. Sure. But I guess----
    Secretary DeVos. Now, it is lower than enacted but it is 
higher than----
    Senator Schatz. But you said the administration has to 
prioritize, and what that means is that, in the scope of the 
hundreds of billions of dollars that are spent in the Federal 
Government, that you couldn't find anything less important that 
could have been cut--that $4.7 billion that is cut right out of 
U.S. Ed is less important than everything else that did get 
funded and----
    Secretary DeVos. I wouldn't grant you that and I would 
point out, because I don't think you were here----
    Senator Schatz. Well, then what are you--hold on. Then what 
do you mean by we had to set priorities? Because when you--in a 
family if you say, ``look, we are going to go out to dinner 
less,'' you are saying going out to dinner is not as important 
as paying my utility bill, right?
    And I get the idea of setting priorities. I get the idea 
of, as an executive, you kind of have to try to live within 
your means.
    My question is if we all agree that public education is the 
silver bullet, that public education is the great equalizer, 
then why in the world would we take $5 billion out of the 
Federal budget for public education when almost every other 
executive agency is seeing an increase?

           RETURN ON INVESTMENT IN FEDERAL EDUCATION SPENDING

    Secretary DeVos. The spending on education at the Federal 
level over the last 40 years has been over a trillion dollars--
with the express purpose of helping the most vulnerable and 
closing the achievement gap.
    That achievement gap, according to the last NAEP results, 
has not closed one little bit and, in fact, by multiple 
measures and in multiple places, it has widened.
    So our contention is how can you make the argument that 
continuing to put more and more money behind the exact same 
approach is ultimately going to yield different results? It is 
not going to.
    Senator Schatz. So you--so this is--I mean, this is a 
really good conversation. This is a good faith disagreement, 
right? Your basic view is, hey, this is good money after bad.
    More money for public education will not make a difference 
and, in fact, to the contrary, the more we spend may be even 
worse, and that is just not my view.
    I don't even think it is the collective bipartisan view of 
this panel. But it is certainly the view of this administration 
that, essentially, we should devolve authority, spending and 
otherwise, to--as local as we can. There should be as few rules 
as possible and there should be as much--as little funding from 
the Federal side as possible because more funding from the 
Federal side means less freedom, more bureaucratic 
restrictions.
    And I think it is terribly wrong and not supported by the 
data. But it is your view and it is different from saying what 
I have heard before, which is when we have a disagreement about 
the budget cuts that the U.S. Department of Education is 
proposing, then we hear this kind of, you know, mumbo jumbo 
about block grants, which I think is a worthy argument to have.
    It is not the same as answering the question why did you 
cut $5 billion from education.
    Secretary DeVos. So, again, putting it in perspective, 
annually the United States spends $860 billion on K-12 
education. We are talking about 2\1/2\ percent or less that 
comes from the Department of Education at the direction of 
Congress for all these programs that have all different kinds 
of requirements, all different kinds of bureaucracy attached to 
it, 2 million hours annually to comply with them to do all the 
paperwork.
    And our contention is instead of continuing to try to do 
the same thing again and again and again and expect a different 
result for the most vulnerable kids in our country, let us do 
something different.
    Senator Schatz. And what they really need is a cut in 
public funding.
    Secretary DeVos. And allow them more freedom. Allow the 
local districts more freedom, more opportunity to target those 
resources directly to the kids that need it most in the ways 
they need it most.
    Senator Schatz. The freedom to absorb a $5 billion cut.
    Thank you.
    Senator Blunt. Thank you, Senator Schatz.
    I have a couple of extra questions. I think Senator Murray 
does as well, and if you have any and you want to stay for a 
second round you certainly can, Senator Schatz.

                            CHARTER SCHOOLS

    The budget request proposes the elimination of the charter 
school program and consolidates that funding into a new 
elementary and secondary disadvantaged block grant. I know you 
have been a supporter of these programs.
    Senator Kennedy probably has more experience post-Katrina 
in Louisiana than any of the rest of us do, and is a big 
advocate of these programs. How do you think that would work if 
we eliminated the current lines that encourage charter school 
expansion and development?
    Secretary DeVos. Well, Senator, thanks--thanks for that 
question. As you know, I have long been a huge advocate of 
charter schools and continue to be a huge advocate for them.
    And just to be clear, we are not suggesting eliminating any 
of those programs. We are not suggesting program eliminations. 
We are suggesting----
    Senator Blunt. Now, I thought on this one you----
    Secretary DeVos [continuing]. Tying them all together into 
the block grant and so----
    Senator Blunt. And leave it up to local school districts to 
decide?
    Secretary DeVos [continuing]. In a State like Louisiana 
that has expanded charters for students across that State, you 
know, I have spoken with a number of governors who have robust 
charter school programs in their State, and they are excited 
about the prospect of being able to target more of the K-12 
resources into expansion of these opportunities.
    There are over a million families on the wait list for 
charter schools across the country. We know the demand is huge 
amongst parents and they are working for students.
    So I think most--many States would look at this as an 
opportunity to build on the successes they have already had, 
and I would hope that some States that haven't even entered the 
charter school space would get with the program and meet the 
needs of their families in their State.
    Senator Blunt. And you would think, in that case, the way 
you envision the disadvantaged block grant, that States would 
decide is how much should go to local districts, and then local 
districts would decide?
    Secretary DeVos. Yes. That is the proposal how that would 
flow.

                               IMPACT AID

    Senator Blunt. I would say on Impact Aid, which is where 
the Federal Government owns property and doesn't pay taxes. 
Both the Obama administration, I think every time, and the 
Trump administration, every time, has proposed eliminating this 
Impact Aid program.
    For those of us who have Impact Aid areas through national 
forests or military bases as the example, that is a huge 
problem. I am almost sure we are not going to do it. I never 
understand why the property tax argument doesn't make sense.
    If you are a military base, and that military base, 
obviously, goes off the tax rolls, but a military base 
particularly increases student population--some live on the 
base, some don't--but the local schools step in and do that, 
Impact Aid replaces only a portion of what the property tax 
would have been. Why do you continue to propose eliminating 
that?
    Secretary DeVos. Well, and to be clear, we held that out 
from the block grant proposal, and it is only a portion of the 
Impact Aid that we have suggested eliminating.
    Senator Blunt. What portion would that be?
    Secretary DeVos. The part without students connected to it. 
So I think they are mostly urban--yes, $1.4 billion we are 
still suggesting funding for. It is $75 million that we have 
suggested cutting back on.
    So these are all in New York, Philadelphia, Kansas City, 
Denver, Seattle, San Francisco, Chicago, and Boston.
    Senator Blunt. I think I heard you say Kansas City, which I 
know is in Missouri. So I want to look at that. And if the 
Impact Aid would include Forest Service areas, for instance, 
where school buses have to drive through it, have to drive 
around it, have to add a lot of extra cost to service students 
in a more dispersed area because of that, that would be a 
problem. We are going to talk about this more. I may have some 
follow-up questions on this, and I am certainly going to have 
to try to look closely at what you are thinking about urban 
Federal property that somehow doesn't involve students. But we 
don't have time for that today, but we will.

             STUDENT SUPPORT AND ACADEMIC ENRICHMENT GRANTS

    I think my third question, then I will go to Senator 
Murray, on the mental healthcare in schools, both the school 
safety money and the Student Support and Academic Enrichment 
grants, I believe you are proposing a cut of where we were, and 
I don't want the block grant answer here. We increased the 
budget by $40 million for Title IV(a) Student Support and 
Academic Enrichment grants. You are proposing eliminating that 
program, I believe.
    Secretary DeVos. No. No, we are----
    Senator Blunt. No? This is again----
    Secretary DeVos. We are proposing, again, wrapping it all 
into the block grant proposal for States to decide and local 
communities to decide what portion of those 29 different 
programs are ones that are particularly effective or meaningful 
or important.
    Senator Blunt. Well, that is a great future answer and it 
is a great challenge for the authorizing committee. It is a 
debate that I see a lot of merit in, as I said early.
    We have to appropriate the money based on current law. So 
on that specific program I mentioned, do you propose an amount 
for that program, Student Support and Academic Enrichment 
grants?
    Secretary DeVos. We have not because it is all, again, part 
of the block grant proposal of the 29 different----
    Senator Blunt. So I guess we will just take your comment, 
which I agree with and I think many in the administration have 
come a long way. The Congress appropriates the money.
    The President has to sign the bill. We will look at that 
and see if we still believe that what we did last year, 
increasing that line, was important and if it needs to be 
increased more, or somehow we need to rethink what we did last 
year.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.

                     SEXUAL HARASSMENT AND ASSAULT

    Madame Secretary, I just have to say I am really in awe of 
the courage of the women and men who have shared personally 
with me their experiences of sexual harassment and assault so 
they can make sure that it doesn't happen to any other person, 
and I am very concerned that your proposed rule would 
discourage those survivors from coming forward and weaken 
protections for students and allow schools actually to shirk 
their responsibility.
    I expect the Department to make it easier for students to 
come forward with their stories and make sure that our schools 
do everything possible to make sure that students are not 
deterred from obtaining an education because of a sexual 
assault or harassment that goes unaddressed.
    Now, I know that you told the House Appropriations 
Committee last week that you couldn't answer any questions on 
your proposed rule.
    But I want you to know I remain very concerned that it 
appears as though you didn't listen to those survivors like I 
have, and that schools will not be held accountable if your 
rule is finalized as proposed.
    Now, I do know that you have announced recent Office for 
Civil Rights Initiatives to Combat Harassment and 
Discrimination, the Outreach Prevention Education and 
Nondiscrimination Center, and the Title IX K-12 Enforcement 
Initiative, and I do look forward to seeing how both of those 
are going to be implemented.

                    OFFICE FOR CIVIL RIGHTS STAFFING

    But I remain very concerned that those sound like nice 
ideas but won't have any teeth or appropriate resources to be 
productive, and I am concerned about that because I have been 
pushing for a time now for additional resources for OCR to 
investigate civil rights violations, and OCR has been very slow 
to hire staff over the past 3 years.
    They average about 37 external hires a year, and the last 2 
years of the prior administration, OCR hired an average of 87 
external hires per year.
    So with an almost 5,000-case backlog at the end of fiscal 
year 2019, I believe that there is really a clear need for more 
help to ensure that every person's complaint is thoroughly 
investigated in a timely manner.
    So I wanted to ask you, why did hiring slow so 
significantly when Congress actually provided the resources and 
direction to hire more staff?
    Secretary DeVos. Well, Senator, first, let me say I share 
your concern that survivors of sexual assault anywhere at any 
time have the opportunity and have a clear path to make sure 
that their stories and their cases are heard, and our rule will 
certainly seek to do just that.
    I have listened to and talked with survivors as well, and I 
share your concern. So I hope you won't characterize it any 
differently.
    With regard to the Office for Civil Rights, we have had a 
high priority on hiring for that office. We currently have over 
520 attorneys. We have hired, in the last year, 79 attorneys.
    We are--this is a very high priority for that office and 
continues to be. But I will just say that for the last three 
fiscal years that office has resolved more than 2,400 more 
complaints than it received on average each year, and that is 
despite an almost 100 percent increase in the annual caseload 
or annual complaints filed since 2008.
    It has also--it is not just closing more cases than the 
previous administration did, but it is requiring more 
institutions to implement significant policy changes.
    So there are findings with these cases and I am really very 
proud of the work that the office has been doing. We are 
continuing to stay focused on ensuring that all students that 
have filed cases and complaints that they are being considered 
and in a timely manner.

              HIRING FORECAST FOR OFFICE FOR CIVIL RIGHTS

    Senator Murray. But can you just tell me how many new staff 
for OCR will be hired this year?
    Secretary DeVos. Whatever the goal is, I think it is 
another about a hundred--somewhere between 60 and a hundred 
additional----
    Senator Murray. You will hire----
    Secretary DeVos. Of course, there is attrition, and so 
there is probably some makeup there.
    But, you know, these are talented people that we have to 
identify and find and----
    Senator Murray. And how many of those new staff will be 
dedicated to your new initiatives, and how will OCR's general 
investigatory functions actually be implicated by these new 
efforts?
    Secretary DeVos. Well, they will be broken down between 
those different functions as appropriate. But the goal 
continues to be----
    Senator Murray. Can you tell me how many staff will 
actually be directed to the new initiatives?
    Secretary DeVos. In the--doing the K-12 investigation?
    Senator Murray. Mm-hmm.
    Secretary DeVos. I don't know the exact number. I would be 
happy to get that to you. Each of the 12 different regions is 
going to be conducting audits under this initiative to ensure 
that K-12 schools are properly reporting these incidents.
    I mean, I am sure you have seen the reports from the 
Chicago Public Schools where an investigation there suggested 
from--with the civil rights data collection nearly 10,000 
cases----
    Senator Murray. My concern is that you are outlining new 
initiatives. But if we don't have the personnel to deal with 
the backlog and these new initiatives because hiring isn't 
enough, we will not be able to complete what you are----
    Secretary DeVos. Well, no, I appreciate that and we are 
very focused on hiring as a top priority, and Assistant 
Secretary Marcus continues to be very focused on that, as do I, 
and we will continue to hire capable and qualified individuals 
to continue to do the work that they, importantly, do.
    Senator Blunt. Thank you, Secretary.

                ELIGIBILITY FOR RURAL EDUCATION PROGRAM

    Let me go back and revisit, briefly, this rural school 
program. One, I think however that got out early was not 
helpful. But two--and this is for your staff, not for you, 
though obviously, you are going to hear it as well, but I think 
this is just poor staff support on their part.
    You come over and see me on Tuesday afternoon to talk about 
a number of issues, and this was one of them. Your view on 
Tuesday is you have to obey the law, and your staff, by 
Wednesday afternoon, has found a way not to do it with not the 
slightest hint that they are working on looking for an 
alternative.
    It is not the first time it has happened. It is not 
helpful. It doesn't help with our relationship between the 
committee staff and your staff.
    How they could send you over without even apparently the 
preparation to say we are still searching to find something. 
You know, I would have seen Senator Collins later that day and 
said, you know, the Secretary really feels like she had no 
flexibility here.
    And by Wednesday afternoon, the Secretary has found 
substantial flexibility. It is just not helpful, and I would 
ask you--I would ask your staff to do a better job of not 
putting you in that situation, and I would ask you to insist 
that they do that better job.

                     ADDITIONAL COMMITTEE QUESTIONS

    So the record will stay open for 1 week for additional 
questions. Back to the other point, please answer those as 
quickly as you can.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Betsy DeVos
                Questions Submitted by Senator Roy Blunt
    career pathway, guidance, and exploration systems for students 
                  beginning in middle and high school
    Question. Providing students in high school or earlier access and 
exposure to their full range of post-secondary college and career 
opportunities, including through quality work-based learning 
opportunities and academic counseling, can help them identify interests 
that ultimately improve their post-secondary outcomes. To that end, the 
fiscal year 2020 Labor/HHS bill included $10 million to improve these 
opportunities for students earlier in their academic career, beginning 
in high school or earlier. What details can you provide about how the 
Department plans to prioritize this funding this year?
    Answer. The Department is working collaboratively to determine how 
it can most effectively expand and improve both career pathways and 
guidance and exploration systems for students earlier in their academic 
careers. While the Department is still developing a final competition 
framework and drafting a notice inviting applications, current plans 
call for approximately five awards to institutions of higher education, 
combinations of such institutions, and other public and private 
nonprofit institutions and agencies. Grantees would promote multiple 
pathways designed to improve the transition from school to work, 
including evidence-based innovations to modernize and to improve the 
effectiveness and alignment of career guidance for all students. The 
Department hopes to publish a notice inviting applications in July and 
make awards by December of 2020.
                  charters schools program elimination
    Question. The budget request proposes to eliminate the Charter 
Schools Program and consolidate the funding into a new Elementary and 
Secondary Education for the Disadvantaged block grant. The Charter 
Schools Program, in part, was created to help pay for start-up costs 
associated with opening, replicating, and expanding high-quality 
charter schools because State and local governments often do not or are 
not able to pay for such costs. Are you concerned that eliminating the 
Charter Schools Program will decrease overall investments in opening 
and replicating high-quality charter schools?
    Answer. The proposed Elementary and Secondary Education for the 
Disadvantaged (ESED) Block Grant would give all State educational 
agencies (SEAs) flexibility to use funds for activities that best meet 
the needs of their students, as well as including activities currently 
funded by State Entity, CMO and Developer grants under the Charter 
Schools Program. Any SEA could use a portion of its ESED Block Grant 
funds to support the opening, replication, and expansion of charter 
schools without the burden and uncertainty of applying for a 
competitive grant for that purpose from the Department. The Department 
anticipates that SEAs in States with charter school laws would avail 
themselves of this opportunity, consistent with strong demand for more 
choices in education from millions of students and families
 elementary and secondary education for the disadvantaged block grant 
                   and charter school accountability
    Question. The Charter Schools Program, as reauthorized by the Every 
Student Succeeds Act in 2015, includes important accountability 
measures to ensure the funding is being used to open high-quality 
charter schools that serve all students, including strengthening 
charter school authorizing practices. What requirements or 
accountability measures do you envision being included in the ESED 
block grant to ensure that if school districts use the funding to open 
charter schools, that it's being used to open high-quality schools that 
serve all students, as the Charter Schools Program currently does?
    Answer. The Department looks forward to working with Congress to 
include appropriate provisions to ensure that ESED Block Grant funds 
are used to support strong charter school authorizing practices and the 
opening of new charter schools and replication and expansion of high-
quality charter schools that can serve all students, including 
educationally disadvantaged students, consistent with the purposes of 
the current Charter Schools Program. The Department's proposal 
currently supports the use of block grant programs for any authorized 
activity under the programs consolidated into the block grant. In the 
case of charter schools, such authorized activities already include a 
strong emphasis on supporting high-quality charter schools and 
operators, as well as strengthened authorizing practices.
    student loan servicing small business subcontracting requirement
    Question. The Department is in the midst of a years-long effort to 
modernize and streamline its student loan servicing system and process. 
We have worked closely on this effort to ensure adequate funding is 
available, and that certain safeguards and assurances are built in to 
ensure high-quality service to borrowers. The solicitation for Business 
Process Operations, which represents the core, person-to-person work of 
student loan servicing includes a requirement that organizations 
subcontract 47 percent of the work to small businesses, which the 
Department increased from 32 percent in the solicitation posted earlier 
this year.
    How did the Department determine this rate, and why was it 
increased from 32 percent to 47 percent earlier this year?
    Answer. FSA's Next Gen Business Process Operations (BPO) 
acquisition strategy was developed in coordination with the Small 
Business Administration to promote subcontractor relationships among 
vendors' small business partners. The rate was developed upon the 
recommendation of the Small Business Administration, which identified 
47 percent as a goal that ensures the continued participation of small 
businesses in FSA's important work to serve students, parents, and 
borrowers while maintaining its ability to provide superior service 
under our Next Gen contracts.
    small business experience and capacity in student loan servicing
    Question. Federal student loans are complicated and the issues 
borrowers face are even more so. Having highly qualified, experienced 
people there to answer questions for borrowers when they need help is 
critical. Requiring student loan servicers to subcontract 47 percent of 
their work will require them to subcontract core parts of their 
operations. What specific research or analysis has the Department done 
to ensure that small businesses, and enough of them, can do this work 
without risking the quality of service borrowers receive?
    Answer. FSA conducted market research using the Small Business 
Administration's Dynamic Small Business Search tool. Various search 
terms were used to identify the number of small businesses available 
for potential subcontracting opportunities (e.g., call center, contact 
center, IT equipment, IT services, IT support, customer support, 
telecommunication support, web services, social media support, 
financial services, etc.). The search results showed that there were 
hundreds of small businesses that could potentially perform 
subcontracted work under the Business Process Operations (BPO) 
contracts.
    Additionally, the BPO solution includes enhanced performance 
standards through Service Level Agreements. In the current environment, 
holding a servicer accountable through account re-allocation can 
disrupt customers' repayment experience. This will not be the case with 
Next Gen. Instead, all federally managed accounts will be held on the 
Enhanced Processing System platform, which will allow seamless 
transfers of accounts between BPO vendors. FSA will measure BPO vendor 
performance on a monthly basis, and vendors whose performance is below 
established service and performance levels will not receive new 
customers. Repeated poor performance will lead to a portion of the 
vendor's existing customers being reallocated to high-performing 
vendors.
                                 ______
                                 
            Questions Submitted by Senator Cindy Hyde-Smith
   osers coordination with centers for medicare and medicaid services
    Question. Last year, I had a chance to visit Brookhaven Elementary 
School in my hometown, to see firsthand how specialized instructional 
support personnel, like speech-language pathologists, work with 
children with disabilities.
    I heard a lot about the immense administrative burden experienced 
by school-based providers who utilize IDEA funding and bill Medicaid, 
which often duplicates needless paperwork and hinders their ability to 
deliver the appropriate individualization, frequency, and intensity of 
services that children with disabilities are entitled to under law. In 
fact, a 2016 GAO report found that up to 35 percent of a school-based 
practitioner's time is just spent filling out paperwork, which 
contributes to decreased provider morale and increased attrition of 
staff in school settings.
    In the final fiscal year 2020 Labor-HHS-Education report, Congress 
included language directing the Office of Special Education and 
Rehabilitative Services to coordinate with the Centers for Medicare and 
Medicaid Services to develop training and provide technical assistance 
to assist with billing and payment administration for Medicaid services 
in schools.
    What is the status of that coordination and development, and when 
does the Department expect to release this important training and 
technical assistance?
    Answer. The Department recognizes that it may be complicated to 
navigate programs like Medicaid to support the provision of special 
education and related services. Unfortunately, simplifying the process 
for local educational agencies depends in large part on States because 
Medicaid is a State-driven program, and there are State-specific 
requirements over which the Department, as well as the Federal Centers 
for Medicare and Medicaid Services, have little or no control. 
Nevertheless, the Department is actively reviewing the 2006 and 2013 
regulations on the use of Medicaid to explore options for simplifying 
and streamlining those administrative requirements under its control.
                 promise neighborhoods extension grants
    Question. Secretary DeVos, you and I have previously discussed how 
proud I am of the two Promise Neighborhood programs in the Mississippi 
Delta region. In the fiscal year 2020 Consolidated Appropriations Act, 
Congress provided funding for one last extension for grantees that 
received extension grants in fiscal year 2018. These grantees have 
demonstrated positive and promising results, and this remaining time 
would allow for sustainability beyond the Department's formal grant 
program. Please provide the Committee with an update on the actions the 
Department has taken on awarding these final extension grants.
    Answer. The Department is preparing guidance to current extension 
grantees on what information to include in their project plans for 
their final two-year extension awards. It is on track to provide these 
extension awards in summer 2020.
                                 ______
                                 
             Questions Submitted by Senator by Marco Rubio
    school safety, information sharing, federal privacy protections
    Question. The Final Report of the Federal Commission on School 
Safety notes that a ``misconception in both the education and law 
enforcement communities is that the Family Educational Rights and 
Privacy Act (FERPA) poses an impediment to the sharing of student 
information that could help prevent school violence and other 
emergencies.'' Further, the report notes that ``there often is some 
confusion regarding what information legally can be shared and with 
whom when it involves the behavior or mental health history of a 
student.''
    What is the Department of Education doing to help ensure that 
States and school districts are appropriately informed about the scope 
and limits of FERPA and the Health Insurance Portability and 
Accountability Act (HIPAA)--important privacy protections in Federal 
law--to ensure that this misconception does not continue to exist?
    Answer. On December 19, 2019, the Department and the Office for 
Civil Rights at the U.S. Department of Health and Human Services 
released updated joint guidance addressing the application of the 
Family Educational Rights and Privacy Act (FERPA) and the Health 
Insurance Portability and Accountability Act of 1996 (HIPAA) to student 
health records. See: https://studentprivacy.ed.gov/resources/joint-
guidance-application-ferpa-and-hipaa-student-health-records. While the 
Department does not administer HIPAA's privacy rule, this joint 
guidance, which was first issued in November 2008, clarifies for 
States, school districts, school administrators, healthcare 
professionals, students, parents and families, and others how FERPA and 
HIPAA apply to education and health records maintained about students. 
The revised 2019 guidance includes additional frequently asked 
questions and answers addressing when a student's health information 
can be shared without the written consent of the parent or eligible 
student under FERPA, or without written authorization under the HIPAA 
Privacy Rule and how the ``health or safety emergency'' exception to 
the general consent requirement under FERPA applies to help address 
school violence and related emergencies.
    The Student Privacy Policy Office (SPPO), the Department of 
Education's office that administers FERPA, routinely provides technical 
assistance to school officials on FERPA, largely in response to 
letters, emails, and telephone inquiries from school officials about 
whether FERPA or the HIPAA Privacy Rule applies to students' education 
records. In responding the such inquiries, SPPO typically references 
the joint guidance on FERPA and HIPAA and explains that the HIPAA 
Privacy Rule specifically exempts records that are protected by FERPA.
    Question. Specifically, what outreach does the Department of 
Education do to States and school districts to ensure clear guidance on 
the applicability of the laws?
    Answer. The Department's SPPO conducts outreach through its Privacy 
Technical Assistance Center (PTAC) and provides technical assistance on 
a wide range of topics to States and school districts through 
conferences and webinar presentations, which include general and 
targeted technical assistance, as well as other methods. As noted in 
the response to the previous question, SPPO and PTAC also routinely 
respond to letters, emails, and telephone inquiries from States, school 
districts, and school officials on the applicability of FERPA and 
HIPAA. In addition to responding to inquiries from school officials, 
SPPO provides technical assistance and responds to questions from 
school officials in compliance training presentations on FERPA. 
Typically, these presentations are made to national and regional 
educational association conference workshops with numerous school 
officials in attendance.
                  federal school safety clearinghouse
    Question. The new Federal School Safety Clearinghouse is a priority 
for Florida, especially for the Parkland families I have worked closely 
with on ensuring our schools have access to evidence-based, successful 
models for school safety.
    What tools and resources is the Department of Education 
contributing towards this clearinghouse?
    Answer. Note: The website mentioned in all answers under this 
subject is https://www.schoolsafety.gov. The Department of Education 
contributes tools and resources to the clearinghouse primarily on the 
topic of school safety that are intended to help address the needs of 
State and local educational agencies, K-12 schools, and institutions of 
higher education. These tools and resources include training packages, 
webinars, on-line courses, interactive training tools, site assessment 
tools, models of multi-tiered systems of support to improve conditions 
for learning, school and district guides for school safety, fact 
sheets, and links to federally supported technical assistance 
providers.
    In addition, information and resource materials are provided on 
school safety-related topics such as emergency operations planning/
management, mental and behavioral health, trauma and mental health 
recovery, psychological first-aid, social and emotional learning, and 
violence prevention. The Department also provides information about 
Federal agency-sponsored events on school safety and funding 
opportunities.
    Question. What steps are being taken to ensure families, schools, 
and States have the latest, best models available?
    Answer. To ensure families, schools, and States have the latest and 
best models available, an oversight and managing body-the Federal 
School Safety Clearinghouse Editorial Board (``Board'')--was 
established to review and to validate decisions about the products, 
tools, and resources submitted for potential inclusion on the 
Clearinghouse website (SchoolSafety.gov). The Board was established 
last year through a signed memorandum of understanding (MOU) with the 
partner agencies for the School Safety Clearinghouse as a cooperative 
effort of the Departments of Education, Homeland Security, Justice, and 
Health and Human Services. Subject-matter representatives from each of 
the foregoing agencies serve as members of the Board. The Board follows 
a set of criteria and guidelines for content review, validation, and 
approval of the resources. Recently, improvements were made to expand 
Schoolsafety.gov to enable resource developers to submit non-Federal 
successful models and other resources for content review, validation, 
and approval by each respective agency and the Board.
    The Clearinghouse, in coordination with its partner Federal 
agencies, continues to reach out to internal and external experts, 
State and local educational officials, education and research 
communities, and other key stakeholders for their assistance in 
identifying the most current resources and best practices of school 
safety.
    Question. How is the Department of Education informing State and 
local agencies about the resources available on the clearinghouse 
webpage?
    Answer. The Department of Education provides information about the 
Clearinghouse website (SchoolSafety.gov) to State and local education 
agencies and other key stakeholders through periodic targeted messages 
and announcements. Also, through regular and ongoing communications 
with school safety program grantees, professional organizations, and 
through announcements placed in the Department's electronic and other 
newsletters and social media posts, the Department is able to promote 
the many resources available on SchoolSafety.gov.
    Question. Are further resources needed for SchoolSafety.gov to 
increase the effectiveness of the clearinghouse?
    Answer. The Department and other partner agencies are currently 
identifying new material resources to include on the website. In 
addition, a schedule for new content resource submissions and content 
review is under development by the Board. The schedule will provide a 
structured and timely process to increase the number of content and 
content related resources to address school safety across the country.
 project school emergency response to violence (serv) and reservation 
                       under proposed block grant
    Question. In 2019, my office worked with the Department of 
Education to award Bay County schools a $1.25 million Project SERV 
grant. This funding helps students impacted by Hurricane Michael get 
the mental health services they need as well as overtime for teachers 
and counselors, transportation, and other costs to operate the school 
at an alternate site. In the new ESED Block Grant, the Department of 
Education gives authority to the Secretary to continue funding the 
Project SERV program through a separate reservation.
    Does the Department of Education pledge to follow through with this 
reservation of funds?
    Answer. Yes, the Department plans to continue to reserve Project 
SERV funds on an as-needed basis.
    Question. How much does the Department of Education plan to set 
aside?
    Answer. The President's 2021 budget request for the Elementary and 
Secondary Education for the Disadvantaged (ESED) Block Grant is $19.4 
billion. The Department would be authorized to reserve up to 1/10 of 1 
percent of that ($19.4 million) for technical assistance, evaluation, 
and information dissemination related to Block Grant implementation. Up 
to $5 million of this reservation would be available for the Project 
SERV program
    Question. Was prior funding adequate in meeting the emergency needs 
of schools?
    Answer. Yes, to date, prior funding for Project SERV has been 
adequate in meeting the emergency needs of schools. It is important to 
note, however, that in fiscal years 2018 and 2019 the Department 
received large emergency supplemental appropriations of funds ($2.7 
billion and $165 million, respectively) for recovery assistance through 
other programs in response to large-scale natural disasters, such as 
Hurricanes Harvey, Maria, Irma, and Michael. Absent these supplemental 
appropriations, the limited funding available for Project SERV through 
regular annual appropriations would not have been adequate to meet 
emergency education-related needs. Similarly, Congress recently 
appropriated, in response to a request from President Trump, $100 
million for Project SERV as part of the CARES Act to support school 
districts and institutions of higher education in addressing education-
related emergencies caused by the coronavirus.
    Question. What measures are in place to ensure States continue to 
have access to this critical funding when an emergency strikes?
    Answer. The Department is committed to making Project SERV funds 
available to help restore the learning environment in cases of natural 
or man-made violent or traumatic incidents, but only Congress can 
ensure that additional funds are available when the need for such 
assistance exceeds the level of funding for Project SERV authorized 
through annual appropriations acts.
  protecting jobs act and state denials, suspension, or revocation of 
                         professional licenses
    Question. In 2019, Senator Warren and I reintroduced the Protecting 
Jobs Act. This bipartisan legislation would make sure borrowers are not 
prevented from working in the professional field they trained for 
because of falling behind on Federal student loan payments. The Florida 
legislature recently passed a bill that would provide this relief, but 
more must be done.
    Do you believe States should have the ability to deny, suspend, or 
revoke a borrower's professional license as a penalty for default?
    Answer. The Department does not opine on pending legislation but 
stands ready to provide technical assistance as requested.
    Question. Is the Department of Education aware of the number of 
borrowers impacted by these State laws nationwide?
    Answer. The Department is not aware of the number of borrowers 
impacted by such State laws because it does not collect this 
information.
            protecting jobs act and student loan collections
    Question. This bill would not change the Federal Government's 
existing methods of student loan collection, and it does not prevent a 
State from denying, suspending, or revoking professional licenses for 
other reasons.
    What other methods can the Department of Education employ to 
collect student loan repayments?
    Answer. The Department and its vendors employ a variety of methods 
to collect Federal student loan repayments. Borrowers can choose from 
several different repayment options, including various income-driven 
repayment plans, and are encouraged to work with their servicer to 
establish an arrangement that best fits their unique circumstances. 
These options also include deferment, forbearance, consolidation, and, 
for borrowers who have defaulted, rehabilitation. Other methods of 
collecting defaulted Federal student loans include Treasury Offset and 
wage garnishment. Please note, however, that as of March 13, 2020, 
pursuant to the Coronavirus Aid, Relief, and Economic Security (CARES) 
Act, all collection activities on Federal student loans are suspended.
    Question. If this legislation is signed into law, is the Department 
of Education committed to working with my office on the implementation?
    Answer. Yes, if the legislation is signed into law, the Department 
is committed to working with the Senator on implementation.
                         risk sharing proposal
    Question. The Administration's budget proposes the Department of 
Education to work with Congress to increase institutional 
accountability for colleges that fail to deliver quality education.
    Has the Department of Education developed an initial proposal that 
you can share?
    Answer. The Department has not yet developed a risk sharing 
methodology. Meanwhile, the Administration has implemented or proposed 
various policies that have or would give students more information 
about the consequences of taking on more debt than can be easily repaid 
or would empower institutions to restrain over-borrowing by students.
    Question. Would the Department of Education be willing to work with 
my office to develop legislation that helps address this issue?
    Answer. The Department will be happy to provide technical 
assistance, if requested.
     impact of block grant on funding for english language learners
    Question. The Administration's budget proposes lumping in the 
English Language Acquisition program into a new block grant. How will 
the proposed $4.7 billion overall cut impact funding for ELL services?
    Answer. Under the proposed Elementary and Secondary Education for 
the Disadvantaged (ESED) Block Grant, States and school districts would 
have flexibility to target funds to all students, including English 
Learners, with the greatest need for extra support to meet challenging 
State academic standards. In addition, States would continue to develop 
and implement accountability plans that include statewide performance 
goals and targets; identify achievement and attainment gaps 
disaggregated by subgroup, including by English learner status; require 
improvement plans to address such gaps; and publish State and local 
report cards reporting on a broad range of student, school, and 
district outcomes. Finally, the consolidation of the English Language 
Acquisition program into the proposed ESED Block Grant would not alter 
a State or district's obligation to serve English learners under Title 
VI of the Civil Rights Act of 1964.
     elevate act and formula funding for english language learning
    Question. The current level funding does not adequately account for 
the increasing need for ELL services. Far too many ELL students are 
falling short of target achievement levels. For States like Florida, 
the challenge of educating the growing number of ELL students is 
putting a major strain on the available resources and quality of 
education. Between 2010 and 2017, Florida's Puerto Rican population 
rose from 864,000 to 1.1 million--a 27 percent increase.
    Last year, Senator Murphy and I introduced the ELEVATE Act to 
ensure States receive the Federal funding necessary to provide high-
quality instruction for ELL students. This legislation corrects a 
flawed funding formula through the Department of Education that 
allocates funds to States by fully capturing the number of K-2 students 
who relocate to the mainland from Puerto Rico. The ELEVATE Act allows 
Puerto Rican students to be fully counted in the annual grant 
allocation that States receive under the ELA program.
    What are your thoughts on this proposal and would you be willing to 
work with me and Senator Murphy on it?
    Answer. While the Department understands the concern over 
increasing numbers of English learner students in Florida and other 
States, its initial review of the provisions in the ELEVATE Act suggest 
that the bill would not achieve the goal of responding more quickly--
through increased Federal funding--to States that experience a rapid 
influx of English learner students, such as the recent increase of 
Puerto Rican students in Florida.
    Question. Do you agree that this bill could bring much needed 
resources to ELL students, especially those relocating from Puerto 
Rico?
    Answer. The ELEVATE Act would allow the Department to include 
students from Puerto Rico in the definition of ``immigrant children and 
youth'' in section 3201(5) of the Elementary and Secondary Education 
Act (ESEA). However, section 3111(c)(3)(B) of the ESEA requires the 
Department to use data from the American Community Survey (ACS) to 
determine the number of immigrant children and youth in each State for 
the purposes of allocating English Language Acquisition State grant 
funds. Based on preliminary conversations with the Department of 
Commerce, which administers the ACS, the Department of Education is not 
confident that it would be possible to collect and report reliable data 
on the number of students moving from Puerto Rico to another State. In 
addition, section 3111(c)(2)(A) of the ESEA specifies that only 20 
percent of a State's Title III allocation may be based on the count of 
immigrant children and youth, limiting the impact on allocations of 
including students from Puerto Rico in that count. Finally, the 
Department uses multi-year estimates from the ACS; for example, in 
fiscal year 2020, the Department will use five-year ACS data from 2013-
2017 to determine Title III allocations. Consequently, it could be 
several years before the change in definition proposed by the ELEVATE 
ACT, assuming enactment, is fully reflected in the ACS data.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
every student succeeds act and required reporting on per-pupil spending
    Question. The Every Student Succeeds Act (ESSA) established a new 
policy requiring the reporting of actual personnel and non-personnel 
expenditures, disaggregated by Federal, State and local source of funds 
for each school and school district in each State. This reporting will 
provide an understanding of spending inequities across school districts 
and States and offer better insights into spending and student 
outcomes.
    Will you ensure that the per-pupil spending reporting requirements 
under ESSA are followed and such information is made available to the 
public in an accessible and understandable manner? Please describe the 
specific actions taken to date and planned activities to support the 
effective implementation of this reporting requirement, including any 
steps the Department is taking to encourage States to have uniform 
procedures for the calculation of per-pupil spending within each State.
    Answer. The Department will ensure that States and districts meet 
the report card requirements in ESEA section 1111(h), including the 
requirement to report per-pupil expenditure data. The Department 
released non-regulatory guidance on State and local report cards in 
March 2019 (available at: https://oese.ed.gov/files/2020/03/report-
card-guidance-final.pdf) that encouraged each State to establish 
uniform procedures for its local educational agencies (LEAs) when 
calculating per-pupil expenditures. The Department also provides 
technical assistance related to State and local report cards through 
the State Support Network, including assistance focused on per-pupil 
expenditure data. For example, in 2018 a community of practice 
involving Arkansas, Montana, North Dakota, New Mexico, Nevada, and 
Oklahoma focused on improving financial transparency, while other 
communities of practice have shared information and support on data 
quality, State and local report cards, and resource allocations. 
Information about these communities of practice can be found at: 
https://statesupportnetwork.ed.gov/state-support-network-communities-
practice. The Network also created the ``Financial Transparency and 
Reporting Readiness Assessment Tool.'' This tool can help States and 
districts meet the ESSA reporting requirements by identifying and 
analyzing school level expenditure data. This tool contains two 
components--a self-diagnostic framework and an analysis tool--that are 
designed to help districts and States understand the dynamics of 
school-level per-pupil reporting in their own district financial data. 
The tool can be found at: https://statesupportnetwork.ed.gov/resources/
financial-transparency-and-reporting-readiness-assessment-tool.
    A complete review of State and local report cards is included in 
the Department's monitoring protocols, which are found at: https://
oese.ed.gov/offices/office-of-formula-grants/school-support-and-
accountability/performance-reports/. An important aspect of our 
consolidated monitoring is a thorough review, for each State monitored 
in a particular year, of the State's report card to ensure that it 
includes all required elements. In addition, in January 2020, the 
Department reviewed each State website to determine if States and 
districts were in compliance with certain report card requirements, 
including per-pupil expenditures. The Department shared the results of 
its review with each individual State.
 essa report card requirements, public availability, and monitoring of 
                            state compliance
    Question. The Secretary's testimony stated that key ESEA 
accountability and reporting requirements are aimed at ``protecting 
students, supporting meaningful school improvement efforts, and giving 
parents information they need to support a high-quality education for 
their children.'' One of those key accountability and reporting 
requirements are the State, district and school report cards required 
under Sec. 1111(h) of the Every Student Succeeds Act (ESSA). Under 
ESSA, new reporting requirements were included related to the design of 
accountability systems and inclusion of key data points required by the 
Civil Rights Data Collection. Last year the Department released non-
regulatory guidance for State educational agencies (SEAs) and local 
educational agencies (LEAs) as they produce the required report cards, 
which must include disaggregated student achievement and graduation 
data by student subgroups, methodology for the State's accountability 
system, and professional qualifications of teachers disaggregated by 
school poverty level, among many other indicators required to be 
reported in order to evaluate the equity and quality of education.
    Will you ensure that report card requirements under ESSA are 
followed and all of the required information is made available to the 
public in an accessible and understandable manner? Please describe the 
specific actions taken to-date and planned activities to support the 
effective implementation of these reporting requirements. Please 
describe and provide documentation for the Department's policies and 
procedures for monitoring the implementation of State, district and 
school report cards, including any guidance documents provided to SEAs.
    Answer. In response to question parts a and b, a complete review of 
the State and local report cards is included in the Department's 
monitoring protocol for each State monitored in a given year. This 
includes ensuring that all required items are publicly available and 
that the State and districts have a process to make them available to 
public in an accessible manner.
    In addition, in January 2020, the Department reviewed each State 
website to determine if State and local report cards had been 
published. (Even though report cards are not required to be published 
by a particular date, the Department expected that a State would have 
published its report card for the 2018-2019 school year by January 
2020). Staff reviewed each report card to see if it included certain 
elements, including many of the elements that are new under ESSA, such 
as per-pupil expenditures. The Department shared the results of its 
review with each State. The Department intends to conduct a similar 
review of all State and local report cards next year.
    The Department has also hosted a series of communities of practice 
to support State implementation of the report card requirements and to 
highlight promising report card practices. SEAs participated in 
facilitated, topically designed, scaffolded learning series in which 
participants had access to experts in the field and engage in peer-to-
peer learning. A cross section of content and technical experts within 
SEAs were encouraged to participate in order to have diverse 
perspectives represented. These sessions addressed topics such as 
report card design, enhancing data quality, communication strategies, 
stakeholder engagement and alignment, per-pupil expenditures, and 
reporting information on all students, including students with 
disabilities. The Department has made all tools, resources, and content 
developed as a result of the communities of practices available to all 
States and LEAs.
    Question. Has the Department identified any violations of report 
card compliance? If so, please identify the number of violations by 
listing the names of each SEA and LEA. By what means did the Department 
take to ensure these violations were corrected?
    Answer. Following on-site and desk reviews, the Department works 
with each State until all issues are fully resolved. This starts with 
the State providing a response within 30 days of receiving the 
monitoring report and may include an iterative process of reviewing 
State submissions and asking for clarification or additional 
information as needed. The Department continues to communicate with 
each State and provide technical assistance, as needed, until all 
monitoring findings are resolved. In addition, conditions on grant 
awards or other actions are sometimes used to account for long-standing 
issues identified in monitoring findings. The Department has generally 
required a State to update its most recently published report card 
within 30 days of receiving the final report, if possible, and include 
any missing elements in all future report cards. The list below 
includes each of the required actions based on report card violations.
2019
            New Jersey
    Note that the timeline for New Jersey was extended due to COVID19.
    Required Action: Within 60 business days of receiving this report, 
provide a plan and timeline for updating its report cards to include 
all required elements. For the 2018-2019 school year report cards, 
NJDOE must demonstrate that its SEA and LEA report cards for the 2018-
2019 school year include all required elements (e.g., providing links 
to published report cards, screenshots, etc.).
  --Specifically, the SEA report card for the 2017-2018 school was 
        missing the following items:
    --Progress toward State-designed long-term goals, including 
            measurements of interim progress
    --Information on school improvement funds under ESEA section 1003 
            by LEA and school, including the names of LEAs and schools 
            receiving school improvement funds, amount of funds 
            received by each school, and the types of strategies 
            implemented in each school
    --Exit criteria established by the State for schools identified for 
            comprehensive support and improvement and schools 
            identified for additional targeted support and improvement
    --Data from the Civil Rights Data Collection
    --Educator qualifications for teachers that are not teaching in 
            subject/field of certification/licensure
    --Information cross-tabulated on student achievement on State 
            assessments, the other academic indicator, graduation rate 
            indicator, and the percentage of students assessed and not 
            assessed (ESEA section 1111(g)(2)(N)). This data must be 
            cross-tabulated by each major racial and ethnic student 
            subgroup, gender, English proficiency status, and children 
            with and without disabilities. This may be accomplished by 
            providing this information on SEA report cards
  --The LEA report cards for the 2017-2018 school that the Department 
        reviewed were missing the following items:
    --Exit criteria established by the State for schools identified for 
            comprehensive support and improvement and schools 
            identified for additional targeted support and improvement; 
            and
    --Educator qualifications for teachers not teaching in subject/
            field of certification/licensure.
            Montana
    Required Action: Within 30 business days of receiving this report, 
the SEA must:
  --Provide a plan and timeline for updating the 2018-2019 school year 
        State and local report cards to include all required elements 
        (e.g., providing links to published report cards or pdf 
        versions of the expanded report cards).
  --Provide evidence that the State and local report cards, 
        specifically the list of schools identified for additional 
        targeted support and improvement, do not reveal personally 
        identifiable information about individual students.
2018
            New Mexico
    Required Action: The SEA must, within 30 business days of receipt 
of this report, submit a plan that describes how and by what date the 
SEA will:
  --Disseminate accurate and complete State and local report cards for 
        the 2016-2017 school year, that includes:
    --Information on student achievement on academic assessments at 
            each level of achievement for the migrant subgroup;
    --The percentage of students not assessed for all students and each 
            subgroup of students;
    --Information, both in the aggregate and disaggregated by high-
            poverty and low-poverty schools, on the professional 
            qualifications of teachers in the State, including the 
            number of teachers teaching with emergency or provisional 
            credentials; and
    --The percentage of students at each achievement level reported on 
            the NAEP in the aggregate and, for State report cards, 
            disaggregated for each subgroup (all students, economically 
            disadvantaged, major racial and ethnic subgroups, students 
            with disabilities, and students with limited English 
            proficiency).
  --Ensure, for the 2017-2018 report cards, that the SEA report card 
        and each LEA report card include all required elements under 
        the ESEA, as amended ESSA, consistent with ESEA Sec. 1111(h)(1) 
        and ESEA Sec. 1111(h)(2), respectively.
            Louisiana
    Required Action: Within 30 business days of receiving this report, 
LDOE must provide the Department with a plan and timeline for when it 
will publish (and, according to that timeline, documentation that it 
has published):
  --A complete State report card for the 2016-2017 school year 
        including, but not limited to the following information:
    --Student achievement on the mathematics, reading/language arts, 
            and science assessments at each level of achievement, for 
            all students and disaggregated by each major racial and 
            ethnic group, economically disadvantaged students as 
            compared to students who are not economically 
            disadvantaged, children with disabilities as compared to 
            children without disabilities, English proficiency status, 
            gender, and migrant status.
    --Four-year adjusted cohort high school graduation rates for all 
            students and disaggregated by economically disadvantaged 
            students, students from major racial and ethnic groups, 
            children with disabilities, and English learners.
    --Percentage of students assessed and not assessed, for all 
            students and disaggregated by each major racial and ethnic 
            group, economically disadvantaged students as compared to 
            students who are not economically disadvantaged, children 
            with disabilities as compared to children without 
            disabilities, English proficiency status, gender, migrant 
            status.
    --Number and percentage of teachers teaching with emergency or 
            provisional credentials (in the aggregate and disaggregated 
            by high poverty compared to low-poverty schools).
    --Most recent available results on the State's National Assessment 
            of Educational Progress reading and mathematics 
            assessments, by percentage of students at each achievement 
            level in the aggregate and disaggregated by major racial 
            and ethnic groups, students with disabilities, English 
            learners, and economically disadvantaged subgroups, in 
            grades four and eight.
  --State and LEA report cards for 2017-2018 that include all elements 
        required under the ESEA, as amended by ESSA.
            Illinois
    Required Action: Within 30 business days of receiving this report, 
ISBE must provide the Department with:
  --A complete State report card for the 2016-2017 school year 
        including, but not limited to, the most recent available 
        results on the State's NAEP reading and mathematics 
        assessments, by percentage of students at each achievement 
        level in the aggregate and disaggregated by major racial and 
        ethnic groups, students with disabilities, English learners, 
        and economically disadvantaged subgroups, in grades four and 
        eight
            Georgia
    Required Action: Within 30 business days of receiving this report, 
GaDOE must provide evidence that the State and LEA report cards for the 
2017-2018 school year include all missing information outlined below.
    For the 2017-2018 school year the State report card did not 
include:
  --The most recent available results on the State's National 
        Assessment of Educational Progress (NAEP) reading and 
        mathematics assessments, by percentage of students at each 
        achievement level in the aggregate and disaggregated by major 
        racial and ethnic groups, students with disabilities, English 
        learners, and economically disadvantaged subgroups, in grades 
        four and eight.
    For the 2017-2018 school year, both the State and the LEA report 
card did not include:
  --The number and percentage of teachers teaching with emergency or 
        provisional credentials (in the aggregate and disaggregated by 
        high poverty compared to low-poverty schools);
            California
    Required Action: Within 30 business days of receiving the report, 
CDE must submit a plan that describes how it will:
  --Develop and implement a systematic, documented process for data 
        reporting that ensures, for the 2018-2019 report cards, that 
        State and LEA report cards include all required elements under 
        the ESEA, as amended by ESSA, and that report cards will be 
        disseminated in a timely manner annually.
    --The plan should include specific procedures that will improve LEA 
            data reporting and the steps for meeting annual report card 
            requirements by a State-established deadline, and 
            identification of previous barriers to releasing complete 
            report cards as early as possible in the school year, along 
            with solutions to address those barriers; and
  --Update and disseminate SY 2016-2017 State and LEA report cards that 
        include all required elements.
            Alaska
    Required Action: Within 30 business days of receipt of this report, 
DEED must:
  --Demonstrate that its LEA report cards produced for the 2017-2018 
        school year (SY) include the number and names of all public 
        schools in the LEA identified for comprehensive or targeted 
        support and improvement.
            Texas
    Required Action: Within 30 business days of receiving this report, 
TEA must provide:
  --A revised State report card for the 2016-2017 school year that 
        includes the following missing information:
    --The percentage of students not assessed on the mathematics, 
            reading/language arts, and science assessments for all 
            students and each subgroup of students; and
    --The names of schools served by the State as priority and focus 
            schools for the 2016-2017 school year.
  --An assurance that it has revised LEA report cards for the 2016-2017 
        school year that provide complete information;
  --Hyperlinks to revised LEA report cards for Edgewood ISD and San 
        Antonio ISD and five other randomly selected LEAs; and,
  --An assurance that, beginning with the 2017-2018 school year and for 
        subsequent years, TEA will submit graduation rate data files 
        (FS 150 and 151) for the SEA-, LEA-, and school-levels by the 
        established deadline.
2017
            Mississippi
    Required Action: Within 30 business days of receiving the report, 
MDE must provide the Department with a corrective action plan for 
addressing the deficiencies noted above or evidence documenting that 
they have already addressed the deficiencies. Specifically, the plan 
must address the following items:
  --Development and implementation of a systematic, documented process 
        for data reporting that allows for annual publication of State 
        and local report cards in a timely manner.
    --The plan should focus on procedures that improve annual LEA data 
            reporting requirements and steps for meeting annual report 
            card requirements by a State-established deadline, and 
            identification of previous barriers to releasing complete 
            report cards as early as possible in the school year, along 
            with solutions to address those barriers.
  --Making LEA annual report cards for school year 2014-2015 and school 
        year 2015-2016 available to LEAs for posting on LEA websites or 
        ensuring that LEAs make available information regarding where 
        the LEA report card is posted on the SEA website so that 
        parents and other community members have relevant information 
        to work more effectively with educators and local school 
        officials.
            South Carolina
    Required Action: Within 30 business days of receiving this report, 
SCDE must provide the Department with documentation evidencing that it 
has:
  --Updated and disseminated the most recently available State and 
        local report cards to include the following missing 
        information:
    --All required information on student achievement on the academic 
            assessments at each level of achievement, for all students 
            and disaggregated by each subgroup of students.
    --All required 4-year adjusted cohort high school graduation rates.
    --For all students and disaggregated by each subgroup of students, 
            the percentage of students not assessed.
    --All required information (in the aggregate and disaggregated by 
            high poverty compared to low-poverty schools) on the 
            professional qualifications of teachers in the State, 
            including the number and percentage of teachers teaching 
            with emergency or provisional credentials.
    --The number and names of all public schools in the State 
            identified by the SEA for school improvement, including 
            priority and focus school statuses.
  --Developed procedures to ensure that report cards (including the 
        required report cards for school year 2016-2017) include each 
        required data element, are published in a timely manner, and 
        are in a format that enables, to the extent practicable, report 
        card information in language(s) that parents can understand.
            Wyoming
    Required Action: Within 30 business days of receiving this report, 
WDE must provide the Department with documentation evidencing that it 
has:
  --Updated and disseminated the most recently available State and 
        local report cards to include the following missing 
        information:
    --The number and names of all public schools in the State 
            identified by the SEA for school improvement.
    --All required information on student achievement on the academic 
            assessments at each level of achievement, for the migrant 
            subgroup of students.
    --For the migrant subgroup of students, the percentage of students 
            not assessed.
    --All required information (in the aggregate and disaggregated by 
            high poverty compared to low-poverty schools) on the 
            professional qualifications of teachers in the State, 
            including the number and percentage of teachers teaching 
            with emergency or provisional credentials;
    --Results on the State academic assessments in reading and 
            mathematics in grades 4 and 8 of the National Assessment of 
            Educational Progress, compared to the national average of 
            such results.
  --Developed procedures to ensure that report cards (including the 
        required report cards for school year 2016-2017) include each 
        required data element, are published in a timely manner, and 
        are in a format that enables, to the extent practicable, report 
        card information in language(s) that parents can understand.
            Pennsylvania
    Required Action: During the review, the Department identified two 
required data elements, listed below, that were missing from the more 
recently available State report card: regarding PDE's reporting of 
required program data:
  --The percentage of students at each achievement level reported on 
        the NAEP in the aggregate and, for State report cards, 
        disaggregated for each subgroup described in 34 C.F.R. 
        Sec. 200.13(b)(7)(ii) specifically as it relates to:
    --Students with disabilities, as defined in ESEA Sec. 9101(5),
    --English learners, as defined in ESEA Sec. 9101(25).
            Indiana
    Required Action: Within 30 days of receiving this report, IDOE must 
provide the Department with a plan to:
  --Publish a State report card for school year (SY) 2016-2017 that 
        includes all required Federal program data no later than 
        November 1, 2018;
  --Publish a State report card for SY 2017-2018 that includes all 
        required Federal program data;
  --Implement procedures IDOE will use to ensure that for report cards 
        for 2017-2018 and future years the IDOE collects and reports 
        all required Federal program data in accordance with 
        established timelines; and
  --Include in the plan:
    --A list of all data elements the IDOE will report for SY 2017-18 
            and future years for required Federal programs reporting 
            and that the IDOE will require LEAs to report for these 
            years;
    --Procedures to ensure IDOE annually collects all required Federal 
            program data in accordance with established timelines;
    --Procedures to ensure that all required Federal program data are 
            reported annually;
    --Procedures to ensure that all required Federal program data are 
            reported in an understandable and uniform format;
    --Procedures to mitigate against the failing to include a required 
            report card data element or reporting in a way that varied 
            from requirements, posting incomplete data, or reporting in 
            a way that varies from requirements;
    --Milestones and a timeline for publishing a State report card for:
      -- SY 2016-2017 that includes all required Federal program data 
            no later than November 1, 2018;
      -- SY 2017-2018 that includes all required Federal program data; 
            and,
    --Staff responsible for each of the above.
  --Ensure that all LEAs in the State report all required Federal 
        program data. In this plan, IDOE also must identify policies 
        and procedures it will implement beyond those in place at the 
        time LEA report card were found to not include all required 
        data.
            Massachusetts
    Required Action: Within 30 business days of receiving this report, 
MA DESE must provide the Department with documentation demonstrating 
that it has:
  --Updated and disseminated the most recently available State and 
        local report cards to include the following missing 
        information:
    --All required information on student achievement on the academic 
            assessments at each level of achievement, for the migrant 
            subgroup of students.
    --The percentage of students not assessed for the migrant subgroup 
            of students.
  --Developed procedures to ensure that report cards (including the 
        required report cards for school year 2016-2017) include each 
        required data element.
            North Carolina
    Required Action: The SEA must, within 30 business days of receipt 
of this report, submit a plan that describes how the SEA will:
  --Disseminate complete State report cards for the 2015-2016, 2016-
        2017, and 2017-2018 school years by December 31, 2018; and
  --Ensure, for the 2017-2018 report cards, that:
    --The State report card includes all required elements under the 
            ESEA, as amended by ESSA; and
    --LEA report cards include all required elements under the ESEA, as 
            amended by ESSA, including, but not limited to:
      -- Information on student achievement on academic assessments at 
            each level of achievement, for all students and 
            disaggregated by each major racial and ethnic group; 
            economically disadvantaged students as compared to students 
            who are not economically disadvantaged; children with 
            disabilities as compared to children without disabilities; 
            English proficiency status; gender; migrant status; 
            homeless status, status as a child in foster care, and 
            status as a student with a parent with is a member of the 
            Armed Forces on active duty.
      -- The 4-year adjusted cohort high school graduation rates for 
            all students and disaggregated by each major racial and 
            ethnic group; economically disadvantaged students as 
            compared to students who are not economically 
            disadvantaged; children with disabilities as compared to 
            children without disabilities; English proficiency status: 
            homeless status, and status as a child in foster care, and, 
            if applicable, the extended-year adjusted cohort graduation 
            rates;
      -- The percentage of students not assessed for all students and 
            each subgroup of students;
      -- Information disaggregated by high-poverty and low-poverty 
            schools, on the professional qualifications of teachers in 
            the State, including the number and percentage of 
            inexperienced teachers, principals, and other school 
            leaders; teachers teaching with emergency or provisional 
            credentials; and teachers who are not teaching in the 
            subject or field for which the teacher is certified or 
            licensed.
    Question. Please identify the number of States that are compliant 
with each of the report card indicators as required by ESSA Sec 
1111(h).
    Answer. As noted above, the Department conducts a thorough review 
of each State's report card as part of its consolidated monitoring 
process. The Department monitors several States each year; as a result, 
it does not conduct a thorough review of each State's report card for 
compliance with all elements each year. As noted above, report card 
compliance is an area that often results in a monitoring finding.
    In addition to the consolidated monitoring for a few States each 
year, the Department conducted a limited review of each State and local 
report card in January 2020 for select elements. The report card 
requirements that the Department reviewed included: per-pupil 
expenditures; achievement data for students in foster care, students 
experiencing homelessness, and military-connected students; graduation 
rate data for students in foster care and students experiencing 
homelessness; list of schools identified for comprehensive or targeted 
support and improvement and additional targeted support and 
improvement; LEAs receiving ESEA section 1003 funds; and types of 
strategies implemented in LEAs receiving ESEA section 1003 funds.
    Question. Please provide a list of steps documenting the 
Department's efforts to ensure that more States come into compliance 
with the law. How is the Department encouraging States to change, add, 
or adapt their report cards to fully comply with the law?
    Answer. As detailed above, the Department has undertaken a range of 
actions to support States in developing their report cards. It issued 
nonregulatory guidance in March 2019. It has conducted several 
technical assistance initiatives, including several communities of 
practice specifically focused on report cards and improving data 
quality. The National Center for Education Statistics has been 
providing support for States through a pilot fiscal survey that has 
been helping States standardize per-pupil expenditures and through the 
State Longitudinal Data Systems grants. In addition, report card 
requirements are included as part of consolidated monitoring protocols. 
Following on-site and desk reviews, the Department works with each 
State until all issues are fully resolved. This starts with the State 
providing a response within 30 days of receiving the report and may 
include an iterative process of reviewing State submissions and asking 
for clarification or additional information as needed. The Department 
continues to communicate with each State and provide technical 
assistance, as needed, until all monitoring findings are resolved. In 
addition, conditions on grant awards or other actions are sometimes 
used to account for long-standing issues identified in monitoring 
findings.
    In December 2018, the Department hosted a meeting of SEA staff that 
included several sessions focused on the changes to report card 
requirements under the amended ESEA. In 2018, the Department also 
hosted the Report Card Design Challenge which invited technology 
experts, State and local representatives, and parents to develop model 
report card designs focused on transparency and accessibility. 
Information about this activity can be found at: https://tech.ed.gov/
essa-report-card-design-challenge/.
    education freedom scholarships and protections for civil rights
    Question. The President's budget proposes to provide $5 billion 
annually for a Federal private school tax credit scheme for the wealthy 
and corporations that make donations for Education Freedom Scholarships 
that would fund private school vouchers. Under this proposal, if 
enacted, Federal tax revenue would be $5 billion lower each year due to 
the reduced tax bill for individuals and corporations making donations 
to this voucher scheme. This Federal money could be used instead to 
support public schools across the country who educate 90 percent of 
elementary and secondary students.
    Do you believe Federal policy should incentivize donations to 
State-designed voucher programs that allow discrimination against any 
student because of their gender or sexual orientation? Whether the 
student identifies as transgender? If you do not, what protections do 
you support for prohibiting these and other forms of discrimination?
    Answer. All children deserve access to a high-quality education 
that meets their needs and an opportunity to learn free from 
discrimination. The administration's Education Freedom Scholarship 
(EFS) proposal would empower students and families to choose the best 
educational setting for them--regardless of where they live, how much 
they make, and how they learn. The proposal gives students and families 
the freedom to decide what's best for them. No family is forced to 
accept a scholarship, no taxpayer is forced to contribute, no 
organization is forced to participate, and no State is forced to 
participate. This tax credit would help extend education choice to the 
greatest number of families possible while respecting Federalism.
    Question. In your belief, should States prohibit a private schools 
from participating in a State-designed voucher programs due to past 
violations of civil rights laws, including discrimination against 
students on the basis of race, color, national origin, disability, or 
sex (including gender identity and sexual orientation)?
    Answer. States, not the Federal Government, will determine which 
education providers can receive scholarships under the Education 
Freedom Scholarship proposal. States may include private schools in 
their local programs, but they are not obliged to do so. The Department 
will continue to enforce all existing civil rights laws for all private 
and public schools. If Education Freedom Scholarships are enacted, the 
Department will not--and cannot--waive any existing civil rights laws.
  tax credit scholarships and monitoring protocols to prevent waste, 
                            fraud, and abuse
    Question. A report from the U.S. Government Accountability Office 
(GAO) issued in September 2019 found that existing State tax credit 
scholarship programs set varying requirements for scholarship-granting 
organizations and that not all States require such organizations to 
undergo annual financial audits or reviews, and very few States have 
policies regarding conflicts of interests or requirements for 
fundraising practices. Additionally, all State programs allow such 
organizations to use donations for non-scholarship expenses--ranging 
from 2 to 20 percent of donations. Given the lack of stringent 
financial monitoring for scholarship-granting organizations in 
currently-operating State tax credit scholarship programs, under your 
proposal to provide such organizations with $5 billion from offset 
Federal taxpayer revenue, what monitoring protocols would the 
Department of Education implement or require of States to ensure that 
such organizations do not commit waste, fraud, and abuse?
    Answer. The administration's Education Freedom Scholarship proposal 
would establish a Federal tax credit for voluntary donations to State-
designed scholarship programs for elementary and secondary students. 
The tax credits would be managed by the U.S. Treasury Department. 
States, not the Federal government, will determine scholarship 
requirements, including family eligibility, the education providers 
that can receive scholarships, and allowable uses of scholarship. 
Consequently, States would be responsible for establishing appropriate 
monitoring protocols.
increase in federal education funding an long-term improvements in math 
                           and reading scores
    Question. The Secretary's testimony today states ``The Members of 
this Subcommittee should recognize that the answer is not merely 
supplying more Federal taxpayer dollars. You have nearly doubled 
spending on K-12 education since 2000, from $23 billion in 2000 to just 
over $41 billion in 2020.'' However, the National Center for Education 
Statistics website states ``Over the long term, however, the national 
average scores in both subjects [reading and mathematics] were higher 
for both grades compared to the initial assessment years.'' Average 
NAEP scores are up for mathematics in fourth and eighth grades as 
compared to 2000 and up from 2000 for fourth grade Reading. What 
evidence does the Department have that these Federal funding increases 
played no role in helping raise these scores?
    Answer. It is not possible to determine whether funding plays a 
role in changes seen in test scores--positively or negatively--by 
simply examining whether funding and test scores change in the same or 
different directions over time. However, it is possible to examine 
whether the students' progress has stalled. While students at grades 4 
and 8 in both mathematics and reading had higher scores overall in 2019 
compared to the first assessments in the early 1990s, there has been no 
overall improvement over the last decade. Furthermore, compared to a 
decade ago, scores at both grades and in both subjects were lower or 
not significantly different for lower-performing students at the 10th 
and 25th percentiles. That is a particular concern for any assessment 
of Federal education spending, since it suggests that the students 
intended to benefit from that spending the--lowest-achieving students 
in high-poverty schools--are not closing the achievement gap when 
compared to their more advantaged peers.
    Supplement Not Supplant Requirements and 2018-2019 and 2019-2020 
Monitoring Results
    Question. Under the Every Student Succeeds Act (ESSA), compliance 
with supplement not supplant (SNS) requirements of the Elementary and 
Secondary Education Act (ESEA) were modified to allow a Title I neutral 
methodology under which compliance with SNS is determined by a local 
educational agency (LEA) demonstrating that a school receiving 
assistance under Title I-A receives all of the State and local funds it 
would otherwise receive if it were not receiving assistance under Title 
I-A. This modification was in effect starting with the 2018-2019 school 
year. For the Department's on-site and desk monitoring of State 
educational agencies (SEAs) in school years 2018-2019 and 2019-2020:
    Please identify the SEAs the Department monitored for compliance 
with SNS, separately identifying on-site and desk monitoring by school 
year.
    Answer. In 2019-2020, the Department conducted on-site reviews in 
Montana and New Jersey. In 2018-2019, the Department conducted on-site 
reviews in Arizona, California, Illinois, New Mexico and Texas, as well 
as desk reviews in Alaska, Georgia, Louisiana, and Michigan.
    Question. Please describe and provide documentation for the 
Department's policies and procedures for these monitoring activities, 
including training materials provided to monitors.
    Answer. The Department's consolidated monitoring, including Title 
I, Part A, uses protocols that are publicly available on our website 
(as noted in response to Senator Murray's first question, available at: 
https://oese.ed.gov/offices/office-of-formula-grants/school-support-
and-accountability/performance-reports/). The Department's monitoring 
focuses on the activities of the prior school year. Because the 
Department monitors implementation for the prior school year, Montana 
and New Jersey were the only States that were monitored for compliance 
with the ESSA supplement not supplant requirement.
    The Department's consolidated monitoring, which includes Title I, 
Part A, is conducted by teams of individuals knowledgeable about the 
specific programs being monitored. The State is required to submit 
documentation to the Department prior to the review, which staff review 
and use as the basis for the on-site questions.
    Question. What policies and procedures have SEAs employed in 
monitoring LEA compliance with SNS? What documentation has the 
Department considered or reviewed during its monitoring processes of 
such SEA monitoring? Please identify any supplemental State and local 
funds expended for programs that meet the intent and purposes of Title 
I-A excluded from SNS requirements.
    Answer. While the Department has not yet monitored every State 
through our consolidated monitoring process, the general practice is 
that States incorporate the supplement not supplant requirement into 
their LEA monitoring protocols and local consolidated grant 
applications, which allow States to collect LEA methodologies to ensure 
compliance with the ESEA requirement. In the Department's consolidated 
monitoring of SEAs (described above), it has reviewed the SEA's 
monitoring protocol for LEAs to ensure that the SEA is conducting 
proper oversight of LEAs. The Department also reviewed SEA guidance to 
LEAs to ensure accuracy with the requirements.
    Question. What information and assistance have SEAs provided to 
LEAs about compliance with SNS?
    Answer. Generally, SEAs have provided information and assistance to 
LEAs in the same manner as other requirements. For example, New Jersey 
created a State-specific supplement not supplant non-regulatory 
guidance document that outlines the requirements and explains how 
oversight of the provision will work in the State. Some States have 
incorporated review of the supplement not supplant methodology in the 
consolidated local grant applications. Many States point LEAs to the 
Department's non-regulatory guidance.
    Question. Please identify the number of violations of SNS by State, 
listing the names of each SEA and LEA. By what means and in how many 
days were each of these violations corrected?
    Answer. As noted above, reviewing Title I supplement not supplant 
requirements is a component of the Department's consolidated monitoring 
process (see above for more information, including a link to the 
Department's monitoring protocols). The Department monitors a few 
States each year, using a risk analysis to identify the States. In 
2019, the Department monitored New Jersey and Montana. There was one 
supplement not supplant finding in New Jersey in 2019. Below is the 
finding for New Jersey. In addition, the Department provided a 
commendation for Georgia in 2018 for its documentation and process for 
ensuring compliance with the supplement not supplant requirements.
2019
            New Jersey
    ``In September 2019, NJDOE issued comprehensive supplement, not 
supplant guidance to its LEAs describing the requirements under Title 
I, Part A of the ESEA, as amended by the Every Student Succeeds Act 
(ESSA). However, the NJDOE subrecipient monitoring protocol includes 
questions referencing the prior supplement not supplant requirement. In 
addition, although the guidance indicates that NJDOE will collect LEA 
methodologies for supplement, not supplant through the consolidated 
local application, the 2018-2019 school year application only included 
a general assurance regarding supplement, not supplant. NJDOE must 
demonstrate how it will ensure LEA compliance with this provision, 
either by submitting an updated monitoring protocol or through the 
collection of LEA methodologies in the consolidated local applications.
    Within 60 business days of receiving this report, the State must 
submit to the Department updated subrecipient monitoring protocols for 
Title I, Part A; Title II, Part A; and Title III, Part A that are 
consistent with ESEA sections 1118(b), 2301, and 3115(g), respectively. 
For Title I, Part A, this may also be addressed through collection of 
LEA methodologies in the consolidated local application.''
            Georgia
    The Department provided a commendation to Georgia for this element, 
noting ``Under ESSA, how an LEA demonstrates compliance with supplement 
not supplement changed. To ensure Georgia LEAs comply with the new 
requirements and allocate State and local funds to schools so that each 
Title I school receives all of the State and local funds it would 
otherwise receive if it were not receiving Title I, Part A funds, GaDOE 
developed sample methodologies and shared them with LEAs. As a result, 
by July 2018 every LEA had submitted resource allocation methodology 
plans (RAMP) to GaDOE. During the review Georgia LEAs demonstrated a 
good understanding of supplement not supplant requirements, likely 
because GaDOE held several webinars and face-to-face discussions during 
school year 2017-2018 and provided feedback to LEAs on strategies to 
improve their RAMPs.''
    Question. What documentation has the Department reviewed to ensure 
that the assignment of LEA-wide resources are allocated in a Title I 
neutral manner? Please identify the number of such violations of SNS by 
State, listing the names of each SEA and LEA. By what means and in how 
many days were each of these violations corrected?
    Answer. Please see above. The Department's monitoring protocols 
include questions around supplement not supplant and the evidence a 
State is expected to submit. Information about State findings in the 
previous 2 years is provided above.
    supplement not supplant requirements 2020-2021 monitoring plans
    Question. For the Department's planned on-site and desk monitoring 
of State educational agencies (SEAs) in school year 2020-2021:
    Which SEAs will the Department monitor for compliance with SNS, 
separately identifying SEAs schedule for on-site and desk monitoring?
    Answer. The Department intended to monitor Kentucky, Nevada, and 
Puerto Rico in 2020. However, given the implications of COVID-19, the 
Department has postponed the reviews of Nevada and Puerto Rico 
(originally scheduled for March and April) for the time being. The 
Department is currently still scheduled to conduct an on-site review of 
Kentucky in August 2020, though it has been discussing with Kentucky 
whether this also needs to be rescheduled to provide relief to the 
State and its districts due to the national emergency.
    Question. If the Department's policies and procedures for 
conducting these monitoring activities will be different from the prior 
year, please explain how (and provide supporting documentation) and 
why. If training for monitors will be different from the prior year, 
please explain how and why.
    Answer. As part of its consolidated monitoring process over the 
past 4 years, the Department first develops and pilots its protocol 
and, after each review, surveys the State asking for feedback on the 
process and protocol, and also talk to staff who conducted the review 
for their feedback. Each year, this has resulted in changes to the 
protocol for the following year. Following the reviews of Montana and 
New Jersey, the Department updated its protocol for reviewing 
supplement not supplant requirements to streamline the questions and 
clearly delineate the requirement in ESEA Title I from the supplement 
not supplant requirements in Titles II and III. The most current (and 
prior) protocols are posted on the Department's website at the 
following address: https://oese.ed.gov/offices/office-of-formula-
grants/school-support-and-accountability/performance-reports/. Training 
and preparation will remain the same.
department efforts to ensure states attain compliance with essa equity 
                               guardrails
    Question. Under the Every Student Succeeds Act (ESSA), States are 
required to design State accountability systems to properly identify 
low-performing schools. I am extremely troubled that the Department 
approved State plans that do not comply with the bipartisan equity 
guardrails enshrined in ESSA, including annual meaningful 
differentiation and properly identifying the three categories of 
schools for improvement (targeted support and improvement, additional 
targeted support and improvement, and comprehensive support and 
improvement.) I am also very concerned that many States have designed 
accountability systems that fail to differentiate their schools each 
year using all the indicators in their accountability systems for all 
students and each subgroup of students. Please provide a list of steps 
documenting the Department's efforts to ensure that States come into 
compliance with the law with these provisions.
    Answer. The Department required each State plan to describe how a 
State's accountability system would use subgroup performance to 
identify: (1) schools that need targeted support and improvement based 
on having one or more ``consistently underperforming'' subgroups (as 
defined by the State) or (2) schools that need additional targeted 
support. Although the Department expects that all States are 
implementing their approved State plans, in the rare case in which a 
State's implementation of its accountability system varies from an 
approved plan, the Department will take appropriate enforcement action. 
The Department will review the State's implementation of its 
accountability and school improvement system through our consolidated 
monitoring process--each year the Department conducts a review of 
several States through this process.
   department oversight of changes to state accountability indicators
    Question. As States make revisions to the indicators and their 
weighting in the State accountability systems, how will the Department 
assess and monitor States to ensure such revisions are based on 
evidence that the State's accountability system's existing indicators 
are not meaningful, as opposed to backing away from rigorous and 
effective measures because of political pressure?
    Answer. The Department reviews each State amendment request to 
ensure compliance with all ESEA requirements, including requirements 
for indicators and weighting. While a State may elect to change 
indicators or weighting due to concerns that the indicator is not 
``meaningful,'' it is also possible that the State may elect to revise 
its system because it decides a different indicator provides a better 
method to evaluate school performance. In all cases, the Department 
will review each State plan amendment request to ensure it meets ESEA 
requirements before approving the amendment.
  state performance review self-assessment and protocol completions, 
            upcoming submissions, and information collected
    Question. The Department's SEA Performance Review Self-Assessment 
and Protocol includes several important questions regarding ESSA 
implementation on such topics as the use of funds under section 1003(a) 
of the Elementary and Secondary Education Act (ESEA) and data 
reporting. I request information regarding which States have completed 
and submitted information to the Department using the Performance 
Review Self-Assessment and Protocol since the implementation of ESSA, 
which States are due to undergo a performance review in each of the 
next 2 years, and information collected from States on each of the 
following items:

    a.  School improvement funding: How did each State award funds 
        under section 1003 of ESEA to LEAs to serve schools identified 
        for improvement--through formula, competition, or a 
        combination? Please provide this information for each fiscal 
        year for which such data is available.
    b.  School improvement funding: What percentage of funds reserved 
        under section 1003(a) did each SEA allocate to LEA subgrants 
        for each fiscal year for which such data is available?
    c.  School improvement funding: What is the range of grant size and 
        duration for grants under section 1003(a) for each State for 
        each fiscal year for which such data is available?
    d.  Evidence-based interventions: How are States ensuring funds 
        used under section 1003(a) support evidence-based 
        interventions?
    e.  Reporting: In calculating the adjusted cohort graduation rate,

      i.  How does each State define the regular high school diploma 
            used for purposes of calculating the adjusted cohort 
            graduation rate?
     ii.  How does the Department determine whether States only include 
            regular high school diplomas awarded to the preponderance 
            of students and that are aligned to State-standards and 
            more advanced diplomas?
    f.  Reporting: How many different high school diplomas are offered 
        by each State and what are the differences between each 
        diploma?
    g.  Reporting: How many pathways does each State have to attain a 
        regular high school diploma and what are the pathways in each 
        State?
    h.  Reporting: Which States offer a State-defined alternate diploma 
        for students with the most significant cognitive disabilities, 
        what are the requirements for each such diploma, and how does 
        the Department ensure such diplomas are standards-based, 
        aligned with State requirements for the regular high school 
        diploma as required under ESEA section 8101(25)(A)(ii)(I)(bb) 
        and ESEA section 8101(23)(A)(ii)(I)(bb).
    Answer. a. The Department first monitored for school improvement 
under section 1003 and data reporting requirements related to school 
improvement when it monitored Montana and New Jersey in the 2019-2020 
school year. These protocols were piloted in prior years. Therefore, 
responses below are provided for Montana and New Jersey. Both SEAs 
stated that in 2018-2019 they awarded funds under section 1003 of the 
ESEA to LEAs through a formula.
    b. Montana: The SEA stated that it used 95 percent of its section 
1003(a) funds to serve schools identified for comprehensive or targeted 
or additional targeted support and improvement. Specifically, the SEA 
stated that for 2018-2019 it awarded 60 percent of funds reserved under 
ESEA section 1003(a) to LEAs. Consistent with ESEA section 
1003(b)(1)(B), the SEA used an additional 35 percent of the funds it 
reserved under section 1003(a) to provide, with approval of its LEAs, 
services directly to CSI schools through a provider that serves schools 
in multiple LEAs.
    New Jersey: The SEA stated that for 2018-2019 it awarded 95 percent 
of funds reserved under ESEA section 1003(a) to LEAs.
    c. Montana: The SEA provided documentation showing that in 2018-
2019, LEA subgrants under section 1003 ranged from $12,550 to $69,500. 
The SEA awards 1 year LEA subgrants under section 1003 on an annual 
basis.
    New Jersey: The SEA provided documentation showing that its 2018-
2019 LEA subgrants under section 1003 ranged from $3,800 to $589,400. 
The SEA awards 1 year LEA subgrants under section 1003 on an annual 
basis.
    d. Montana: The SEA stated that it has two strategies to ensure 
that interventions supported by section 1003 funds reflect strong, 
moderate, or promising evidence-based strategies. First, the SEA 
provided training during the application process on how to select a 
strong to moderate intervention, practice, or strategy that meets the 
needs of the students and shows evidence of improving student outcomes. 
During the training, the SEA demonstrated where and how to select 
evidence-based strategies and use implementation data, such as the What 
Works Clearinghouse, and Institute of Educational Science Guides. 
Second, the SEA stated that the State contact from the SEA and/or 
Instructional Consultant assesses the impact of strategies on improving 
student outcomes monthly during school leadership team meetings, where 
progress-monitoring data is reviewed and informs action planning. In 
addition, the SEA described a continuous learning cycle by which the 
School Leadership Team and the SEA State contact and/or the 
Instructional Consultant discuss how to assess local needs, select 
evidence-based strategies, practices, and interventions, create a plan 
for implementation, implement and monitor the plan, reflect and revise 
the plan, and cycle back to assessing.
    New Jersey: The SEA provided examples of several tools it shares 
with LEAs, such as a toolkit for determining strength of evidence, and 
questions to consider when selecting an evidence-based intervention. 
SEA staff that review applications for section 1003 funds receive 
training on requirements for evidence-based interventions. SEA staff 
make various resources and databases available on the New Jersey 
Department of Education website for LEAs, such as the What Works 
Clearinghouse and Evidence for ESSA. Additionally, SEA staff use 
internal resources capturing evidence-based strategies and practices 
not included in external databases to help them provide technical 
assistance to LEAs on evidence-based interventions and evaluate LEAs' 
proposed evidence-based interventions.
    e. i. Montana: The SEA stated the following: ``The definition of a 
regular high school diploma established by the Board of Public 
Education requires that every student complete at least 20 credits and 
meets content and performance standards to receive a high school 
diploma. The State allows its school districts to set their own 
requirements for graduation, as long as those standards meet the 
State's minimum graduation requirements, which are outlined in 
Administrative Rules of Montana, ARM 10.55.905 and ARM 10.55.906. The 
State allows students to graduate from high school with less than 4 
years of enrollment if all requirements are met. It also allows credits 
earned in any Montana high school accredited by the Board of Public 
Education to be accepted by all Montana high schools.'' Additionally, 
through other questions in the protocol, the Department determined that 
the SEA was incorrectly including students who meet their 
Individualized Education Program (IEP) goals as recipients of a regular 
high school diploma for the purpose of calculating the adjusted cohort 
graduation rate under the ESEA. The Department issued a finding and is 
working with the SEA to resolve this issue, and the SEA has indicated 
that it no longer includes such students in its graduation rate for 
ESEA purposes.
    New Jersey: Students receive a regular high school diploma if they 
meet the State's minimum graduation course requirements and the 
graduation assessment requirements. These students are included as 
graduates in the calculation of the 4-year adjusted cohort graduation 
rate. In addition, New Jersey includes as graduates in their 4-year 
adjusted cohort graduation rate students who receive a regular high 
school diploma on the basis of achieving their IEP goals. Specifically, 
IEP teams at the school level can exempt students from graduation 
requirements and make determinations for alternate proficiencies that 
students need to meet in order to graduate. The Department issued a 
finding and is working with the SEA to resolve this issue.
    e. ii. During the State performance reviews conducted in fall 2019, 
the Department reviewed documentation from the SEAs and asked questions 
about how, for ESEA purposes, the SEA defines a regular high school 
diploma; the number of different high school diplomas offered; pathways 
to a regular high school diploma; whether or not the SEA offers a 
State-defined alternate diploma; and other related questions about the 
calculation of the adjusted cohort graduation rate. These questions, 
the documentation provided by the SEA, and follow-up questions and 
responses discussed during the on-site conversations provided 
information for the Department to determine whether States were only 
including regular high school diplomas awarded to the preponderance of 
students and that were aligned to State standards and more advanced 
diplomas. As noted in our response to the previous question, this 
approach identified issues in both Montana and New Jersey.
    In addition to monitoring, the Department annually collects data 
from all States through the EDFacts data collection on the adjusted 
cohort graduation rates. Each SEA is required to submit these data for 
the four-year adjusted cohort graduation rate and any extended-year 
adjusted cohort graduation rate, for all students and each student 
subgroup, for the SEA and each school and LEA. In addition to 
collecting the actual graduation rates, the Department also collects 
data on the numerators and denominators used to perform the 
calculation. These data are reviewed upon submission and the Department 
follows up on data quality concerns and data notes from the SEAs when 
necessary. This allows the Department to take a closer look at how many 
students are receiving a regular high school diploma, are graduating 
with a State-defined alternate high school diploma, are not graduating 
with a regular or State-defined alternate high school diploma, or are 
removed from the cohort for allowable reasons.
    f. Montana: The SEA stated that it only offers a single high school 
diploma.
    New Jersey: The SEA provided evidence that it only offers one 
diploma.
    g. Montana: During the State performance review for Montana in fall 
2019, the SEA indicated that there are two pathways to a regular high 
school diploma, one based on meeting the State's definition of a high 
school diploma (included above) and another based on achieving IEP 
goals. As noted above, for ESEA purposes, the SEA has since indicated 
that it no longer includes students who receive a regular high school 
diploma on the basis of achieving their IEP goals in the graduation 
rate.
    New Jersey: New Jersey offers three pathways to obtain a regular 
high school diploma: demonstrating proficiency on end-of-course high 
school assessments; demonstrating proficiency by meeting the cut scores 
on alternative English language arts and/or mathematics assessments; 
and demonstrating proficiency in English language arts and/or 
mathematics through a portfolio appeals process. As noted above, the 
Department also issued a finding to New Jersey because it was including 
students who earned a diploma based on achieving IEP goals; the 
Department is working with New Jersey to address this finding.
    h. Montana: The SEA stated that it does not offer a State-defined 
alternate diploma.
    New Jersey: The SEA stated that it does not offer a State-defined 
alternate diploma.
   evidence priority in fiscal year 2019 and 2020 competitive grant 
                              competitions
    Question. How many competitive grant programs included an evidence 
priority in fiscal year 2019? For how many competitive grant programs 
does the Department plan to include an evidence priority in fiscal year 
2020? Additionally, please describe efforts the Department has 
undertaken to build the internal capacity to support program staff in 
the use of evidence in formula grant programs. How will the Department 
measure the growth this capacity and expected improved targeting of 
resources to activities aligned with evidence of effectiveness? What is 
the Department's plan for continuing to build this capacity in the 
coming year?
    Answer. In fiscal year 2019, 8 competitions included an evidence 
priority, and approximately 40 additional competitions required or 
encouraged applicants to provide evidence that meets the promising 
evidence, evidence-based, or demonstrates a rationale standards. The 
Department will be able to share information on the number of 
competitive grant programs using an evidence priority for fiscal year 
2020 competitions when all notices have been published.
    The Department has undertaken a number of efforts to provide 
technical assistance on the use of evidence in its programs, including 
formula grant programs. In 2019, it created the Evidence Leadership 
Group (ELG), an agency-wide group co-chaired by the Office of Planning, 
Evaluation, and Policy Development and the Institute of Education 
Sciences (IES). The ELG includes representation from all grant-making 
offices and other key offices. The purpose of the ELG is to promote 
cross-office collaboration and capacity-building for staff who work on 
formula and competitive grant programs.
    In the fall, the ELG organized a half-day ``Evidence Summit,'' an 
opportunity for Department employees to learn about key evidence topics 
from experts at the Department and the Office of Management and Budget 
(OMB) and to hear from grantees about their experiences in implementing 
evidence-based projects and rigorous program evaluations. The 
Department solicited feedback from staff who attended and are 
identifying existing resources that can be shared as well as needs for 
new resources. In addition, it is developing the capacity assessment 
required under the Foundations for Evidence-Based Policymaking Act and 
will include components designed to understand the needs of staff who 
implement formula and competitive grant programs. Once the Department 
has a baseline from that assessment, it will consider repeating it to 
determine growth in its collective capacity. It is also examining 
monitoring and technical assistance activities to ensure that it is 
well-positioned to support efforts to more effectively build and use 
evidence, including in formula grant programs.
   congressional directive on professional development vouchers and 
     statutory eligibility under education innovation and research
    Question. House Report 116-62 accompanying H.R. 2740 rejected the 
proposal to fund professional development vouchers for teachers and 
directed no funds to be used for this purpose. In responding to this 
directive, the Department indicated it intends to use a portion of 
fiscal year 2020 funds available for Education Innovation and Research 
for projects that provide professional development vouchers. Why has 
the Department chosen to ignore this directive? Please identify the 
prior research that could make an applicant eligible for a grant under 
the terms of subpart 1, part F of title IV of the Elementary and 
Secondary Education Act. How will the Department ensure that funds 
awarded for professional development vouchers only supports activities 
that meet statutory requirements, including the statutory requirements 
for professional development found in section 8101(42)?
    Answer. The Administration's fiscal year budget 2020 request 
proposed using a portion of Education Innovation and Research (EIR) 
funds for projects that provide teachers with stipends in order to 
select their own professional development activities, and neither the 
final appropriations bill that was enacted into law nor the 
accompanying Statement of the Managers restricted the Department from 
implementing these projects. Allowing teachers to pick their own 
professional development is an innovative approach to improving teacher 
quality, and the EIR program is well-suited for trying out these 
projects, as one of the purposes of the program is to develop and test 
the effectiveness of innovative approaches to improving instructional 
practice and student outcomes. Since the program explicitly supports 
innovation, the Department believes it is not necessary to limit these 
projects to the definition of professional development in the 
Elementary and Secondary Education Act (ESEA). The Department also 
notes that, as documented in the Congressional Justification for Title 
II-A, the primary Federal investment in teacher professional 
development, there is virtually no evidence that current professional 
development practices, including those described in the ESEA 
definition, are effective in improving student outcomes.
    school safety and emergency management department staffing and 
                               resources
    Question. The President's Budget states that the ``consolidation of 
most [Elementary and Secondary Education Act] programs into a single 
formula grant would allow the Department to significantly reduce 
staffing and administrative costs over time.'' Under this proposal, 
would the Department look to eliminate positions at the Department for 
school safety and emergency management expert staff? Since 2017, has 
the Department reduced staffing levels of school safety and emergency 
management experts? Please provide a list of all resources coordinated 
by the Department and made available to schools to improve school 
emergency management and readiness.
    Answer. The Department has not reduced staffing levels of school 
safety and emergency management experts since 2017.
    A list of all resources coordinated by the Department and made 
available to schools to improve school emergency management and 
readiness is included as an attachment for reference.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      parameters for evaluation of fsa as a separate organization
    Question. The President's Budget proposes an evaluation of Federal 
Student Aid (FSA) as a separate organization with reformed governance. 
Please describe the funding mechanism and amount, timeline, evaluation 
questions and how the borrower would be at the center of this 
evaluation.
    Answer. The Department welcomes a dialogue with House and Senate 
stakeholders and indeed believes such conversation is necessary before 
addressing questions of funding mechanisms and amounts, timelines, and 
evaluations. The Office of Federal Student Aid, regardless of whether 
it is embedded within the Department or operates separately, would 
continue to place borrowers at the forefront of its mission.
    Today, FSA manages the servicing of one of the largest consumer 
loan portfolios in the world. In addition, FSA provides oversight for 
more than 6,000 institutions of higher education that participate in 
the Title IV programs; develops and implements the Free Application for 
Student Aid (FAFSA) process; and secures the data of the over 40 
million Americans with Federal student loans. Recognizing the 
significant growth in the scope and complexity of FSA's 
responsibilities since its establishment as a performance-based 
organization more than 20 years ago, the President's Budget proposes 
the evaluation of FSA as a separate organization with reformed 
governance. An updated governance model could significantly increase 
FSA's ability to serve students and taxpayers by improving its 
management, oversight, and administration of the Federal student aid 
program.
              borrower defense final rule and it expenses
    Question. The final rule on borrower defense to repayment claims 
states: ``The Federal government would incur costs to update its IT 
systems to implement the changes.'' What is the total cost of these 
changes, separately provided by fiscal year and major activity? What 
amount of these costs is covered by the discretionary appropriation for 
Student Aid Administration?
    Answer. IT costs associated with implementing the 2019 Borrower 
Defense rule are relatively minor and entail updates to eZ-Audit, the 
Department's system for calculating financial responsibility.
    Two changes designated by the Secretary for early implementation 
are in progress. Both were funded out of the fiscal year 2019 
appropriation for Student Aid Administration, with a total cost of 
$103,048.58. These include:
  --Updates for Accounting Standards changes, including those 
        accounting standards changes incorporated by reference in the 
        2019 Borrower Defense rules: $47,402.35
  --Borrower Defense new Supplemental Schedule Reporting requirements: 
        $55,646.23
    Please note that as of May 11, 2020, these changes have not been 
implemented. Deployment will take place upon receiving OMB approval, 
which is expected in early June.
    The Department is currently recompeting the eZ-Audit contract. 
Thus, it has not developed cost estimates or finalized an estimated 
deployment date for a third change associated with the 2019 Borrower 
Defense Rule. This change, enhancements to implement the updated 
financial responsibility triggering event reporting requirements, will 
become effective on July 1, 2020.
outreach efforts for students denied tepslf for failure to first apply 
                            for regular pslf
    Question. According to last year's Government Accountability Office 
report, of the 53,523 requests for Temporary Expanded Public Service 
Loan Forgiveness (TEPSLF) examined at the time of the report, about 
38,000 were ineligible for consideration and were therefore denied 
because the borrower had not submitted a PSLF application, according to 
data from the TEPSLF loan servicer. Has Education directed the servicer 
to reach out to these and all borrowers who've been denied TEPSLF 
because of the administrative barrier created by the Department's 
previous policy requiring borrowers first to apply for and be denied 
PSLF and assist them in applying for TEPSLF? If not, why not? How does 
the Department plan to help these borrowers obtain the assistance under 
TEPSLF Congress provided?
    Answer. The Department's Public Service Loan Forgiveness (PSLF) 
servicer sends all borrowers who are deemed ineligible for TEPSLF 
because they did not first apply for PSLF a notice that explains why 
they are ineligible and that they must submit a PSLF application before 
reapplying for TEPSLF. FSA is currently working to integrate the TEPSLF 
request into the PSLF application. This will eliminate the need for 
borrowers to complete the PSLF application and submit a separate email 
for consideration for TEPSLF. The Department anticipates that the 
revised form will be available to borrowers by the end of calendar year 
2020.
    proposed reduction to child care access means parents in school
    Question. The President's Budget proposes to reduce the Child Care 
Access Means Parents in School program from $53 million in fiscal year 
2020 to $15.1 million, a reduction of $37.9 million. If enacted, 
current grantees would only receive a portion of continuation awards. 
By what amount would current grantees be reduced under this proposal? 
How many student-parents would lose access to child care services under 
these reduced grant amounts as compared to current grant awards?
    Answer. The Administration is a strong supporter of expanding child 
care services, particularly for underserved populations, which is why 
the President's 2021 request included a one-time $1 billion mandatory 
investment in competitive grants to States to increase child care 
services for underserved populations and stimulate employer investment 
in child care. We think these broader investments in child care make 
more sense than increasing funding for narrowly focused campus-based 
childcare services.
    In the event the appropriation for the Child Care Access Means 
Parents in School program is reduced, the Department would 
proportionally reduce each grantees' continuation award. At this time, 
it is not possible to determine how many student-parents this would 
affect because the Department has not yet completed the 2020 
competition for new awards, which could address this concern by 
frontloading grant awards to fully fund grantees through the life of 
their project periods. In addition, student-parents may have access to 
childcare through other sources in future years, such as programs 
supported through the proposed investment of $1 billion.
              department processing of civil rights claims
    Question. During the hearing, Secretary DeVos touted the improved 
rate of civil rights claims processing in recent years. However, 
vigorous enforcement of civil rights laws means timely processing of 
complaints and thorough investigations that can uncover broader campus-
wide Title IX issues that will not show up in a speedy investigation 
focused narrowly on one complaint. Is the Department confident that 
faster investigations concluded over the past 3 years have not ignored 
wider, campus-wide Title IX violations? If so, please describe and 
document the policies and procedures that support this position. For 
the past 6 years, please also provide for each year:
    a.  The number and percentage of cases for which an insufficient 
        evidence determination was made;
    b.  The number and percentage of cases for which a noncompliance 
        determination was made;
    c.  The number and percentage of cases with resolutions agreements;
    d.  The number and percentage of cases with resolution agreements 
        that required a revision of policies or the hiring of experts 
        or consultants; and
    e.  The number of compliance reviews and directed investigations by 
        jurisdiction and topic.
    Answer. The Chart included below provides information responsive to 
questions a, b, and c.

 
----------------------------------------------------------------------------------------------------------------
                                                        a. Insufficient
                                    Total  Resolved        evidence        b. Noncompliance      c. Resolution
                                                         determination       determination        agreements
----------------------------------------------------------------------------------------------------------------
2019............................               2,094            186/8.9%             15/0.7%             87/4.2%
                                 -------------------------------------------------------------------------------
2018............................              4,016*            283/7.0%             63/1.6%            230/5.7%
                                             (2,306)         (283/12.3%)           (63/2.7%)         (230/10.0%)
                                 -------------------------------------------------------------------------------
2017............................              9,311*            239/2.6%             71/0.8%            170/1.8%
                                             (1,749)         (239/13.7%)           (71/4.1%)          (170/9.7%)
                                 -------------------------------------------------------------------------------
2016............................               1,437            130/9.0%             46/3.2%             93/6.5%
                                 -------------------------------------------------------------------------------
2015............................               2,743            170/6.2%             52/1.9%            109/4.0%
                                 -------------------------------------------------------------------------------
2014............................               2,873            152/5.3%             31/1.1%           115/4.0%
----------------------------------------------------------------------------------------------------------------
* 7,562 nearly identical complaints were filed by a single individual between August 2016 and April 2017. Of
  these, 7,560 complaints were dismissed and 2 were administratively closed during fiscal years 2017 and 2018.
  The ``Total Resolved'' numbers provided for fiscal years 2017 and 2018 include these dismissals. The numbers
  provided in parentheses are what the fiscal year ``Total Resolved'' numbers would be if we excluded these
  dismissals. Of the 7,560 dismissals over the two-year period, 6,840 allegations were dismissed because they
  lacked sufficient detail to infer discrimination, 36 were dismissed for failure to state a violation, 915 were
  dismissed because the allegation was speculative, conclusory, or incoherent.

    d. Provisions included in OCR's resolution agreements are tied to 
the specific findings made in a given case. Under nearly every 
resolution agreement, a recipient is required to revise one or more of 
its policies, such as adjusting its internal procedures or altering 
reporting structures. While it may be appropriate for a resolution 
agreement to sometimes require the use of experts or consultants to aid 
recipients in implementing the specific policy changes, OCR does not 
track the number or percentage of resolution agreements that impose 
such requirements.
    e. The charts included below are responsive to this question.

                    COMPLIANCE REVIEWS OVER THE LAST SIX (6) YEARS BY JURISDICTIONAL STATUTE
----------------------------------------------------------------------------------------------------------------
                                                         Title VI             Title IX        Section 504/Title
                                                  ------------------------------------------          II
                                                                                            --------------------
                                                   Initiated  Resolved  Initiated  Resolved  Initiated  Resolved
----------------------------------------------------------------------------------------------------------------
2019.............................................         0          1         0          1        24          2
2018.............................................         0         19         0         11         0          6
2017.............................................         0         14         0         11         2         11
2016.............................................         7          2         4          4         3          1
2015.............................................         8         11         7          3         7          6
2014.............................................        20         14        12          6        11          5
----------------------------------------------------------------------------------------------------------------


                  DIRECTED INVESTIGATIONS OVER THE LAST SIX (6) YEARS BY JURISDICTIONAL STATUTE
----------------------------------------------------------------------------------------------------------------
                                                         Title VI             Title IX        Section 504/Title
                                                  ------------------------------------------          II
                                                                                            --------------------
                                                   Initiated  Resolved  Initiated  Resolved  Initiated  Resolved
----------------------------------------------------------------------------------------------------------------
2019.............................................         0          0         0          1       674         35
2018.............................................         0          0         3          1         0          0
2017.............................................         0          0         0          1         0          0
2016.............................................         0          0         0          0         0          0
2015.............................................         0          0         0          0         0          0
2014.............................................         0          0         1          0         1          4
----------------------------------------------------------------------------------------------------------------

             civil rights data collection data eliminations
    Question. The Department has proposed to limit the data collected 
under the Civil Rights Data Collection (CRDC) by eliminating key 
questions related to teaching experience and attendance, school 
finance, and children's access to early childhood, preschool, and 
kindergarten programs. The loss of these data would negatively impact 
the availability of important information to the public who uses these 
data for a variety of purposes, including effectively targeting 
resources, closing gaps in educational opportunities, and informing 
school improvement efforts. Given the importance of these data for 
shedding light on educational inequities, as well as supporting States 
in complying with reporting requirements under the Every Student 
Succeeds Act, why would the Department make it harder for advocates and 
policymakers to have access to this information?
    Answer. The Department weighed several factors in proposing to 
retire any elements from the CRDC: whether their removal improves 
efficiency for collecting information; whether they are not necessary 
to inform current civil rights enforcement; whether they are considered 
to be of pressing concern; and whether the data can be obtained from 
other Departmental data collections. The Department also collected 
input from internal sources, such as Departmental program offices, 
stakeholders, and from external sources, through the public comment 
process. For example, in addition to seeking public input on the 
proposed changes, the Department included specific questions for public 
feedback regarding both the substance and burden of the CRDC. The 
Department asked whether the Department's burden estimation is 
accurate; how to enhance the quality, utility, and clarity of the 
information collected; whether school districts currently collect data 
about harassment or bullying on the basis of perceived religion; and 
whether school districts collect data about sexual assault in a way to 
distinguish student offenders from school staff offenders.
    It is important for the Department to deregulate where possible so 
that limited education funds may be directed to more effectively 
advance students' education, to reduce the reporting burden on LEAs, 
and to improve the quality of the data submitted for the CRDC. In an 
effort to eliminate unnecessary burdens, the Department closely 
examined existing data elements to identify ways to reduce the CRDC's 
burden on LEA data collectors and reporters while maintaining a useful 
dataset for the ongoing enforcement of civil rights.
   use of elementary and secondary education act funding for firearms
    Question. As you know, I am strongly opposed to the Department's 
decision to allow States and school districts to purchase firearms or 
firearms training for teachers and other school staff with Federal 
Elementary and Secondary Education Act funding because it runs counter 
to the intent of the bipartisan Every Student Succeeds Act and will 
make our schools more dangerous and our students less safe. Has the 
Department of Education allowed any State agency, local educational 
agency, or school to use Federal funds to pay for arming teachers or 
staff or for firearm training? Will you commit to informing Congress 
about the evidence base you use to evaluate the effectiveness of such 
programs?
    Answer. The Department is not aware of any State educational 
agency, local educational agency, or school using Federal funds to pay 
for arming teachers and staff or for firearm training. To better 
understand how States and districts are using Title IV-A funds, the 
Department released a study on the uses of Title IV-A funds in February 
2020. ``Student Support and Academic Enrichment Grants: A first Look at 
Activities Supported Under Title IV, Part A'' is available on the 
Department's website at: https://www2.ed.gov/rschstat/eval/esea/title-
iv-first-look-2020.pdf. The Department is also currently examining 
programs and activities that districts and schools are implementing in 
more detail. A report is expected to be published in 2021.
 data collection and specific uses of funds under student support and 
                          academic enrichment
    Question. Given that the Student Support and Academic Enrichment 
(SSAE) grant program is currently in its fourth year of implementation, 
please describe the Department's efforts to collect data about specific 
uses of funds at the district level. In how many States are all LEAs 
eligible to receive the minimum $10,000 specified in ESEA's Title IV-A? 
What kind of technical assistance is the Department providing to States 
and school districts to support the uses of SSAE funding to support 
safe and healthy students, well-rounded education, and the effective 
use of education technology? Please provide information detailing the 
amount of funds set-side for technical assistance and capacity building 
in fiscal year 2018, fiscal year 2019, and fiscal year 2020, and how 
such funding was spent or is planned to be spent, including information 
regarding the number of awards and size of each award. Additionally, 
please provide the number of relevant Department staff involved in 
implementing SSAE for fiscal year 2018, fiscal year 2019, and fiscal 
year 2020.
    Answer. Information on the Department's efforts to collect data on 
the use of Student Support and Academic Enrichment Grants funds--
including through a ``first-look'' study (published in February and 
available at https://www2.ed.gov/rschstat/eval/esea/title-iv-first-
look-2020.pdf), the Consolidated State Performance Reports, and a 
formal program implementation study--are available on pp. D-68-69 of 
the fiscal year 2021 Congressional budget justifications.
    Local educational agency (LEA) formula allocations under Student 
Support and Academic Enrichment Grants are based on LEA shares of Title 
I, Part A funds for the prior year. Using Department-determined Title 
I, Part A LEA allocations (i.e., allocations that do not include 
adjustments made by States to reflect, for instance, the existence of 
charter school LEAs), the Department estimates that current program 
funding levels are sufficient to enable all States to provide each LEA 
receiving Title I, Part A funds in the prior year an allocation under 
Student Support and Academic Enrichment Grants that is at least the 
statutory minimum allocation of $10,000.
    The Department is required by statute to reserve 2 percent of 
Student Support and Academic Enrichment Grants funds for technical 
assistance and capacity building. Detail on the Department's use of 
funds reserved for this purpose can be found on pp. D-69-71 of the 
Congressional budget justifications. The Department will provide 
additional information on the use of these funds, including a complete 
accounting of fiscal year 2019 funds (to be used in fiscal year 2020), 
as part of Congressionally required briefings on new grant competitions 
supported by the 2 percent reservation.
    The Student Support and Academic Enrichment Grants program team is 
comprised of seven members and supported by numerous staff from other 
offices across the Department, including the Office of the General 
Counsel, the Office of Finance and Operations, the Institute of 
Education Sciences, and other offices within the Office of Elementary 
and Secondary Education.
    Finally, as just described, while the Department is collecting data 
on the use of funds under this program and investing resources in 
providing technical assistance and other support to grantees, the 
Department notes that the purpose of the program is to provide maximum 
flexibility to State and local educators to determine how best to use 
funds to meet the needs of their students. In this context, there are 
significant constraints on the extent to which the Department can 
either collect meaningful use-of-funds data from, or provide a full 
complement of technical assistance related to, more than 15,000 local 
grantees and some three dozen broadly authorized activities.
        funding lapses by administrative appropriations account
    Question. For each administrative appropriations account, please 
provide the amount of funding lapsed for each account for each of the 
past six fiscal years.
    Answer. The table below shows the amount of funding lapsed by each 
administrative appropriation account for the past six fiscal years. 
Amounts shown for each account and fiscal year reflect lapses at the 
fund level and incorporate all reimbursable, multi-year, and no-year 
funds.

                               FUNDING LAPSES BY ADMINISTRATIVE APPROPRIATION FUND
                                              [Amounts in dollars]
----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal Year
               Fund                -----------------------------------------------------------------------------
                                        2014         2015         2016         2017         2018         2019
----------------------------------------------------------------------------------------------------------------
SAA--0202.........................     $318,503   $1,969,407     $211,929     $170,503     $463,043            0
PA--0800..........................      183,292      235,861      535,551      552,321      237,150     $346,514
OCR--0700.........................      123,185       61,279      308,361       43,098      111,853      116,719
OIG--1400.........................    1,827,613    1,441,851    1,604,343      389,587      502,768      291,128
*NAGB--1100.......................      199,483      212,480      146,303       12,044       21,315          996
*HBCU--1901.......................       85,755      110,351       99,432      102,142       97,354       21,071
*CHAFL--0241......................        1,906        9,595       14,423       15,853        5,045       15,543
    Total.........................   $2,739,737   $4,040,824   $2,920,342   $1,285,548   $1,438,528    $791,971
----------------------------------------------------------------------------------------------------------------
Acronyms: SAA = Student Aid Administration; PA = Program Administration; OCR = Office for Civil Rights; OIG =
  Office of Inspector General; NAGB = National Assessment Governing Board; HBCU = Historically Black College and
  University Capital Financing; CHAFL= College Housing and Facilities Loans.
* = Administrative portion only.

 seclusion and restraint, audits, and civil rights data collection data
    Question. You stated that seclusion and restraint is a ``high 
priority'' for you. Can you elaborate on how, as a high priority, you 
will continue to carry out your initiative to ensure that the CRDC is 
reliable? Additionally, you discussed the Department's audits of 
districts and schools as part of the initiative will help educate them 
about ``duties under the law.'' How will these audits lead to a 
reduction in seclusion and restraint and an increase in evidence-based 
practices? Will you commit to working with Congress to eliminate 
seclusion and reduce physical restraint in schools?
    Answer. In January of 2019, the Secretary announced a Department-
wide proactive initiative on the possible inappropriate use of 
restraint and seclusion in the Nation's schools. The initiative, a 
first of its kind, was a joint initiative between the Office for Civil 
Rights (OCR) and the Office of Special Education and Rehabilitative 
Services (OSERS). The initiative continues to be a priority for this 
Department, as its work to provide technical assistance on the use of 
restraint and seclusion is ongoing. The compliance reviews OCR is 
conducting across the country continue to be a key focus of this 
initiative and are ongoing in each of OCR's regional offices. Through 
the process of finalizing these investigations, OCR is working directly 
with recipients to provide technical assistance on the requirements of 
Federal law. Additionally, OCR's findings will continue to inform the 
provision of technical assistance in this area so that schools across 
the country can better understand how Federal law applies to the use of 
restraint and seclusion.
    Additionally, as a part of the initiative, OCR has undertaken 
robust efforts to address the appropriate reporting of restraint and 
seclusion data submitted to OCR through the Civil Rights Data 
Collection (CRDC). These efforts are ongoing. In August 2019, OCR sent 
a letter to all local education agencies to clarify the appropriate 
reporting of restraint and seclusion CRDC data. As a result, OCR has 
engaged with more than 350 school districts to ensure that restraint 
and seclusion data is accurately and correctly reported to OCR. OCR has 
also conducted Data Quality Reviews on the CRDC data submitted by 
school districts. OCR has received corrected restraint and seclusion 
data from dozens of school districts. OCR continues to work with 
districts to improve restraint and seclusion data submitted as a part 
of the CRDC, including providing directed technical assistance on how 
to report restraint and seclusion data. For more information about the 
steps OCR has taken to improve the CRDC with respect to the restraint 
and seclusion data, please see also OCR's December 18, 2019 response to 
the Government Accountability Office (GAO).
    Even one child harmed by the use of restraint and seclusion is too 
many, and the Department is committed to this initiative and working 
with school districts, within the scope of Federal law, to ensure that 
every child has an opportunity to learn in an environment free from 
harm.
foster care resource clearinghouse and efforts to promote stability for 
                          youth in foster care
    Question. Last year the Government Accountability Office report on 
the educational stability for youth in foster care recommended the 
Department develop an online clearinghouse of resources, such as sample 
documents from States and localities, past webinar recordings, and 
links to other relevant resources. The Department concurred with this 
recommendation and said they would create a new web page to house all 
foster-care related information and launch a virtual portal through 
which SEA foster care points of contact may collaborate and share 
resources. What is the status of this online clearinghouse and on what 
date can the public expect to be able to access the web page? 
Additionally, what other measures is the department putting in place to 
ensure the educational stability for youth in foster care? Please 
describe the specific actions taken to-date and planned activities to 
support youth in foster care.
    Answer. As the Department's response to the Government 
Accountability Office report indicated, the development of a new 
webpage that would contain foster care-related information is part of 
the overall redesign and redevelopment of the website for the Office of 
Elementary and Secondary Education. That work was originally targeted 
for completion in the fall of 2019, but it has been delayed and is 
expected to be finished by the end of fiscal year 2020. The Department 
is working with the National Comprehensive Center to develop and host 
an online portal that will enable State foster care points of contact 
to collaborate virtually and expects that the portal will be launched 
this summer.
    One way the Department is supporting youth in foster care is by 
monitoring specifically how States are implementing requirements 
related to the educational stability of students in foster care. This 
year the Department is piloting a new protocol for monitoring this 
implementation. In addition, the Department is funding a community of 
practice for State foster care points of contact and hosted five 90-
minute virtual learning sessions between September 2019 and February 
2020. Between learning sessions, community of practice participants 
engaged in asynchronous online learning opportunities that allowed them 
to explore various topics related to the educational stability of 
students in foster care, including effective collaboration with child 
welfare agencies, data-sharing to ensure the academic achievement of 
students in foster care, and working with school districts (through 
training and sub-recipient monitoring) in supporting the educational 
stability of students in foster care.
    educational protections and services for children experiencing 
                              homelessness
    Question. The Every Student Succeeds Act (ESSA) strengthened the 
McKinney-Vento program and provided critical educational protections 
and services for students experiencing homelessness under the Education 
for Homeless Children and Youth (EHCY) program. This strengthening 
included accountability and report card provisions related to children 
and youth experiencing homelessness. In the fiscal year 2020 
appropriations law, you were asked to brief Congress on the resources 
being devoted to monitoring compliance with EHCY. This briefing is 
overdue. When do you plan to provide this briefing and what are you 
doing currently to ensure that SEAs and LEAs are supported in achieving 
and maintaining compliance with the EHCY and Title I Part A 
homelessness-related provisions? Please describe the specific actions 
taken to-date to monitor and support compliance with EHCY and 
homelessness-related provisions.
    Answer. The Department briefed Congress on its implementation of 
the EHCY program on April 7, 2020. The Department is continuing to 
provide oversight and support to States as they implement the McKinney-
Vento Education for Homeless Children and Youth (EHCY) grant program 
and related Title I, Part A homeless requirements. Below is a summary 
of related activities underway:
  --The Department will be incorporating the EHCY program into its 
        overall consolidated monitoring program in 2021. The Department 
        has been phasing in consolidated monitoring over the past 
        several years. At this point, it includes all of Title I, Part 
        A; Title II, Part A; Title III, Part A; and the Rural Low-
        Income Schools programs. In 2020, it is phasing in other 
        programs, including 21st Century Community Learning Centers and 
        Title I, Part C. It also includes some cross-cutting fiscal 
        questions (such as internal controls, risk assessment) that 
        will focus on most K-12 formula programs, including EHCY. This 
        year, the Department is revising the EHCY monitoring protocols 
        to pilot them next year.
  --The Title I protocol for consolidated monitoring includes State and 
        local report cards, including review to ensure report cards 
        include student academic achievement and graduation rates for 
        homeless students.
  --A primary method of providing support and assistance for States 
        around homeless issues is the national technical assistance 
        center-the National Center for Homeless Education (NCHE). NCHE 
        supports practitioners in the implementation of the EHCY 
        program. In October 2019, OESE re-funded NCHE for an additional 
        5 years. Working in collaboration with NCHE, each year, the 
        Department provides the following technical assistance to SEAs 
        and LEAs:
    --Host an annual, multi-day conference for State coordinators of 
            EHCY programs (this occurred in February 2020);
    --Develop and disseminate public awareness materials to provide 
            information to families, parents, and youth experiencing 
            homelessness;
    --Host regular topical webinars for State coordinators and local 
            liaisons;
    --Provide responsive technical assistance (both in-person and 
            virtual) to State coordinators;
    --Publish fact sheets, reports, and issues briefs on various 
            topics; and
    --Support State coordinators in the analysis of McKinney-Vento EHCY 
            data. For example, NCHE provides maps that share the number 
            and proportion of homeless students across the State so 
            that the State may identify areas that are under-
            identifying homeless students.
         appropriations directed guidance on ability to benefit
    Question. On Tuesday, March 3, the Department communicated the 
following message to the Committee regarding ability-to-benefit (ATB): 
``Despite the requirements contained Executive Order 13891, ``Promoting 
the Rule of Law Through Improved Agency Guidance Documents,'' the 
Department acknowledges the need for greater clarity and is actively 
collecting feedback from those at institutions who wish to implement 
ability-to-benefit programs. Issuing guidance is now governed by the 
requirements laid out in Executive Order 13891, ``Promoting the Rule of 
Law Through Improved Agency Guidance Documents.'' As a result of those 
increased requirements, on February 11, 2020, the Department conducted 
a webinar focused on providing more information about the Approved 
State Process alternative at 34 CFR Sec. 668.156, which clearly 
explained the definition of an eligible career pathway program and 
contained answers to questions about student eligibility. The 
Department will be posting the webinar as soon as the transcript is 
completed and ADA compliant. We will send the webinar link as soon as 
it is available.'' Is the Department declining to issue the guidance 
about ATB directed in the fiscal year 2020 appropriations bill?
    Answer. The Department views the webinar as satisfying the ability-
to-benefit (ATB) guidance that the fiscal year 2020 appropriations bill 
directed the Department to provide. The PowerPoint slides from the 
Department's webinar can be accessed at: https://ifap.ed.gov/sites/
default/files/attachments/2020-03/ATBState
ProcessWebinar021120_0.pdf.
  accrediting council for independent colleges and schools oversight 
                                efforts
    Question. In November 2018, Secretary DeVos issued a determination 
that required the Accrediting Council for Independent Colleges and 
Schools (ACICS) to submit a compliance and monitoring report to the 
Department within 1 year, by November 2019, addressing several issues 
(through a compliance report, competency of representatives and 
conflicts of interest; and through monitoring, administrative and 
financial resources, student achievement standards, recruiting and 
admissions practices, and monitoring).
    Around the same time those reports were due to the Department in 
November 2019, staff in the agency's Accreditation Group issued a 
letter to ACICS adding areas of compliance reporting based on concerns 
the agency was non-compliant in those areas: adequate staff and 
financial resources, effective distance-education standards, on-site 
reviews, independent analyses of institutions' compliance with agency 
standards, and reviews based on other accreditors' adverse actions. 
Responses to the Department's concerns were due from ACICS in February 
2020.
    On February 24th, 2020, the Accreditation Group issued a new letter 
to ACICS identifying additional concerns about compliance following the 
publication of a USA Today article reporting on an allegedly fraudulent 
college in South Dakota, Reagan National University. Three days later, 
you testified before the House Appropriations Committee that you were 
personally concerned over the reporting and confirmed that the 
Department had opened an additional investigation.
    What determinations has the Department made regarding ACICS' 
compliance on each of the areas highlighted for review in the November 
2018 and November 2019 letters to the agency? Have any of those areas 
been identified for continued monitoring, reporting, or oversight? If 
not, when does the Department expect to make a decision? Will the 
Department make such decisions public and provide this Committee with 
that decision?
    Answer. As directed in the Secretary's decision on recognition in 
2018, ACICS submitted a compliance report on December 19, 2019, and a 
monitoring report on December 20, 2019. The reports will be reviewed 
within the internal timelines set for presentation at the July 2020 
National Advisory Committee on Institutional Quality and Integrity 
(NACIQI) meeting.
    The draft staff analysis is an incomplete document, as it typically 
highlights areas where staff need additional information, which the 
agency is permitted to provide. It is the final staff analysis that 
will be provided to ACICS, NACIQI, and the public.
    On June 19, 2019, the Department began a review of the financial 
health of ACICS. Upon the completion of that review, if the 
Accreditation Group (AG) finds the agency to be out of compliance, it 
will present the findings of its review to NACIQI, per Department 
regulations.
    On February 24, 2020, the AG initiated an inquiry, under 34 C.F.R. 
602.33, into ACICS' review of Reagan National University. The 
Department received a response from the agency on March 27, 2020 and is 
in the process of reviewing. If staff believe the agency has failed to 
demonstrate compliance with accreditation regulations, the AG will 
present their analysis to NACIQI, per Department regulations.
    Question. On March 4, 2020, the Department requested public comment 
on ACICS' November 2018 compliance report. How will the Department 
decide on the additional issues that have arisen regarding ACICS 
compliance? Will these be considered in the current compliance report? 
Will NACIQI receive all compliance and monitoring reports directly, and 
will those reports also be published online and be provided to this 
Committee? If so, when?
    Answer. Please see the response provided in the question above. The 
Department is not permitted to expand the scope of an existing 
compliance report by adding new elements to it. If additional reviews 
result in findings of non-compliance, the AG will present their 
findings to NACIQI.
    Question. Please provide all correspondence and documentation 
shared between the Department and ACICS regarding Reagan National 
University, including any communication requesting additional 
compliance, monitoring, or reporting requirements.
    Answer. Please see the attached letter sent to ACICS on February 
24, 2020.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          new accreditation regulations and compliance reviews
    Question. The Department's new accreditation regulations are 
scheduled to take effect on July 1, 2020. However, I understand that 
agencies already involved in the process of recognition reviews will 
not be subject to the new regulations effective that date. Please 
provide a timeline for each institutional accrediting agency, 
including:
   i   the date its current period of recognition expires;
   ii  when the Department expects to begin the review process for each 
        agency;
   iii  when the Department expects each agency to come before NACIQI 
        for review (month and year); and
   iv  when the Department expects the agency to be fully compliant 
        with the regulations.
    Answer. In response to parts i-iii, please see the table below. (S) 
indicates the SUMMER meeting and (W) indicates the WINTER meeting of 
NACIQI.

----------------------------------------------------------------------------------------------------------------
                                                                                                  Petition for
                                                                                                recognition due
                                                           Date of SDO         Recognition       date  (Review
    Agency/NACIQI Date  (NACIQI dates may change)     Decision/Recognition   Expiration Date    process  begins
                                                              Period                              2yrs before
                                                                                                  expiration)
----------------------------------------------------------------------------------------------------------------
ACCSC/S2021.........................................         10-28-16/5yrs         10-28-2021         10-28-2019
ACCET/S2024.........................................        11-8-2019/5yrs          11-8-2024          11-8-2022
COE/S2021...........................................         10-28-16/5yrs         10-28-2021         10-28-2019
DEAC/S2022..........................................        9-20-2017/5yrs          9-20-2022          9-20-2020
HLC/W2023...........................................         5-9-2018/5yrs           5-9-2023           5-9-2021
MSCHE/W2023.........................................         5-9-2018/5yrs           5-9-2023           5-9-2021
MSA-CSS/S2022.......................................        11-8-2019/3yrs          11-8-2022          11-8-2020
NEACIHE/W2023.......................................         5-9-2018/5yrs           5-9-2023           5-9-2021
NYBRE/W2023.........................................         5-9-2018/5yrs           5-9-2023           5-9-2021
NWCCU/S2023.........................................        8-22-2018/5yrs          8-22-2023          8-22-2021
SACSCOC/S2022.......................................        11-8-2019/3yrs          11-8-2024          11-8-2022
WASC-JR/S2024.......................................        11-8-2019/5yrs          11-8-2024          11-8-2022
WASC-SR/W2023.......................................         5-9-2018/5yrs           5-9-2023           5-9-2021
NASAD/S2023.........................................        8-22-2018/5yrs          8-22-2023          8-22-2021
NASD/S2024..........................................        11-8-2019/5yrs          11-8-2024          11-8-2022
NASM/S2024..........................................        11-8-2019/5yrs          11-8-2024          11-8-2022
NAST/S2024..........................................        11-8-2019/5yrs          11-8-2024          11-8-2022
MACTE/W2021.........................................         5-9-2018/3yrs           5-9-2021           5-9-2019
ABA/S2021...........................................        8-22-2018/3yrs          8-22-2021          8-22-2019
ABHE/S2022..........................................        9-20-2017/5yrs          9-20-2022          9-20-2020
AARTS/S2023.........................................        8-22-2018/5yrs          8-22-2023          8-22-2021
AIJS/W2021..........................................        3-10-2016/5yrs          3-10-2021          3-10-2019
ATS/S2021...........................................        8-22-2018/3yrs          8-22-2021          8-22-2019
TRACS/S2021.........................................        8-22-2018/3yrs          8-22-2021          8-22-2019
ABFSE/W2021.........................................         5-9-2018/3yrs           5-9-2021           5-9-2019
COMTA/W2021.........................................        3-10-2016/5yrs          3-10-2021          3-10-2019
NACCAS/W2021........................................        3-10-2016/5yrs          3-10-2021          3-10-2019
ACEND/W2023.........................................        8-22-2018/5yrs          8-22-2023          8-22-2021
ACAOM/S2021.........................................        9-22-2016/5yrs          9-22-2021          9-22-2019
ACEN/W2023..........................................         5-9-2018/5yrs           5-9-2023           5-9-2021
ABHES/S2021.........................................        9-22-2016/5yrs          9-22-2021          9-22-2019
AOA-COCA/S2021......................................        8-23-2018/3yrs          8-23-2021          8-23-2019
APMA/W2022..........................................        5-25-2017/5yrs          5-25-2022          5-25-2020
COANAEP/S2023.......................................        8-22-2018/5yrs          8-22-2023          8-22-2021
CCE/W2022...........................................        11-8-2019/5yrs          11-8-2024          11-8-2022
JCERT/W2022.........................................        5-25-2017/5yrs          5-25-2022          5-25-2020
MEAC/W2021..........................................         5-9-2018/3yrs           5-9-2021           5-9-2019
ACICS/W2021.........................................                                  12-2021            12-2019
ODCTE/W2020.........................................  Pending SDO decision
NYBRVE/W2020........................................  Pending SDO decision
PRHRDC/W2020........................................  Pending SDO decision
PABCTE/S2020........................................    4/22/2018/deferred       Under review       Under review
----------------------------------------------------------------------------------------------------------------

Institutional (Title IV gatekeeper) accrediting agency title and 
        abbreviation shown in the table above
  --Accrediting Commission of Career Schools and Colleges (ACCSC)
  --Accrediting Council for Independent Colleges and Schools (ACICS)
  --Accrediting Council for Continuing Education and Training (ACCET)
  --Council on Occupational Education (COE)
  --Distance Education Accrediting Commission (DEAC)
  --Higher Learning Commission (HLC)
  --Middle States Commission on Higher Education (MSCHE)
  --Middle States Commission on Secondary Schools (MSA-CSS)
  --New England Commission of Higher Education (NEACIHE)
  --New York State Board of Regents, and the Commissioner of Education 
        (NYBRE)
  --Northwest Commission on Colleges and Universities (NWCCU)
  --Southern Association of Colleges and Schools, Commission on 
        Colleges (SACSCOC)
  --WASC Accrediting Commission for Community and Junior Colleges 
        (WASC-JR)
  --WASC Senior Colleges and University Commission (WASC-SR)
  --National Association of Schools of Art and Design, Commission on 
        Accreditation (NASAD)
  --National Association of Schools of Dance, Commission on 
        Accreditation (NASD)
  --National Association of Schools of Music, Commission on 
        Accreditation (NASM)
  --National Association of Schools of Theatre, Commission on 
        Accreditation (NAST)
  --Montessori Accreditation Council for Teacher Education (MACTE)
  --American Bar Association, Council of the Section of Legal Education 
        and Admissions to the Bar (ABA)
  --Association for Biblical Higher Education, Commission on 
        Accreditation (ABHE)
  --Association of Advanced Rabbinical and Talmudic Schools, 
        Accreditation Commission (AARTS)
  --Association of Institutions of Jewish Studies (AIJS)
  --Commission on Accrediting of the Association of Theological Schools 
        (ATS)
  --Transnational Association of Christian Colleges and Schools, 
        Accreditation Commission (TRACS)
  --American Board of Funeral Service Education, Committee on 
        Accreditation (ABFSE)
  --Commission on Massage Therapy Accreditation (COMPTA)
  --National Accrediting Commission of Career Arts and Sciences, Inc. 
        (NACCAS)
  --Academy of Nutrition and Dietetics, Accreditation Council for 
        Education in Nutrition and Dietetics (ACEND)
  --Accreditation Commission for Acupuncture and Oriental Medicine 
        (ACAOM)
  --Accreditation Commission for Education in Nursing, Inc (ACEN)
  --Accrediting Bureau of Health Education Schools (ABHES)
  --American Osteopathic Association, Commission on Osteopathic College 
        Accreditation (AOA-COCA)
  --American Podiatric Medical Association, Council on Podiatric 
        Medical Education (APMA)
  --Council on Accreditation of Nurse Anesthesia Educational Programs 
        (COANAEP)
  --The Council on Chiropractic Education (CCE)
  --Joint Review Committee on Education in Radiologic Technology 
        (JCERT)
  --Midwifery Education Accreditation Council (MEAC)
State approval agency for postsecondary vocation education (Title IV 
        gatekeepers) shown in the table above
  --Oklahoma Board of Career and Technical Education (ODCTE)
  --New York State Board Of Regents, Public Postsecondary Vocational Ed 
        (NYBRVE)
  --Puerto Rico State Agency for the Approval of Public Postsecondary 
        Vocational, Technical Institutions and Programs (PRHRDC)
  --Pennsylvania State Board for Vocational Education, Bureau of Career 
        and Technical Education (PABCTE)
    In response to part iv: In general, the Department expects them to 
be compliant at their next recognition review after the new regulations 
become effective. However, the Department expects accrediting agencies 
to establish policy and standards to comply with the new regulations as 
soon as practically possible.
    Question. For agencies that are already in the process of review, 
and which will not be expected to be fully compliant with the 
regulations as of July 1, 2020, does the Department expect full 
compliance before their next recognition review? Will the Department 
require the agency to demonstrate compliance with the new requirements 
at any point outside of its recognition review?
    Answer. Accrediting agencies will need time to write and adopt new 
policies. The time required depends on an accrediting agency's internal 
process for changing or modifying policy. Changes or modifications to 
an accrediting agency's policy or standards could take 6 months to 1 
year, or more. However, the Department expects all agencies to be 
working towards compliance with the new regulations.
    The new regulations become effective on July 1, 2020. The 
Department has no plans for formal midterm reviews. However, Department 
staff will be in constant contact with their assigned accrediting 
agencies to advise and monitor policy changes.
    Question. For agencies that are already in the process of review, 
are there any areas of the new regulations with which the agencies must 
be compliant as of July 1, 2020 and/or be required to demonstrate 
compliance? Or will the timeline for rolling implementation apply for 
all aspects of the new regulations?
    Answer. While the new regulations go into effect on July 1, 2020, 
no agency will be reviewed under those regulations until July 1, 2021. 
Please see the table above for information about the timeline.
          hbcu capital financing advisory board outreach plan
    Question. The Consolidated Appropriations Act, 2018, 2019, and 2020 
directed the Department to create and execute an outreach plan to work 
with the Capital Financing Advisory Board, and with States, to improve 
outreach to States and help additional public HBCUs participate in the 
Capital Financing program. Please provide an update on the execution of 
that outreach plan, and please describe the results of each of the 
activities undertaken under that plan.
    Answer. The Department's outreach efforts over the last year 
included several activities:
  --The Department spoke with public and private Historically Black 
        College and University (HBCU) presidents and chancellors at the 
        White House Initiative on HBCUs.
  --The Department's HBCU Capital Financing Executive Director met with 
        public HBCU presidents and chancellors at the 2020 Thurgood 
        Marshall College Fund Fly-In Convening on February 26, 2020.
  --Rice Capital, the Designated Bonding Authority for the program, 
        will send newsletters to 101 HBCUs as well as higher education 
        authorities that have approvals over State funding in the month 
        of April.
    Further in person outreach activities have been postponed until 
further notice due to the COVID-19 pandemic.
 triggering events and repayment rate disclosures under 2016 borrower 
                          defense regulations
    Question. Please provide the following information regarding 
financial triggering events and repayment rate disclosures under the 
2016 borrower defense regulations:
    Has the Department recalculated any financial responsibility 
composite scores for institutions that have reported triggering events?
    Answer. Yes, the Department has recalculated some financial 
responsibility composite scores. It should also be noted that the 
Department received some triggering event notices from public 
institutions. Because public institutions are not subject to financial 
responsibility composite scoring, the Department did not reevaluate 
composite scores for these institutions. As noted in the response to 
sub-question ``g'', the Department received financial responsibility 
triggering events notices from 657 distinct institutions. Some 
institutions submitted more than one triggering event notice.
    Question. Have there been any instances when institutions have not 
reported the necessary triggering events? How does the Department plan 
to address instances when reporting is not conducted, and does the 
Department plan to announce any policy or procedure to address non-
reporting? What actions will the Department take to integrate financial 
responsibility triggering events, or the subsequent recalculation of 
the composite score, if institutions do not report the events to the 
Department?
    Answer. Yes, there has been an instance when the Department became 
aware that an institution did not report the necessary triggering 
event. When an institution fails to report information that it is 
required to report under the revised financial responsibility 
regulations, the Department will, as part of its oversight 
responsibilities, take action to bring the school back into compliance 
with those regulations, recalculate the composite score (as 
appropriate), and request a letter of credit, if needed. In addition, 
if a school fails to report a financial triggering event, the 
Department will determine whether any fine or other similar action is 
appropriate. The Department does not comment on deliberative, 
preliminary, or ongoing investigative work, including the enforcement 
of the Title IV regulations specific to this provision.
    Question. Are institutions able to submit alternative forms of 
surety, in place of a letter of credit, and does the Department plan to 
announce any policy or procedure for alternative surety? Have any 
institutions submitted alternative forms of surety to date?
    Answer. As of April 1, 2020, the Department has not announced 
whether institutions are able to submit alternative forms of surety in 
place of a letter of credit pursuant to the Department's financial 
responsibility regulation at 34 CFR 668.175(f)(2)(i). If the Department 
chooses to accept alternative forms of surety in place of a letter of 
credit, the Department would need to publish that decision in a Federal 
Register notice. The Department would provide the appropriate policy or 
procedure for alternative surety in an Electronic Announcement or 
another appropriate communication posted on the Information for 
Financial Aid Professional (IFAP) online portal.
    In a few cases, when an institution has not provided a letter of 
credit, the Department has entered into a set-aside agreement pursuant 
to the ``set-aside'' provisions included with the financial 
responsibility regulations at 34 CFR 668.175(h). With a set-aside 
agreement, the Department offsets the amount of Title IV funds the 
school is eligible to receive in a manner that ensures that, within a 
nine-month period, the total offset amount equals the total amount of 
financial protection that the institution would have otherwise 
provided. It should be noted that use of a set-aside agreement is not 
necessarily related to a financial responsibility triggering event 
notification. Additionally, the Department accepts cash deposits in 
place of a letter of credit on a case-by-case basis consistent with 
longstanding practice.
    Question. The Department stated earlier this year that it was in 
the final stages of selecting a vendor to conduct consumer testing and 
anticipated being able to conduct user testing for repayment rate 
disclosures and financial responsibility triggering events in the 
summer of 2019. Has that vendor and consumer testing commenced?
    Answer. Earlier this year the Department finalized new 
Institutional Accountability regulations, which go into effect on July 
1, 2020. The effort to identify a vendor to perform consumer testing 
was suspended since the results of that testing will not be relevant 
after July 1, 2020.
    Question. What is the Department's timeline to publish in the 
Federal Register the required trigger events and the format by which 
repayment rates must be disclosed?
    Answer. The Institutional Accountability regulations, which were 
finalized earlier this year, clearly describe the triggering events, 
thus eliminating the need to publish future triggers in the Federal 
Register. In addition, the Department will soon be releasing repayment 
rate data for all institutions using the College Scorecard. The 
Department is conducting consumer testing of the College Scorecard to 
determine how best to provide this information to students using the 
online tool.
    Question. Has the Department set aside any resources to pursue 
further investigation, enforcement action, or review of Program 
Participation Agreements when it is notified of triggering events such 
as borrower defense-related lawsuits and accrediting agency actions 
against an institution?
    Answer. It is Department policy to not comment on any deliberative, 
preliminary, or ongoing investigative work to enforce the Title IV 
regulations. The Department is in the process of adding resources to 
its Enforcement Unit to assist with investigations in general.
    Question. Please provide the name and associated OPEID of all 
institutions that have provided information regarding triggering events 
to the Department to date.
    Answer. As of March 26, 2020, the Department had received 
triggering event notices from 657 distinct institutions and OPEIDs. As 
noted in the response to the first sub-question under this subject, 
some institutions submitted more than one triggering event notice. An 
unduplicated list of the names and associated OPEIDs of the 657 
reporting institutions is enclosed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              machine learning and fafsa verification data
    Question. Since the Department began implementing a machine 
learning model to select students for verification, how many students 
have been selected for verification, compared to prior award years? If 
full award year information is not yet available, please provide 
comparable award-year-to-date information.
    Answer. Please find the requested information below. The machine 
learning model for targeted selection was first introduced with the 
2019-2020 cycle. Group V1 in the tables below represents applicants 
selected to verify financial information, the number in college, and 
the number in family listed on the FAFSA. Group V4 is selected for 
identity and high school completion verification. Group V5 combines the 
verification requirements of groups V1 and V4. Table 1 includes 
applicants from the beginning through the first March 27th of each 
cycle. It therefore represents just under the first 6 months of each 
cycle. Table 2 includes applicants from the beginning through the 
second March 27th of each cycle. It therefore represents just under the 
first 18 months of each cycle.

                                          TABLE 1: VERIFICATION SELECTION BY SELECTION GROUP THROUGH SIX MONTHS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                          Total Selected
                          Cycle                                 V1              V4              V5              for       % Selected for       Total
                                                                                                           Verification    Verification    Applications
--------------------------------------------------------------------------------------------------------------------------------------------------------
2020-21.................................................       1,990,950          98,166          22,887       2,112,003          22.08%       9,564,240
2019-20.................................................       2,070,014          98,415          24,786       2,193,215          22.18%       9,887,061
2018-19.................................................       2,956,191          80,196          37,117       3,073,504          29.92%      10,273,833
2017-18.................................................       2,430,829          27,004          95,119       2,552,952          25.03%      10,200,366
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                          TABLE 2: VERIFICATION SELECTION BY SELECTION GROUP THROUGH 18 MONTHS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                          Total Selected
                          Cycle                                 V1              V4              V5              for       % Selected for       Total
                                                                                                           Verification    Verification    Applications
--------------------------------------------------------------------------------------------------------------------------------------------------------
2019-20.................................................       3,919,770         361,282         102,940       4,383,992          24.83%      17,654,182
2018-19.................................................       5,146,039         293,396         117,135       5,556,570          30.62%      18,146,675
2017-18.................................................       5,554,426         110,491         330,671       5,995,588          32.29%      18,566,633
--------------------------------------------------------------------------------------------------------------------------------------------------------

          loan servicing contractor compliance with state law
    Question. In 2019, Congress included the following directive to the 
Department in the most recent appropriations law, which went into 
effect on January 1, 2020: ``Servicers shall be evaluated based on 
their ability to meet contract requirements (including an understanding 
of Federal and State law)...and history of compliance with applicable 
consumer protection laws.'' In the first weeks of the year, the Federal 
student loan contractor Pennsylvania Higher Education Assistance Agency 
(PHEAA) appears to have directly contradicted this instruction in court 
filings in New York State. In separate litigation brought by PHEAA 
against the State of Connecticut, the Department of Justice previously 
filed a Statement of Interest that also appears to contradict this 
instruction directly. In light of the new direction from Congress, 
which went into effect on January 1st of this year, can you describe 
the steps you have taken to clarify to the court that you expect your 
contractors to comply with State law?
    Answer. The Department requires its contractors, including Federal 
student loan servicers, to comply with all applicable and valid State 
laws. On March 12, 2018, the Department issued a Notice of 
Interpretation entitled Federal Preemption and State Regulation of the 
Department of Education's Federal Student Loan Programs and the Federal 
Student Loan Servicers, 83 Fed. Reg. 10619, explaining the Department's 
position with regard to the Federal preemption of State laws regulating 
the servicing of federally-held education loans by Federal student loan 
servicers. The Department continues to hold the position set forth in 
that Notice, and the cited Statement of Interest filed in PHEAA's 
lawsuit against the Department and Connecticut is based on the 
principles articulated in the Notice.
    The Department's position and practice is consistent with the 
language in the appropriations law. The Department does evaluate its 
servicers based on their ability to meet contract requirements 
(including an understanding of Federal and State law) and its 
compliance with applicable consumer protection laws. However, as 
reflected in the Notice and in court decisions before and after the 
publication of the Notice, see, e.g., Student Loan Servicing Alliance 
v. District of Columbia, 351 F.Supp.3d 26 (D.D.C. 2018), not all State 
laws are applicable to Federal student loan servicers.
    pheaa assertion of immunity from federal and state consumer laws
    Question. On January 20th of this year, the Pennsylvania Higher 
Education Assistance Agency (PHEAA) filed a motion to dismiss a lawsuit 
brought by New York Attorney General Letitia James, asserting that, in 
PHEAA's words, your agency ``validly conferred'' authority to service 
loans in a manner that immunizes the company from any lawsuit brought 
by any Federal or State agency or individual borrower under any Federal 
or State law. This assertion is expansive and obviously inconsistent 
with the text of the most recent appropriations law. Do you agree with 
PHEAA's position that it is immune from suit even if its conduct 
violates Federal or State consumer laws?
    Answer. The Department is not a party to the lawsuit mentioned in 
the question, was not involved in the development of the arguments made 
by PHEAA, and has not reviewed those arguments. It is the Department's 
understanding that the arguments in the brief represent PHEAA's legal 
views on the application of Federal and State laws in light of its role 
as a Federal loan servicer and its status as a State agency.
                borrower defense partial relief formulas
    Question. Regarding the borrower defense partial relief formulas 
used by the Department:
    Which senior political appointee or appointees of the Department 
authored or signed the recommendation to the Secretary to approve the 
first partial relief formula for borrower defense that was announced 
via press release on December 20, 2017?
    Answer. No senior political appointee of the Department authored or 
signed a recommendation to the Secretary to approve the first partial 
relief formula.
    Question. Please describe in detail the steps taken to consult with 
the Department's Office of Inspector General regarding the first 
partial relief formula for borrower defense that was announced via 
press release on December 20, 2017, prior to the release of such 
formula.
    Answer. The Department is not aware of any consultation that took 
place with the Office of Inspector General.
    Question. Which senior political appointee or appointees of the 
Department authored or signed the recommendation to the Secretary to 
approve the second partial relief formula for borrower defense that was 
announced via press release on December 10, 2019?
    Answer. A group of senior career staff and political leaders from 
the Office of Postsecondary Education, Office of the Undersecretary, 
Office of the General Counsel, and Federal Student Aid worked together 
to develop the second partial relief formula, which was reviewed by 
Institute of Education Sciences.
    Question. Please describe in detail the steps taken to consult with 
the Department's Office of Inspector General regarding the second 
partial relief formula for borrower defense that was announced via 
press release on December 10, 2019, prior to the release of such 
formula.
    Answer. The Department consulted with the appropriate data and 
statistical experts regarding the second partial relief formula. It did 
not consult with the Office of Inspector General.
           pell grant lifetime eligibility used restorations
    Question. Please provide an update on Pell Grant Lifetime 
Eligibility Used (LEU) restored due to school closure, according to the 
Department's April 3, 2017 notice, Guidance on COD Processing of Pell 
Grant Restoration for Students who Attended Closed Schools, including 
total number of unduplicated students receiving restoration of Pell 
LEU, total number of institutions which those students attended, and 
total number of semesters restored, disaggregated by State.
    Answer. Approximately 338,000 students attending 1,139 institutions 
have received restoration of Pell LEU. This equates to more than 
688,000 semesters worth of Pell eligibility restored. State-level data 
is provided in the attached file. Please note that Pell Grant awards 
are processed through an institution's main location; for example, all 
awards to students who attended ITT Technical Institute were made to 
the school's main location in Indiana. As a result, the State-level 
disaggregated student totals provided for Pell LEU restoration 
represent the State to which grants originally were processed, but not 
necessarily the location where students actually attended classes.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  implementation of change in public service loan forgiveness payment 
                                 counts
    Question. In a letter to Senator Murray dated March 3, 2020, the 
Department indicated a change to how payments are counted toward Public 
Service Loan Forgiveness (PSLF), writing that the Department is 
``revising the policy by which we determine whether a monthly payment 
qualifies for PSLF purposes. Under the new policy, a borrower will 
receive credit for 1 months' qualifying payment towards PSLF, 
regardless of when or by whom the payment was made, so long as the 
payment due was made in full, no later than 15 days after the payment 
due date, and meets all other requirements for a PSLF qualifying 
payment. Under this revised policy, advance or ``lump sum'' payments 
may be qualifying monthly payments (up to a maximum of 12 qualifying 
payments) for PSLF. We anticipate implementing this change with our 
PSLF servicer later in 2020.'' Please describe the specific steps that 
the Department will take to notify borrowers who have made advance or 
lump sum payments, and subsequently had nonqualifying payments for the 
purposes of PSLF, of this new change in policy.
    Answer. This change has not yet been officially implemented; FSA is 
still working with the PSLF servicer to operationalize it. The 
Department anticipates that once the change is made, borrowers' 
accounts will be updated to reflect their detailed PSLF qualifying 
monthly payment counts under the revised guidance. These revised 
monthly payment counts will be communicated through borrowers' account 
statements.
  pslf and tepslf state by state breakdowns and breakdowns on missing 
            information and reasons payments do not qualify
    Question. Regarding the Public Service Loan Forgiveness (PSLF) and 
Temporary Expanded Public Service Loan Forgiveness (TEPSLF) programs, 
please provide:
    a.  a State-by-State breakdown of the number of Applications for 
        Forgiveness received, approved, or denied, separately listed 
        and including both the number of unique borrowers as well as 
        the total number of applications
    b.  a State-by-State breakdown of the number of applications for 
        TEPSLF received, approved, or denied, separately listed and 
        including both the number of unique borrowers as well as the 
        total number of applications
    c.  a State-by-State breakdown of PSLF Employment Certification 
        Forms (ECFs), including the unique number of borrowers who have 
        any approved, have any denied ECF, and the cumulative number 
        who have submitted any ECF
    d.  a breakdown of the most common information missing (i.e. 
        employment dates, signature, EIN) from ECFs that have been 
        determined to be ineligible due to missing information
    e.  a breakdown of the most common reasons payments are not 
        qualifying for PSLF Applications for Forgiveness for 
        applications denied due to insufficient qualifying payments
    Answer. a. Please see the attached table for the requested data.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    b. Please see the attached table for the requested data.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    c. Please see the attached table for the requested data.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    d. Please see the attached table for the requested data.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    e. Due to the volume of borrowers and the various reasons payments 
may be deemed not qualifying, the PSLF servicer does not currently 
report this specific data to the Department. In addition, payments may 
be deemed not qualifying for more than one reason. Please note, 
however, that the servicer is able to provide borrowers with the 
reasons individual payments did not qualify upon their request. 
Additionally, when the combined PSLF/TEPSLF/Employment Certification 
Form is implemented later this year, all borrowers will receive 
qualifying payment counts for both PSLF and TEPSLF, along with detailed 
information at the payment level.
        automation of total and permanent disability discharges
    Question. Members of Congress have previously requested that the 
Department use its authority to establish a process for total and 
permanent disability (TPD) discharge with the Social Security 
Administration (SSA) whereby, upon a successful match with SSA, the 
Department automatically places a borrower into a 3-year monitoring 
period. And, if the borrower does not show any of the applicable 
earnings that would reinstate their obligation to repay based on a 
secondary earnings data match with SSA at the end of the monitoring 
period, the loans should be automatically discharged. The Department 
has said that it needs to undergo rulemaking to effectuate any form of 
automatic discharge. However, there are other steps that could be 
automated without the need for rulemaking. Please provide the 
Department's analysis of options to automate various parts of the TPD 
process, including specific statutory citations the Department believes 
are relevant to administrative or regulatory authority. Please include 
in this analysis any provisions that distinguish the authority of the 
Department to automate processes for veterans who may qualify for TPD 
discharge compared to the authority that exists for non-veterans.
    Answer. The Department believes that the FUTURE Act, coupled with 
the CARES Act, will permit the Department to establish automatic 
retrieval of IRS data. When this system is in place, the Department 
will be able to administratively verify the income of borrowers who 
received a TPD discharge for the required 3 years, thus eliminating the 
need for the borrower to provide that information. This provides the 
opportunity for the Department to explore the concept of providing 
automatic loan discharge to these borrowers.
    In order to eliminate the requirement for the borrower to submit an 
application to be considered for a TPD discharge, the Department will 
need to engage in negotiated rulemaking, publish a notice of proposed 
rulemaking, accept public comments and publish a final rule to 
eliminate the requirement for borrowers to complete an application in 
order to be considered for TPD discharge. 34 CFR 685.213(2)(b)
    Following President Trump's announcement of automatic loan 
discharge for borrowers who received a TPD rating from the Veterans 
Administration, the Department published an interim final rule to 
eliminate the application requirement for veterans. It is rare that the 
Department is permitted to file an interim final rule, and in this case 
doing so was permitted only because Congress had directed the 
Department to remove unnecessary bureaucratic barriers specifically for 
veterans who are totally and permanently disabled because of service-
connected injuries, leaving the Department no discretion in the matter.
           measures to handle tpd data matching discrepancies
    Question. The Department has stated that the current matching 
process for total and permanent disability (TPD) with the Department of 
Veterans Affairs (VA) and Social Security Administration (SSA) matches 
both full Social Security Number (SSN) and name. If the match fails for 
either data element, it is not validated. ED also said that common 
clerical mistakes explain some of these ``no match results'' because 
older loans were processed on paper, rather than electronically, 
increasing the likelihood of clerical errors. Common errors such as a 
transposed letter or number, missing hyphen in a name, or name change 
from marriage can also result in no match. Please provide the specific 
steps the Department currently takes, or plans to take, to contact 
borrowers when there is a discrepancy in data matched but there is 
otherwise a high degree of confidence in the borrower's identity, in 
order to help additional borrowers receive TPD discharges.
    Answer. The Department has engaged in proactive communication with 
borrowers and stakeholders to help to minimize clerical errors to the 
extent possible. The Department is unable to review matches that fail 
because non-matches may not legally be retained under the provisions of 
the Department's current Memoranda of Understanding with the VA and 
SSA. The Department will reassess the retention and use of non-match 
data in our future work with these agencies. In the meantime, it 
continues to process TPD requests from individuals who were not 
validated through the match processes, but who contact the Department 
on their own. Please note as well that the VA and SSA TPD processes 
differ; veterans matched through the VA process now receive a discharge 
automatically unless they opt out, whereas borrowers who match through 
the SSA process must still complete an application and are subject to a 
3-year income monitoring process after discharge.
        data on discharges under total and permanent disability
    Question. Please provide the most recent data available on the 
total number of borrowers discharged under total and permanent 
disability (TPD). Within this update please include:
    a.  Number of SSA (SSI/SSDI) matched borrowers and total amount 
        discharged;
    b.  Number of Veterans Affairs matched borrowers and total amount 
        discharged;
    c.  Number of borrowers who matched either SSA or VA databases who 
        are subject to types of forced collections, disaggregated by 
        type (i.e. Tax Refund Offset, Treasury Offset Program, 
        Administrative Wage Garnishment, etc.), and including the 
        number of borrowers who are subject to multiple types of forced 
        collections;
    d.  Number of borrowers have had judgments entered against them 
        (including those entered prior to TPD eligibility). Of those 
        judgments, if any, the number of those still in effect;
    e.  The number of borrowers in each State who have received a match 
        notification and received a discharge, separately, for SSA TPD 
        borrowers;
    f.  The number of borrowers in each State who have received a match 
        notification and received a discharge, separately, for VA TPD 
        borrowers.
    Answer. a. As of February 2020, approximately 589,000 borrowers 
were identified through the SSA match process, which began in April 
2016. Of those borrowers, more than 227,000 borrowers with loans 
totaling $8.2 billion have been approved for discharges. Eligible 
borrowers identified for discharge through an SSA match receive a 
discharge and are then subject to a 3-year monitoring period. If a 
borrower receives a new loan during the monitoring period or, during 
that period, has annual earnings from employment greater than the 
poverty guideline amount for a family of two, the discharged loans are 
reinstated.
    b. More than 25,000 eligible veterans with $800 million in loans 
received discharges as a result of submitting an application after 
having been identified through the data match, which began in April 
2018. In addition, since the President's announcement on August 21, 
2019, and as of March 31, 2020, approximately 37,000 veterans with $830 
million in loans have been approved for automatic discharge and 1,600 
veterans with $50 million in loans have opted out of the discharge.
    c. Pursuant to the Coronavirus Aid, Relief, and Economic Security 
(CARES) Act, and as of March 13, 2020, no borrowers are currently 
subject to Treasury Offset. Also pursuant to the CARES Act, the 
Department has notified all employers to stop administrative wage 
garnishments. The Department relies on borrowers' employers to stop 
garnishing their wages, but it is proactively following up with 
employers who continue to garnish wages and will continue to process 
refunds to borrowers as appropriate.
    d. As of March 2020, out of approximately 278,000 defaulted 
borrowers identified by SSA or VA as eligible for discharge, 
approximately 3,400 borrowers (1.2 percent) have a judgment entered 
against them. Judgments on Federal student loans do not expire, as 
there is no statute of limitations on Federal student loans. However, 
it is possible that some judgments have been manually vacated by the 
Department at the request of the borrower. The Department only vacates 
judgments if the debt has been resolved or determined to be 
unenforceable.
    e. A file providing the requested data is attached. Please note 
that the numbers provided represent borrowers identified in the 
December 18, 2019 match with SSA.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    f. A file providing the requested data is attached. Borrowers 
identified as eligible for a discharge through the Department's match 
with the VA now receive a discharge automatically unless they opt out. 
Therefore, the attached file provides the number of borrowers by State 
with a reported discharge code in National Student Loan Data System 
(NSLDS) associated with a VA match.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

fsa nextgen workforce, resource allocation, and plans for fiscal years 
                          2020, 2021 and 2022
    Question. Regarding the Department's Next Gen initiative to reform 
student loan servicing and debt collection:
    How is the Department's Office of Federal Student Aid assessing the 
efficacy and roles of its current workforce and its needs as it plans 
to grow?
    Answer. FSA is taking a very deliberate approach to assessing and 
optimizing its workforce. The approach to development is holistic, and 
the term the office is using is ``21st century Federal Student Aid.'' 
FSA Workforce Development is focused on strategically hiring new 
employees to fulfill specific competencies and capabilities, rather 
than simply increasing overall workforce numbers. For example, FSA has 
specifically sought and hired experts with diverse backgrounds, such as 
financial analysts with Wall Street experience, former banking 
executives with experience moving their operations from analog to 
digital, loan servicing experts who understand complex contract pricing 
techniques, and former CFPB personnel with experience protecting 
students. They are complemented by professional writers to ensure FSA's 
strategic communications keep taxpayers and other important 
stakeholders informed about its critical work.
    To optimize its workforce and better serve students, schools, and 
taxpayers, on March 29, 2020, FSA implemented a reorganization. The 
reorganization streamlined spans of control and clarified lines of 
authority within FSA by reducing the Chief Operating Officer's direct 
reports from 15 employees to 5. It also reorganized existing 
capabilities and added new functions, such as the Next Gen Program 
Office, to solve operational challenges and reduce pain points.
    FSA has also initiated a human capital requirements study to define 
and optimize work processes, calculate staffing needs, and identify 
work drivers, which are quantifiable, auditable measures of input or 
output. As of April 2020, FSA has already identified more than 300 
processes and 130 drivers in its two largest mission areas. By fall 
2020, FSA expects to generate baseline staffing requirements and driver 
data for each of the 60 offices that perform its core functions. 
Informed in part by the results of the human capital requirements 
study, it is also performing a skill gap analysis to identify any 
performance gaps and impacts, determine training needs, and make other 
recommendations to optimize the workforce.
    Question. When does the Department estimate that the Next Gen 
initiative be fully operational?
    Answer. It is important to remember that some elements of Next Gen 
are already operational and available to borrowers. For example, FSA 
has already rolled out a new consolidated website and 1-800-number, as 
well as enhanced and personalized loan counseling and financial 
literacy tools to help borrowers better understand their obligations 
and the options available to help manage their debt. FSA also launched 
a ``Make a Payment'' pilot to make it easier for borrowers to repay 
their loans from a single site, and is piloting a digital assistant, 
known as Aiden, that provides borrowers with personalized answers to a 
wide range of questions about student aid.
    Next Gen is transforming nearly every aspect of how FSA operates 
and interacts with communities of students, parents, borrowers, 
schools, and other stakeholders. Because of the scale of Next Gen, 
several major components will launch in sequence moving forward. This 
means there is no singular date on which Next Gen will be ``fully 
operational.'' Instead, FSA views Next Gen as an evolving initiative, 
where even when tools are launched, they are consistently improved and 
iterated upon to meet the needs of its customers.
    FSA published the latest series of Next Gen solicitations in 
January 2019. The Enhanced Processing System (EPS) and Business Process 
Operations (BPO) solicitations will transform the way that more than 35 
million federally-managed student loan borrowers manage and repay their 
loans. These acquisitions are proceeding as planned, and FSA expects to 
make awards in fiscal year 2020. After award, FSA must work to bring 
onboard the awardees, develop requirements with contractors and ensure 
that they clear enhanced cybersecurity standards, and receive an 
Authority to Operate. This process can take up to a year. After these 
vendors are brought online, FSA plans to complete live loan conversion 
of loan accounts from FSA's legacy servicers to the EPS system, to be 
managed by BPO vendors, within 15 months. Once transfers of non-
defaulted accounts are complete, FSA will begin transferring defaulted 
accounts. Planning is underway to develop a campaign that will ensure 
borrowers are notified of their account status.
    Additional projects included in the Next Gen initiative, such as 
development and implementation of the Partner Performance and Oversight 
(PPO) Portal, will proceed concurrent to FSA's conversion of federally-
managed and defaulted loan accounts. FSA estimates that conversions 
will proceed through fiscal year 2023. However, this schedule may be 
put at risk by protests and/or lawsuits from unsuccessful offerors, 
insufficient appropriations, or other events outside of FSA's control.
    Question. How many staff spend more than 50 percent of their time 
on Next Gen projects?
    Answer. The Next Gen Program Office, which is responsible for 
executing the major components of Next Gen, currently has 42 full-time 
employees. There are approximately 20 additional staff (not including 
senior management) across the organization that spend more than 50 
percent of their time on Next Gen projects. Additional support is 
provided by contractors.
    Question. Please provide a detailed breakdown of the fiscal year 
2020, fiscal year 2021, and fiscal year 2022 budgets for Next Gen 
projects.
    Answer. Much of FSA's Next Gen budget is contingent on upcoming 
contract awards. Additional awards will be made throughout fiscal years 
2020 and 2021 that will obligate additional funds to Next Gen contract 
awardees. Thus far, the following contracts have been awarded and are 
obligated for fiscal year 2020:
  --Digital and Customer Care: $91.7 million
  --Partner Participation and Oversight: $4.7 million
  --Enterprise Data Management and Analytics Platform Services 
        (EDMAPS): $9.8 million
    The Department's budget for fiscal year 2021 is aligned with the 
President's fiscal year 2021 request, which is currently being 
considered by Congress. However, detailed budget breakdowns for fiscal 
years 2021 and 2022 are dependent upon contract extensions and future 
awards.
 memorandum of understanding with consumer financial protection bureau
    Question. On Tuesday, March 10, the Director of the Consumer 
Financial Protection Bureau (CFPB), Kathleen Kraninger, testified to 
the Senate Committee on Banking, Housing, and Urban Affairs that the 
CFPB and Department now have an agreement to conduct monitoring of 
student loan servicers and will be conducting a joint exam of a Federal 
student loan servicer later this month. Please provide a copy of this 
monitoring agreement, a copy of any associated memoranda or guidelines 
regarding this monitoring, a detailed description of any plans to use 
staff detailed from CFPB at the Department, and a detailed explanation 
of how the Department plans to conduct oversight with CFPB for Federal 
student loan servicers.
    Answer. FSA is committed to increasing oversight and monitoring of 
Federal student loan servicers to ensure borrowers receive superior 
service. On February 3, 2020, the Department and the Consumer Financial 
Protection Bureau (CFPB) signed a Memorandum of Understanding (MOU) to 
better serve student loan borrowers. A copy of the MOU is provided 
below. The MOU will allow the Department and the CFPB to share 
complaint information from borrowers and meet on a regular basis. The 
MOU also provides for the sharing of complaint data analysis, 
recommendations, and analytical tools.
    As mentioned previously by CFPB Director Kraninger, FSA and the 
CFPB recently conducted their first joint supervisory and oversight 
examination of one of FSA's loan servicers. CFPB supervisory exams are 
generally considered confidential supervisory information; therefore, 
the Department cannot discuss specific details of the first joint exam. 
In general, FSA considered this first joint exam to be a pilot; it 
therefore does not currently have any associated monitoring agreements 
or memoranda other than the MOU mentioned above.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  justification for refusal to allow servicers to provide data to cfpb
    Question. On Tuesday, March 10, the Director of the Consumer 
Financial Protection Bureau (CFPB), Kathleen Kraninger, testified to 
the Senate Committee on Banking, Housing, and Urban Affairs that the 
Department has refused to allow Federal student loan servicers to 
provide information and data to the CFPB necessary for the CFPB's 
examinations and other oversight. Please provide a full justification 
for why the Department has refused to provide the CFPB with this 
information in each instance such request has been denied.
    Answer. The Department did not comply with previous requests from 
the CFPB because it did not have an MOU in place with the CFPB when the 
requests were made. The Department has approved two requests received 
since reestablishing an MOU with the CFPB in February 2020 and is 
working with the loan servicer in question to ensure they provide the 
CFPB with the requested information.
 top five institutions reporting written arrangements with ineligible 
                              institutions
    Question. Regulations currently require institutions to receive 
accreditor approval and report to the Department any written 
arrangements with an ineligible institution or organization between 25 
and 50 percent of an institution's program. Please provide a list of 
the top 5 institutions with a written arrangement with an ineligible 
institution or organization between 25 and 50 percent of the 
institution's program (those with the highest proportion of a program 
getting outsourced), the name of the program, the name of the 
accreditor, and any other information the Department has regarding the 
arrangement.
    Answer. Currently, the Department's regulations require 
institutions to report written arrangements to their accreditor (not 
the Department) when 25 percent or more of a program is provided by an 
ineligible provider. Among other things, for Title IV purposes, 
institutions must obtain accreditor approval when a written arrangement 
allows an ineligible organization to deliver between 25 and less than 
50 percent of the educational program.
    Current regulations also do not require institutions to report to 
the Department and/or update information regarding their written 
arrangements with an ineligible institution or organization 
(contractual agreements) that provides more than 25 percent, but less 
than 50 percent, of an institution's educational program on a regular 
basis. Therefore, the Department has only limited information about 
institutions' contractual agreements with an ineligible institution or 
organization between 25 and 50 percent of the institution's program. 
However, the Notice of Proposed Rulemaking on Distance Education and 
Innovation published on April 2, 2020 proposes to require institutions 
to report to the Secretary when establishing a written arrangements.
    A list of the ``Top 5 institutions'' that reported contracting out 
49 percent of an educational program is included with this response. 
This is the maximum percentage of an eligible educational program that 
may be contracted out for Title IV purposes. The enclosed file lists 
the name of the program contracted out, the percentage of the program 
contracted out, the name and location of ineligible institution or 
organization that provides a portion of the educational program, and 
corporate and ownership information as reported by the institution to 
the Department. The file also includes the name(s) of the eligible 
institution's accrediting agency currently identified in the 
Department's records.
    Because the Department's information is limited and may be out of 
date, and because institutions are requested to report this information 
for all educational programs that they contract out (including 
educational programs that may not be eligible for Title IV purposes), 
the Department cautions that inferences should not be drawn from the 
data. General information about written arrangements with contractual 
agreements may be found in Volume 2, Chapter 2 of the 2019-2020 Federal 
Student Aid Handbook.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 timeline for availability of cumulative loan debt data for plus loans
    Question. The Department has indicated that program-level data on 
cumulative loan debt with respect to parent PLUS and grad PLUS and 
program-level loan repayment and default rates would be available by 
the end of calendar year 2020. What is the expected date for the 
Department to publish this data?
    Answer. The Department looks forward to supplying program-level 
data on cumulative loan debt with respect to parent PLUS and grad PLUS 
and program-level loan repayment and default rates to students and 
families to inform decisionmaking. The Department is pleased to report 
it is still on track to have such information available by the end of 
calendar year 2020.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
 illinois institute of art and art institution of colorado discharges 
                          and look back window
    Question. On November 16, 2017, the Higher Learning Commission 
(HLC) withdrew accreditation from the Illinois Institute of Art and Art 
Institute of Colorado campuses of Dream Center Education Holdings 
(DCEH)--transitioning them to ``candidates for accreditation''--
effective January 20, 2018.
    The Department canceled loans for borrowers who used direct loans 
to cover educational expenses at the Art Institute of Colorado or the 
Illinois Institute of Art between Jan. 20, 2018 and before December 
2018. Under what basis did the Department discharge such loans for 
impacted borrowers? Please provide statutory and/or regulatory 
citations sufficient to show the nature and extent of the authority 
used by the Department in this case.
    Answer. The Department is currently investigating the accrediting 
agency's failure to follow the Department's regulations (including 34 
C.F.R. Sec. Sec. 602.18(c), 602.25(a), 602.25(d), 602.25(e), and 
602.25(f)) and the accreditor's own rules when approving the change of 
control, which under the circumstances of this transaction would not 
allow the agency to approve the transaction but then later suggest that 
institutions had therefore immediately entered a non-accredited status 
following the transaction without any of the procedural protections 
required when accreditation is withdrawn or suspended. As a result, 
credits earned during that time period are officially labeled as being 
earned from an institution that was not accredited during that period 
as per the accreditor's website (with the corresponding impact on 
students' ability to successfully transfer those credits), and the 
cancellation of the students' loans is a recognition of that reality.
    Question. On February 7, the Department extended the closed school 
discharge look back window for students attending these institutions to 
January 20, 2018. Department noted that this decision would affect 790 
students. How many of those students have applied for closed school 
discharge? How many have received it? How has the Department made these 
790 borrowers aware of their new eligibility for closed school 
discharge?
    Answer. As of May 28, 2020, approximately 200 borrowers have 
applied for closed school discharge, and approximately 140 of those 
borrowers have been granted a discharge. After extending the closed 
school discharge window for these institutions, the Department 
instructed all of its Federal student loan servicers to identify and 
send a closed school discharge application to all borrowers who 
potentially became eligible for a discharge as a result of the extended 
window. Servicers were also instructed to reevaluate previously denied 
applications based on the new withdrawal date.
appropriate look back period for closed school discharge and education 
                     corporation of america schools
    Question. The Department notified me and other Members of Congress 
on February 13, that it had decided not to extend the closed school 
discharge look-back period for students who attended schools owned by 
Education Corporation of America (ECA). As the Department has 
previously stated, ``during the months of March, April, and May 2018, 
ACICS placed many locations of ECA on either campus-level show-cause or 
campus-level compliance warning due to student achievement rates'' and 
on ``May 8, 2018, ACICS placed ECA on show-cause due to adverse action 
by another agency.'' Actions toward the removal of accreditation are a 
clear example of exceptional circumstances as provided under 34 CFR 
Sec. 685.214. Please provide a full explanation for why the Department 
does not believe any of these events qualify as an exceptional 
circumstance for the purposes of determining the appropriate look-back 
period for closed school discharge in the ECA case.
    Answer. Under 34 C.F.R. Sec. 685.214, the Secretary has the 
authority, under exceptional circumstances, such as loss of 
accreditation, State authorization of Title IV participation, to extend 
the 120-day ``look back'' period. However, ECA remained accredited 
during this period, so no exceptional circumstances existed.
                look back period for vatterott students
    Question. In that same February notification, the Department noted 
that the Secretary had not yet made a decision on the request from me 
and other Members of Congress to extend the look back period for 
Vatterott students--which also met the exceptional circumstances bar in 
the law. When can we expect that decision?
    Answer. The Secretary has not yet made a determination to extend 
the look-back period for Vatterott students.
             borrower defense approvals without discharges
    Question. Since June 2018, the Department has released borrower 
defense data on a quarterly basis. Despite 843 applications being 
approved since that time-according to the December 2019 report, the 
reported total amount discharged has not changed. Please explain this.
    Answer. On December 10, 2019, Secretary DeVos announced a revised 
borrower defense relief methodology. Although 843 approval 
notifications were subsequently sent to borrowers in December 2019, it 
typically takes up to 120 days for the Department's loan servicers to 
fully complete the discharge processing associated with an approved 
application. This processing had not been completed by the time the 
Department's Borrower Defense Quarterly Report for the quarter ending 
December 31, 2019, was published on the FSA Data Center. The most 
recent Borrower Defense Quarterly Report for the quarter ending March 
31, 2020, provides an updated total amount discharged.
                definitions in borrower defense reports
    Question. Please explain the definitions of the terms ``total 
denied'', ``total ineligible'', and ``total closed'' used in the 
quarterly borrower defense reports.
    Answer. The term ``total denied'' is no longer used in the 
quarterly borrower defense reports. The term ``total ineligible'' is 
used to refer to applications in which the borrower has been notified 
that their claim does not meet the requirements for a borrower defense 
to repayment discharge. The term ``total closed'' refers to 
applications in which the borrower has been notified that their claim 
has been closed as a result of the borrower receiving another benefit 
that resulted in the loan being discharged, the borrower not responding 
to a request for additional information, or at the request of the 
borrower.
        institutional breakout of denied borrower defense claims
    Question. Please provide a breakdown of ``total denied'' borrower 
defense claims to date by institution.
    Answer. Please see response to the previous question.
     institutional breakout of inelligible borrower defense claims
    Question. Please provide a breakdown of ``total ineligible'' 
borrower defense claims to date by institution.
    Answer. A file providing the requested data as of March 31, 2020 is 
enclosed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        institutional breakout of closed borrower defense claims
    Question. Please provide a breakdown of ``total closed'' borrower 
defense claims to date by institution.
    Answer. A file providing the requested data as of March 31, 2020 is 
enclosed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       reasons for borrower defense claim denials, ineligibility 
                   determinations, and closed claims
    Question. For each--total denied, total ineligible, and total 
closed--please provide the top 5 reasons, including the number and 
corresponding percentage, for claims being placed in that category.
    Answer. Per the Department's response to the question titled 
``Definitions in Borrower Defense Reports'', ``total denied'' is no 
longer used as a category in borrower defense reporting.
    As of March 31, 2020, the top five reasons applications have been 
deemed ineligible were as follows (numbers have been rounded to the 
nearest 5):
  --Failure to Meet Job Placement Rate Criteria and Failure to State a 
        Claim on Any Other Basis (15,015 applications or 39 percent);
  --Lack of Evidence (13,555 applications or 35 percent);
  --No Claim Stated (8,335 applications or 22 percent);
  --Reason Not Reported (935 applications or 2 percent);
  --Failure to State a Claim Actionable Under Borrower Defense 
        Regulations (795 applications or 2 percent).
    As of March 31, 2020, the top five reasons applications have been 
closed were as follows (numbers have been rounded to the nearest 5):
  --No Loans (e.g., no Federal loans; loans paid in full; no loans at 
        the applicable school) (4,985 applications or 54 percent);
  --No Response from Customer (1,425 applications or 15 percent);
  --Borrower Received an Automatic Closed School Discharge (1,025 
        applications or 11 percent);
  --Incomplete Application (525 applications or 6 percent);
  --Borrower Received a Closed School Loan Discharge (385 applications 
        or 4 percent).
         reasons for closure of borrower defense claims to date
    Question. Please provide the top 5 reasons, including the number 
and corresponding percentage, of that borrower defense claims have been 
``closed'' by the Department to date.
    Answer. Please see response to the previous question.
        misconduct investigations due to borrower defense claims
    Question. How many schools are being investigated for misconduct 
due to borrower defense claims filed by their students?
    Answer. The Department does not comment on deliberative, 
preliminary, or ongoing investigative work, including disclosing a 
number or list of institutions that may be subject to such work related 
to borrower defense claims and/or findings, until the outcomes of any 
investigations have been issued to the institutions or entities.
            schools submitting information about litigation
    Question. How many schools have submitted information to the 
Department of Education about litigation against them? Which schools?
    Answer. As of April 1, 2020, the Department has received arbitral 
and judicial records responsive to 34 CFR 685.300(g) and (h) from six 
institutions: Colgate University, DeVry University, Dorsey School of 
Business, Inc., Florida Southwestern State College, Fortis College, and 
SSS Education, Inc. (doing business as Jersey College). Additional 
notices may have been received but are not yet logged in the tracking 
system.
             borrower defense right to respond submissions
    Question. How many schools have submitted information to the 
Department based on the school's right to respond to a pending borrower 
defense application?
    Answer. None. The Department has recently finalized the system 
updates and processes for schools to securely transmit information and 
documents in response to borrower defense applications and expects to 
begin notifying schools shortly.
     borrower defense and corrections for credit reporting agencies
    Question. For how many borrowers whose borrower defense 
applications have been approved has the Department or its agents made 
corrected reports to credit reporting agencies?
    Answer. As of March 31, 2020, the Department has approved 55,000 
borrower defense applications. As part of the loan discharge process, 
the Department has directed its default and non-default loan servicers 
to submit corrected reports to credit reporting agencies within 60 days 
of the discharge being applied on the borrower's account.
       borrower defense findings against institutions since 2017
    Question. Since January 20, 2017, how many--and which--institutions 
of higher education has the Department made findings against for 
purposes of borrower defense relief?
    Answer. Until recently, the Department focused on adjudicating 
applications covered by previously established findings at Corinthian 
Colleges.
   ongoing investigations of institutions related to borrower defense
    Question. How many institutions is the Department currently 
investigating for purposes of making findings related to borrower 
defense?
    Answer. The Department does not comment on deliberative, 
preliminary, or ongoing investigative work, including disclosing a 
number or list of institutions that may be subject to such work related 
to borrower defense claims and/or findings, until the outcomes of any 
investigations have been issued to the institutions or entities.
 precipitous school closure and cost to taxpayers and amounts recouped
    Question. Since the 2014 collapse and 2015 bankruptcy of Corinthian 
Colleges, Inc., many for-profit colleges have followed suit--closing 
their doors as part of a planned teach-out or shuttering precipitously. 
In these cases, students are eligible for Federal closed school 
discharges. Many are also eligible for Federal student loan discharges 
through the Higher Education Act's borrower defense provision as a 
result of their institution's fraud and misconduct. We cannot let 
students be left holding the bag. At the same time, the Department's 
enforcement failures, failures to hold accreditors accountable, 
attempts to roll back the Gainful Employment and Borrower Defense 
rules--including provisions allowing students to hold institutions 
directly accountable in court for misconduct--mean that taxpayers are 
ultimately on the hook.
    Please provide the cumulative cost of approved closed school and 
borrower defense discharges (including automatic closed school 
discharges under the 2016 Borrower Defense rule) associated with for-
profit colleges since 2014.
    Answer. As of March 2020, the cumulative cost of approved closed 
school and borrower defense discharges associated with for-profit 
institutions is more than $1.6 billion. This includes more than $535 
million in borrower defense discharges and almost $1.1 billion in 
closed school discharges, including automatic closed school discharges.
    Question. Please provide the cumulative amount that the Department 
has recouped from institutions for closed school discharge costs 
associated with for-profit colleges since 2014.
    Answer. The Department's recoupment of loan discharge liabilities 
is a trailing process which follows the Department's quantification of 
actual discharged loan amounts and assertion of liabilities. In 
general, when an institution closes, it is required to submit a 
``Close-Out Audit'' report to the Department. When FSA resolves a 
close-out audit, it quantifies closed school loan discharges and 
asserts liabilities in the final audit determination for the close-out 
audit report. FSA may also pursue additional recovery of liabilities 
arising after the close-out audit is resolved. In all cases, the 
Department must provide institutions with appeal rights to challenge 
asserted liabilities and the Department does not pursue collections 
while an appeal is pending. In addition, the circumstances of some 
school closures may require the Department to pursue recoveries through 
protracted bankruptcy proceedings. To that end, the Department has 
recouped $936,547 from institutions for closed discharge costs 
associated with for-profit colleges since 2014.
    Question. Please provide the cumulative amount that the Department 
has recouped from institutions for automatic closed school discharge 
costs associated with for-profit colleges under the 2016 Borrower 
Defense rule.
    Answer. The cumulative amount that the Department has recouped from 
institutions for automatic closed school discharge costs associated 
with for-profit colleges under the 2016 Borrower Defense rule is 
$150,529.
    Question. Please provide the cumulative amount that the Department 
has recouped from institutions for borrower defense discharge costs 
associated with for-profit colleges since 2014.
    Answer. The Department has not recouped any costs associated with 
borrower defense loan discharges from institutions. The Department has 
only approved borrower defense applications associated with the conduct 
of three institutions: Corinthian Colleges, Inc. (CCI), American Career 
Institute (ACI), and ITT Educational Services, Inc. (ITT). The 
Department was unable to recover the cost of discharges associated with 
CCI and ACI, as those institutions closed with no assets available for 
recoupment. The Department filed a proof of claim in connection with 
ITT's bankruptcy proceedings. However, as of June 1, 2020, the 
Department has not received any recovery from ITT.
                data on pending borrower defense claims
    Question. According to the December 2019 borrower defense report, 
the Department is sitting on 217,452 pending borrower defense claims. 
Please provide:
    The average length of time the 217,451 claims have been pending;
    Answer. The average length of time that these applications have 
been pending is 665 days.
    Question. The percentage of pending claims related to for-profit 
institutions (including institutions that have been for-profit 
institutions within the past 10 years), public institutions, and 
private not-for-profit institutions respectively;
    Answer. As of December 31, 2019, 75 percent of pending applications 
were related to for-profit institutions, largely as a result of the 
Department's active efforts to solicit borrower defense claims from 
Corinthian students; 3 percent were related to public institutions; and 
18 percent were related to private not-for-profit institutions. The 
remaining applications include those without a school assigned, as well 
as a small number of applications involving foreign institutions.
    Question. A breakdown of the 217,452 pending claims by institution; 
and
    Answer. A file providing the requested data is enclosed. Please 
note that institutions may appear on the list several times because the 
data was pulled based on the institutions' 8-digit OPEID.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. A list of all group discharge applications the Department 
has received from State attorneys general including the date submitted, 
by whom, the school/programs, and the number of covered borrowers and 
the status of each application.
    Answer. The enclosed file provides a list of all attorneys general 
submissions related to groups of borrowers for which the attorneys 
general seek a borrower defense discharge as of March 31, 2020. The 
table includes the submission date, the attorneys general, the school, 
and the diploma program, if applicable. If a diploma program is not 
provided for a submission, the submission was not limited to a specific 
program.
    Please note that under the Department's regulations, it is within 
the Secretary's discretion to create a group discharge process and 
define the parameters of the group. The Department cannot provide the 
number of borrowers that will be included in a certain group unless and 
until a group is established and defined by the Secretary. However, 
individual applications submitted by attorneys general have been, and 
will continue to be, considered under the individual application review 
process.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. How many of the applications referenced in (d) are 
pending? How many have been granted? How many have been denied? Please 
provide a list of each.
    Answer. Under the Department's regulations, it is within the 
Secretary's discretion to create a group discharge process and define 
the parameters of the group. The Secretary has not yet defined any 
group(s) that will be adjudicated using a group discharge process.
    As noted above, individual applications submitted by attorneys 
general have been, and will continue to be, considered under the 
individual application review process. However, the borrower defense 
review platform does not currently track which individual applications 
were submitted by attorneys general. Platform functionality and data 
improvements that will provide this capability are being finalized.
    Question. For each of the years 2016, 2017, 2018, 2019, and 2020 
how many borrowers covered by a group discharge application are in 
default on their Federal student loans?
    Answer. In January 2017, the Department granted group borrower 
defense relief for Federal student loan borrowers who attended certain 
American Career Institute campuses. These borrowers received a 100 
percent discharge of their applicable Federal loans. Based on currently 
available data, the Department does not know how many of those 
borrowers were in default at the time of the loan discharge. The 
Secretary has not yet defined any additional group(s) that will be 
adjudicated using a group discharge process. Therefore, the Department 
cannot identify any such borrowers in default on their Federal student 
loans.
    Question. For each of the years 2016, 2017, 2018, 2019, and 2020 
how many loans of the borrowers covered by a group discharge 
application have been certified by the Department of Education for 
Treasury offset?
    Answer. In January 2017, the Department granted group borrower 
defense relief for Federal student loan borrowers who attended certain 
American Career Institute campuses. These borrowers received a 100 
percent discharge of their applicable Federal loans and were not 
subject to any collections activities after receiving the discharge. 
Based on currently available data, the Department does not know how 
many of those borrowers were in default at the time of the loan 
discharge. The Secretary has not yet defined any additional group(s) 
that will be adjudicated using a group discharge process. Therefore, 
the Department cannot identify any such borrowers certified for 
Treasury offset.
    Question. For each of the years 2016, 2017, 2018, 2019, and 2020 
how many borrowers covered by a group discharge application have been 
subject to an administrative wage garnishment order put in place by the 
Department?
    Answer. In January 2017, the Department granted group borrower 
defense relief for Federal student loan borrowers who attended certain 
American Career Institute campuses. These borrowers received a 100 
percent discharge of their applicable Federal loans and were not 
subject to any collections activities after receiving the discharge. 
Based on currently available data, the Department does not know how 
many of those borrowers were in default at the time of the loan 
discharge. The Secretary has not yet defined any additional group(s) 
that will be adjudicated using a group discharge process. Therefore, 
the Department cannot identify any such borrowers subject to 
administrative wage garnishment.
    Question. For each of the years 2016, 2017, 2018, 2019, and 2020 
what are the total dollar amounts of Federal student loans (interest 
and principal) covered by each group discharge application from a State 
attorney general?
    Answer. In January 2017, the Department granted group borrower 
defense relief for Federal student loan borrowers who attended certain 
American Career Institute campuses. These borrowers received a 100 
percent discharge of their applicable Federal loans. The combined loan 
discharges and refunds of amounts already paid by ACI borrowers totaled 
roughly $30 million. The Secretary has not yet defined any additional 
group(s) that will be adjudicated using a group discharge process. 
Therefore, the Department cannot identify the requested dollar amount.
    Question. For each of the years 2016, 2017, 2018, 2019, and 2020 
what are the total dollar amounts collected through the Treasury Offset 
Program on defaulted student loans covered by each group discharge 
application from a State attorney general?
    Answer. In January 2017, the Department granted group borrower 
defense relief for Federal student loan borrowers who attended certain 
American Career Institute campuses. These borrowers received a 100 
percent discharge of their applicable Federal loans and were not 
subject to any collections activities after receiving the discharge. 
The Secretary has not yet defined any additional group(s) that will be 
adjudicated using a group discharge process. Therefore, the Department 
cannot identify the requested dollar amount.
   reconsideration requests under december 2019 partial relief policy
    Question. The new partial relief policy announced in December 2019 
states that it establishes a rebuttable presumption of the amount of 
relief and that borrowers may request reconsideration.
    How many borrowers have requested reconsideration?
    Answer. The Department has received approximately 830 total 
requests for reconsideration as of March 31, 2020. These requests are 
from borrowers whose applications were approved for partial relief and 
borrowers whose applications were determined ineligible for relief.
    Question. How much staff time does the Department intend to devote 
to considering these requests?
    Answer. The Department intends to allocate as much staff time as is 
necessary to ensure the requests are reviewed in a timely manner.
    Question. What guidance has the Department prepared for borrowers 
seeking reconsideration? For staff evaluating those requests?
    Answer. On both ineligible and approval notifications sent to 
borrowers since December 2019, the Department has informed borrowers 
that they may request reconsideration by providing information 
regarding what they believe was decided incorrectly on the original 
application, an explanation as to why they believe the original 
decision was incorrect, and any evidence that would support a different 
decision. Those reconsiderations requests go into the current queue of 
outstanding borrower defense applications to be addressed accordingly 
by Department staff.
    Question. For how many schools and has the Department developed a 
relief chart like the ones published for Corinthian and ITT?
    Answer. The Department has not yet developed relief charts for 
schools other than Corinthian Colleges, Inc., and ITT Educational 
Services, Inc., but it plans to do so in the near future.
  program participation agreements, class action bans, and mandatory 
                              arbitration
    Question. 34 CFR 685.300 governs Program Participation Agreements--
the contracts between schools and the Department of Education. 
685.300(e) prohibits schools from making or enforcing class action bans 
and mandatory pre-dispute arbitration agreements.
    In how many schools' Program Participation Agreements has the 
Department included this prohibition?
    Answer. Since July 21, 2019 and through April 2, 2020, the 
Department has created and executed Program Participation Agreements 
(PPAs) that have included specific language referencing class action 
bans and pre-dispute arbitration agreements for 755 schools. As of 
April 2, 2020, 728 of these schools were approved to participate in the 
Direct Loan program, and 27 schools were not approved to participate in 
the Direct Loan program. PPAs created before July 21, 2019, contained 
overarching language indicating that schools were required to comply 
with all Title IV, Higher Education Act and Direct Loan program 
participation requirements, which would extend to the restrictions 
relating to class action suits and pre-dispute arbitration agreements.
    Question. In how many instances has the Department sought to 
enforce this prohibition? What actions has it taken?
    Answer. The Department does not comment on deliberative, 
preliminary, or ongoing investigative work, including the enforcement 
of the Title IV regulations. Generally speaking, through the 
Department's program review authority, it will monitor compliance with 
the requirements that schools end enforcement of any existing mandatory 
pre-dispute arbitration clauses and class action restrictions in 
enrollment agreements.
    Question. Are you aware of any class actions that schools currently 
participating in Title IV have forced into arbitration since this 
prohibition took effect on July 1, 2017?
    Answer. Of those notifications that have been processed by the 
Department to date, no class action lawsuits related to borrower 
defense have been forced into arbitration.
    Question. In Kourembanas v. Intercoast Colleges, a class action in 
the District of Maine, 17-cv-00331, the court granted Motion to Compel 
on Feb. 28, 2019 (ECF No. 36). And, in Clayton et al. v. Grand Canyon 
University, a class action in the Northern District of Georgia, 19-cv-
01707, the court granted Motion to Compel on Aug. 19, 2019 (ECF No. 
24). What does the Department intend to do about this?
    Answer. The Department does not comment on deliberative, 
preliminary, or ongoing investigative work.
          institutions with letters of credit or other surety
    Question. Please provide a list of all institutions for which the 
Department currently holds a letter of credit or other surety and the 
amount of such letter of credit or other surety.
    Answer. Enclosed are two files containing data on the Letters of 
Credit (LOC) and other surety that the Department held as of February 
5, 2020. As of February 5, 2020, the Department held 456 LOCs and other 
surety from institutions, totaling approximately $675.3 million in 
financial protection. The file contains institutional and other data 
regarding the LOCs held by the Department as of February 5, 2020. The 
second file provides the field definitions and descriptions of the 
reasons why a LOC was requested from a listed institution. Please note 
that this report differs from reports posted to FSA's Data Center 
identifying LOCs requested by the Department during an Award Year 
period. It is a ``snapshot'' of LOCs held by the Department as of 
February 5, 2020, and it provides the most recent information recorded 
in FSA's data sources regarding these LOCs. The report does not provide 
historical context for the LOCs held as of February 5, 2020 in cases 
where FSA may have required an institution to renew or amend a 
previously provided LOC. In a limited number of cases, the report also 
identifies and includes funds held on deposit by the Department in lieu 
of a LOC.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               institutions on heightened cash monitoring
    Question. Please provide a list of all institutions that are 
currently on Heightened Cash Monitoring (HCM) 1 or Heightened Cash 
Monitoring 2. Please provide copies of the audited financial statements 
of all schools on HCM1 status related to financial responsibility and 
the copies of the audited financial statements of all schools on HCM2 
status.
    Answer. Enclosed are two validated files containing the 447 Title 
IV institutions that were operating under the Heightened Cash 
Monitoring (HCM) method of payment and the Reimbursement payment method 
as of March 2, 2020. Of these, 395 institutions were operating under 
HCM1, 51 institutions were operating under HCM2, and one institution 
was operating under the Reimbursement payment method. This disclosure, 
as well as additional information about HCM, can be found at: 
studentaid.gov/sa/about/data-center/school/hcm. Due to the significant 
time and burden involved with the collection, review, and redaction of 
any requisite information within the audited financial statements 
covering the 317 institutions operating on HCM2 or on HCM1 due to 
``financial responsibility,'' the Department respectfully requests that 
the member's staff review the list and request of the Department the 
remission of only those financial statements which may be of particular 
interest.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 reviews, investigations and audits related to incentive compensation 
                                 rules
    Question. Regarding institutional compliance with the incentive 
compensation rules in fiscal year 2017, fiscal year 2018, fiscal year 
2019, and fiscal year 2020 (to date), please provide:
    a.  the number of program reviews, investigations, audits, or other 
        reviews that have examined institutional compliance with the 
        requirements of incentive compensation;
    b.  how many program reviews, investigations, audits, or other 
        reviews found noncompliance with the requirements of incentive 
        compensation; and
    c.  the actions the Department has taken to ensure that 
        institutions correct deficiencies in compliance with the 
        requirements of incentive compensation.
    Answer. a. The Department has issued determinations for 39 program 
reviews that were initiated during fiscal years 2017-2019 and fiscal 
year 2020 through March 31, 2020 that examined institutional compliance 
with incentive compensation requirements.
    The Department received and finalized its review and audit 
resolution process for more than 11,400 compliance audit reports whose 
audit period included any portion of fiscal years 2017, 2018, 2019, or 
2020 through March 31, 2020. The compliance audit reports were prepared 
either in accordance with the OIG's Guide for Audits of Proprietary 
Institutions and For Compliance Attestation Engagements of Third Party 
Servicers Administering Title IV Programs, or in accordance with the 
OMB Compliance Supplements (2 CFR Part 200, Appendix XI--Compliance 
Supplement) for audits reports prepared under the Single Audit Act. The 
scope of these audits included audit objectives for an independent 
auditor to determine whether the auditees did or did not comply with 
the incentive compensation prohibitions.
    Additionally, the Department conducted approximately 200 ``New 
School Visits'' during fiscal years 2017-2019 and fiscal year 2020 
through March 31, 2020 that reviewed incentive compensation 
requirements. A New School Visit is a process focused on the start-up 
issues and needs of schools that are new Title IV participants or that 
might not have recent Title IV experience. A New School Visit is not a 
program review, but rather a tool used to identify and eliminate any 
weaknesses that, if left unaddressed, could result in improper use of 
Federal funds and possible liabilities for the school. A standard 
component of a New School Visit includes a discussion of incentive 
compensation requirements, which may lead to the identification of a 
compliance deficiency.
    b. The Department has identified 10 instances of incentive 
compensation noncompliance in the population of finalized program 
reviews, investigations, and other reviews conducted in fiscal years 
2017-2019 and fiscal year 2020 to date, and finalized compliance audit 
resolutions whose audit period included any part of fiscal years 2017-
2019 and fiscal year 2020 through March 31, 2020.
    c. The Department has issued fine actions totaling $3,186,002 for 
three institutions in fiscal years 2017-2019 and fiscal year 2020 
through March 31, 2020.
                for-profit to not-for-profit conversions
    Question. In recent years, several for-profit colleges have 
attempted to convert to not-for-profit status in an effort to avoid the 
stigma associated with the predatory for-profit college industry and to 
avoid regulations meant to protect students and taxpayers. Dream Center 
Education Holdings, which recently collapsed leaving thousands of 
students stranded and whose conversion received preliminary Department 
approval, is just one example. Please provide a list of all for-profit 
conversions in the last 10 years including those pending (with current 
status), previously approved, and denied or withdrawn.
    Answer. A file providing the requested information is enclosed. 
Within the last 10 years, the Department has received 74 applications 
for a for-profit to nonprofit conversion. Of those 74 applications, the 
Department has made final decisions on 39 conversion requests. Of the 
39 final decisions made in the 10 year period, 26 final decisions were 
made prior to January 1, 2017. Since January 1, 2017, 13 final 
decisions were made. The Department made six decisions in calendar year 
2011, three decisions in 2014, 17 decisions in 2015, three decisions in 
2017, eight decisions in 2018, and two decisions in 2019.
    Of the 39 final decisions, 37 were approved.* The Department denied 
Argosy University's request for nonprofit recognition. The Department 
also denied Grand Canyon University's (GCU's) request for nonprofit 
recognition when it approved GCU's Change in Ownership application. 
Additionally, 15 applications were closed due to a voluntary withdrawal 
or school closure. There are 20 outstanding conversion requests.
    * In August 2016, the four main locations operated by the Center 
for Excellence in Higher Education (CEHE) were originally denied their 
conversion request. Following the receipt of additional information and 
an updated valuation in October 2018, the Department determined that it 
would be appropriate to grant those institutions conditional approval 
to convert to nonprofit institutions and issued Provisional Program 
Participation Agreements in December 2018. The Department's December 
2018 determination of CEHE's nonprofit status--based on the new 
information CEHE provided--also provided a basis to dismiss a 
longstanding lawsuit filed against the Department, because that was the 
relief sought in the lawsuit. To avoid duplication in the number of 
decisions reported for the break-out time periods listed above, the 
Department's decisions for the four main locations operated by CEHE are 
included in the number of decisions that were made since January 1, 
2017 and in the number of decisions that were made in 2018. 
Additionally, one approved Change in Ownership transaction involving 
Kaplan University and Purdue University resulted in Kaplan University's 
conversion to public institution status (rather than to nonprofit 
institution status).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

enrollment, discharge data and debt collection status for borrowers at 
                        recently closed schools
    Question. Please provide, disaggregated for Corinthian Colleges, 
Inc., ITT Educational Services, Inc., Charlotte School of Law, 
Education Corporation of America, Vatterott Colleges, and Dream Center 
Education Holdings, respectively:
    a.  the number of borrowers enrolled at the time of closure;
    b.  the number of borrowers and the total loan amount of such 
        borrowers for whom the Department estimates are eligible for 
        the applicable closed school discharge window (either 120 days 
        or as extended due to ``exceptional circumstances'');
    c.  the number of borrowers and the total loan amount of borrowers 
        who applied for a non-automatic, traditional closed school 
        discharge;
    d.  the number of borrowers and the total loan amount that has been 
        discharged through non-automatic, traditional closed school 
        discharge;
    e.  the number of borrowers and the total loan amount that has been 
        discharged through automatic closed school discharge; and
    f.  the number of borrowers and the total loan amount of such 
        borrowers in some form of debt collection (Treasury offset, 
        wage garnishment, assigned to PCAs).
    Answer. Please find all data requested above in the attached table.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      traditional closed school discharge applications since 2017
    Question. How many individual applications has the Department 
received for traditional (not automatic) closed school discharge on or 
after January 20, 2017, disaggregated by State and by claim status 
(i.e. received, pending, denied, and approved).
    Answer. Please find the requested data in the attached table.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
  federal 90/10 data counting all federal taxpayer-funded assistance 
                                programs
    Question. On December 10, 2018, Chairman Takano, Senator Carper, 
Representative Cohen, Ranking Member Murray, Chairwoman DeLauro, 
Ranking Member Reed, Chairman Adam Smith, Senator Blumenthal, 
Representative Susan Davis, and I wrote to you asking that you release 
Federal 90/10 data which counts accurately as Federal revenue all 
revenue received by for-profit colleges from Federal taxpayer-funded 
educational assistance programs. This would include Department of 
Veterans Affairs GI Bill and Department of Defense Tuition Assistance 
funding. The Department released this data in December 2016. The 
Department has still not provided this data. Please provide the data 
requested in our December 2018 letter and the same data for the years 
which have since elapsed.
    Answer. As previously stated in its March 28, 2019 response to the 
aforementioned letter, the Department determined that the data it used 
in to calculate 90/10 ratios in the December 2016 report were highly 
inaccurate. For example, the data used in the 2016 report failed to 
accurately distinguish between VA benefits that went to the school to 
cover the cost of tuition and fees, versus the portion that went to the 
student to cover housing and living expenses. Therefore, the 2016 
report overstated institutional revenue derived from Federal sources.
    The Department will not furnish inaccurate and unreliable data, 
like it did when producing the 2016 Report under the previous 
administration.
                  open textbooks pilot implementation
    Question. Over the last three fiscal years, this Subcommittee--with 
the support of Chairman Blunt and Ranking Member Murray--has provided 
$17 million to an Open Textbooks Pilot to expand the use of open 
textbooks on college campuses to achieve savings for students. While 
this program may be small, it has energized students and faculty across 
the country who see open textbooks--free, high-quality alternatives to 
costly traditional textbooks--as key to reducing student debt and 
improving learning outcomes. Many students don't purchase required 
course materials because they are too costly. It puts them at an 
academic disadvantage and hits low-income, first-generation, and 
students of color hardest. So, on a bipartisan basis, Congress created 
this program. In fiscal year 2019, we included clear direction to the 
Department to award funds through a new grant competition and to fund 
at least 20 projects in order to engage additional institutions to help 
keep the momentum going. The Department ignored Congress--funding just 
two projects in fiscal year 2019 from the fiscal year 2018 slate of 
applications. In Division A of the Joint Explanatory Statement to 
Accompany the fiscal year 2020 Further Consolidated Appropriations Act 
(Public Law 116-94), Congress provided clear directives to the 
Department on implementation of the Pilot, including to use additional 
funds to carry out a new grant competition.
    Please provide a timeline by which the Department expects to:
  --Publish a notice of proposed priorities for public comment;
  --End public comment on the notice of proposed priorities;
  --Respond to public comments;
  --Publish a Notice Inviting Applications for new grants;
  --End the application period of applications to be submitted; and
  --Award new grants under the Pilot.
    Answer. The Department published a Notice of Proposed Priorities 
(NPP) for public comment on March 31 that can be found at https://
www.Federalregister.gov/documents/2020/03/31/2020-06350/proposed-
priorities-requirement-and-definitions-fund-for-the-improvement-of-
postsecondary. The public comment period for the NPP ends on April 30, 
and the Department anticipates responding to public comments in a 
Notice of Final Priorities that it plans to publish before the end of 
June, at the same time as the Notice Inviting Applications. Current 
plans call for a 60-day application period, with new awards tentatively 
scheduled for November.
    Question. Will the Department's notice of proposed priorities for 
public comment follow Congress' directives in the fiscal year 2020 
Joint Explanatory Statement?
    Answer. The Department believes the NPP generally reflects the 
guidance provided in the fiscal year 2020 Joint Explanatory Statement 
on the Open Textbooks Pilot, but it is seeking further input on some 
provisions through the NPP. For example, the NPP requests public 
comment as to what award size would best permit an average recipient to 
accomplish the purposes for which the funds were appropriated. 
Furthermore, the Department is seeking feedback regarding matching 
contributions and expanded definitions of both ``high-enrollment'' and 
``open textbook'' in order to better administer and accomplish the 
goals of the program.
       high rate of denials under public service loan forgiveness
    Question. Last year, when you came before us, I asked you about the 
high percentage of denials under the Public Service Loan Forgiveness 
program-a program you, again, propose eliminating. In March last year, 
the Department reported 864 approvals and 75,138 denials--a 99 percent 
disapproval rate. The most up to date information we have as you sit 
here before us today shows 2,246 approvals and 149,091 denials--still a 
99 percent disapproval rate. It seems like not much has changed.
    What have you been doing? What steps have you taken in the past 
year to improve the administration of this program for public servants-
like teachers, firefighters, nurses and others?
    Answer. Although it is true that 99 percent of applicants for PSLF 
do not receive it (``are denied''), this is because they are not 
eligible for PSLF, not because the Department is denying applications 
for borrowers who are eligible for forgiveness. Indeed, FSA's data 
indicate that of Direct Loan borrowers who applied for PSLF, more than 
80 percent of them had not entered repayment (had their grace period 
expire) on any of their Direct Loans more than 10 years prior to 
applying for forgiveness. This means they have failed one of the basic 
qualification tests for the program and are not eligible yet.
    FSA's intent is to provide a customer-first approach to the 
administration of all the programs it offers, including PSLF. Its 
transformative initiative, Next Gen FSA, has been designed to 
accomplish that intent. The recent launch of the enhanced 
StudentAid.gov site, which integrated four consumer websites into one, 
created a digital ``front door'' for students, parents, and borrowers 
to access FSA's information and services. Additional tools recently 
released as part of this initiative are further reducing complexity and 
confusion for borrowers by making it easier for them to find 
information about their loans and repayment options, including 
information about pursuing PSLF. For example, the Aid Summary dashboard 
feature on StudentAid.gov now provides borrowers who have filed an 
Employment Certification Form (ECF) with a count of their PSLF 
qualifying monthly payments made to date.
    Although ongoing Next Gen FSA improvements will continue to make it 
easier for borrowers to pursue loan forgiveness, FSA has not waited on 
its full implementation before providing significant enhancements to 
customers. In December 2018, FSA launched a PSLF Help Tool to help 
borrowers better understand the PSLF Program and how they can 
participate. Later in 2020, FSA will be working to make significant 
enhancements to the Help Tool, including adding a database of 
qualifying PSLF employers and functionality that will permit borrowers 
to complete PSLF-related actions electronically, including 
electronically signing and submitting a new combined ECF form and PSLF/
TEPSLF application, discussed in more detail below.
    Using appropriated outreach funds, the Department has also 
continued its efforts to better educate borrowers about the programs' 
complex statutory requirements. In September 2019, the Department 
posted a new blog post on its Homeroom blog providing tips for success 
for PSLF applicants, including new infographics to help borrowers 
understand the program's requirements. In October 2019, the Department 
launched a focused digital outreach campaign that leveraged custom 
audience targeting on social media. The advertisements direct borrowers 
to the Department's recent blog post about PSLF or the PSLF Help Tool. 
The campaign included key word targeting to ensure that Department 
advertisements or other content about PSLF appear first in Google 
search results. Ads were also targeted to people who have previously 
visited the Department's web content about PSLF and people working in 
public service and for non-profits.
    FSA is also currently working to integrate the TEPSLF request into 
the PSLF application, thereby eliminating the need for borrowers to 
complete the PSLF application and submit a separate email for 
consideration for TEPSLF. The same revised form will also be used by 
borrowers to certify their employment. FSA announced its intent to 
consolidate the forms in a Federal Register notice published January 
30, 2020. After other required comment and review periods, FSA 
anticipates that the revised form will be available to borrowers by the 
end of calendar year 2020.
    Finally, to better support borrowers pursuing PSLF, the Department 
is revising the policy by which it determines whether a monthly payment 
qualifies for PSLF purposes. Under the new policy, a borrower will 
receive credit for 1 months' qualifying payment towards PSLF, 
regardless of when or by whom the payment was made, so long as the 
payment due was made in full, no later than 15 days after the payment 
due date, and meets all other requirements for a PSLF qualifying 
payment. Under this revised policy, advance or ``lump sum'' payments 
may be qualifying monthly payments (up to a maximum of 12 qualifying 
payments) for PSLF. The Department anticipates implementing this change 
with its PSLF servicer later in 2020.
    Question. Has the Department complied with the requirements in 
Division A of the Join Explanatory Statement regarding H.R. 1865? 
Please provide the briefing materials shared with the Committees to 
date.
    Answer. The Department's Office of Legislation and Congressional 
Affairs is working to schedule the requested briefing as soon as 
schedules allow.
data on department expected family contribution verification selection 
                              and outcomes
    Question. Students' Federal financial aid for higher education is 
dependent on their expected family contribution. For many students from 
low-income families, their expected family contribution qualifies them 
for Federal assistance in the form of a Pell Grant. To confirm accurate 
family contributions, some financial aid applications are flagged for 
additional verification. Past data from the Department shows that over 
half of Pell-eligible applicants were selected for verification in 
2015-2016. It is estimated that more than 1 in 5 low-income students 
selected for verification never complete the process, thus never end up 
receiving Federal financial aid. Students who receive Pell grants have 
much higher college retention rates than their peers who are Pell 
eligible but do not receive the aid. This data implies it is possible 
that the verification process is disproportionately harming the 
educational success of low-income students, which is the opposite 
intention of the Pell Grant program. The 2017/2018 Award Year ushered 
in a new verification model. The Quality Assurance Program ended, which 
had given institutions of higher education discretion on application 
verification, leaving the Department to select which students needed to 
be verified. The risk-model developed by the Department to identify 
which FASFA applications needed verification led to a drastically 
higher percentage of applications flagged. In fact, some schools 
reported that nearly 50 percent of Pell eligible students were selected 
for verification multiple times over their course of study even though 
their financial information hadn't changed.
    Please provide the metrics by which the Department selects which 
applications are to be verified.
    Answer. Prior to 2018, FSA employed a Classification and Regression 
Tree (CART) model to choose FAFSA filers for verification. The CART 
model used combinations of Targeted Selection Criteria to choose FAFSA 
filers for verification. In September 2017, FSA funded the creation of 
an advanced python-coded machine learning model (MLM) to improve FSA's 
verification selection model by better identifying applicants for whom 
an error on the FAFSA was more likely to impact their Expected Family 
Contribution (EFC) and, ultimately, their Federal aid award. FSA has 
used this model since October 1, 2018. The MLM model updates the 
criteria used for selection of FAFSA filers for verification to a 
gradient boosting classification and regression model. The metrics the 
model employs to choose FAFSA filers for verification include data from 
the FAFSA, as well as select census and demographic data, in several 
complex algorithms.
    Question. What percentage of students chosen for verification, did 
not complete, and failed their verification during the last award year 
under model?
    Answer. For the 2019-2020 cycle, which is the first cycle where the 
new selection model was deployed, the percentage of applicants who 
received some type of aid is higher for the group selected for 
verification (67.9 percent) than for those not selected for 
verification (57.4 percent). Please note, the 2019-2020 cycle remains 
an open cycle, and applications will continue to be accepted through 
June 30, 2020. Additionally, since applicants use the 2019-2020 cycle 
when applying for summer 2020 aid, some of these applicants may not 
have had a chance to complete verification, and those who only applied 
for summer aid will not yet have had a corresponding disbursement of 
aid. Therefore, these numbers will continue to change slightly through 
the end of the cycle. The below data is through March 25, 2020.

       TABLE 1: 2019-2020 CYCLE FINANCIAL VERIFICATION: V1 AND V5
------------------------------------------------------------------------
              Verification Selection Status                Percent Aided
------------------------------------------------------------------------
Not Selected for Verification...........................           57.4%
Selected for Verification...............................           67.9%
    Total...............................................           59.8%
------------------------------------------------------------------------


                            TABLE 2: 2019-2020 CYCLE IDENTITY VERIFICATION: V4 AND V5
----------------------------------------------------------------------------------------------------------------
                  Response Code                       AY2020          AY2019          AY2018          AY2017
----------------------------------------------------------------------------------------------------------------
1-Verification completed in person, no issues            113,699         118,437         123,735         130,499
 found..........................................
                                                 ---------------------------------------------------------------
2-Verification completed using notary, no issues          54,645          51,085          47,980          40,946
 found..........................................
                                                 ---------------------------------------------------------------
3-Verification attempted, issues found with               14,565          13,486          13,747          13,768
 identity.......................................
                                                 ---------------------------------------------------------------
4-Verification attempted, issues found with HS             2,053           2,028           2,079           3,673
 completion.....................................
                                                 ---------------------------------------------------------------
5-No response from applicant or unable to locate         114,435         112,597         126,057         122,516
                                                 ---------------------------------------------------------------
6-Verification attempted, issues found with both           2,191           2,104           2,165             N/A
 identity and HS completion.....................
                                                 ---------------------------------------------------------------
No Response.....................................         161,496         140,678         159,690         182,745
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
                Questions Submitted by Senator Jack Reed
  number of veterans awarded and loan amounts discharged under total 
                          permanent disability
    Question. Now that the Department is finally implementing a process 
to automatically discharge student loans for veterans who are totally 
and permanently disabled, could you please provide an update on the 
number of veterans identified through the matching process and the 
number and amount of loans discharged to date?
    Answer. More than 25,000 eligible veterans with $800 million in 
loans received discharges as a result of submitting an application 
after having been identified through the data match, which began in 
April 2018. In addition, since the President's announcement on August 
21, 2019, and as of March 31, 2020, approximately 37,000 veterans with 
$830 million in loans have been approved for automatic discharge and 
1,600 veterans with $50 million in loans have opted out of the 
discharge.
  plans to extend total and permanent disability automatic discharges
    Question. How could the process that is being implemented for 
veterans be applied to student loan borrowers identified as totally and 
permanently disabled by the Social Security Administration? What are 
the plans to extend automatic discharges to this population of 
borrowers?
    Answer. The Department conducted the proper due diligence to assess 
the feasibility of extending the automatic discharge policy to disabled 
civilian borrowers who are identified through the Department's data 
match with the Social Security Administration (SSA). It determined that 
extending the policy to these individuals would require the Department 
to conduct negotiated rulemaking to change the applicable regulations, 
as they currently require an eligible borrower to submit an application 
to receive a discharge.
    Extending the automatic discharge policy to disabled civilian 
borrowers also raises potential operational issues. For example, unlike 
VA-matched borrowers, SSA-matched borrowers must annually provide 
documentation of employment earnings, or lack thereof, for 3 years 
after their loans are discharged and are subject to having their 
discharged loans reinstated if they do not comply with this 
requirement. Therefore, it is particularly important for these 
individuals to fully understand the consequences of receiving a total 
and permanent disability discharge and their failing to comply with 
their income verification responsibility. For these reasons, the 
Department has determined that it is not appropriate, at this time, to 
automatically discharge loans for this population of borrowers.
    With the December 2019 enactment of the Fostering Undergraduate 
Talent by Unlocking Resources for Education Act (FUTURE Act), the 
Department is assessing how the newly amended section 6103 of the 
Internal Revenue Code could potentially facilitate automatic discharges 
for SSA-matched borrowers by streamlining the post-discharge income 
monitoring requirement. It plans to reassess our decision concerning 
automatic discharges after we have implemented the FUTURE Act.
school libraries, literacy and lack of current institute for education 
                             sciences data
    Question. Data collection on school libraries at the Institute for 
Education Sciences is out of date. With numerous studies showing that 
high quality school library programs are correlated with higher student 
achievement and with access to these programs being an educational 
equity issue, what are the Department's plans to update the data 
collection on these vital resources?
    Answer. The Department's current mechanism for collecting 
information on school libraries is the National Teacher and Principal 
Survey, which provides information on the number of schools with media 
centers and the number of librarians and library media specialists. The 
survey for school year 2015-2016 is available at the following link: 
https://nces.ed.gov/surveys/ntps/tables/ntps1516_20180119002_
s1n.asp. The survey for school year 2017-2018 will be made available as 
soon as the National Center for Education Statistics completes its 
review of the data.
evidence to support inclusion of literacy fundsiin proposed block grant
    Question. Your budget proposes to include the Innovative Approaches 
to Literacy program and the Comprehensive Literacy Development grants 
into your proposed block grant. These programs were just formally 
authorized in the Every Student Succeeds Act and are the only programs 
with a primary focus on literacy. Given your testimony decrying the 
most recent National Assessment of Educational Progress reading scores, 
what evidence does the Department have to support a block grant 
strategy for improving reading achievement?
    Answer. Under the Elementary and Secondary Education for the 
Disadvantaged (ESED) Block Grant proposal, States can choose to target 
funds on any priority they choose, including literacy. Given recent 
NAEP scores, States may choose to focus significant portions of their 
funding on evidence-based reading interventions. The Department 
believes that NAEP data provide compelling evidence that the current 
approach that many States and local districts are using to provide 
reading instruction is not working. The Block Grant provides States and 
districts flexible resources to implement evidence-based strategies 
based on local needs. Under the ESED Block Grant, States would still be 
required to submit accountability plans that would set Statewide 
performance goals and targets, including performance goals and targets 
in reading, and would be required to report their progress against 
these goals and targets.
               enforcement of cash management regulations
    Question. Last year, in response to a question for the record, you 
wrote that beginning October 1, 2019, the Department would begin 
evaluating institutions of higher education compliance with due 
diligence requirements as of October 1, 2019. Has the Department 
identified any current institution's cash management agreements as 
deficient in meeting the standard of the ``best financial interests of 
students?'' If so, please provide a list of deficient agreements and 
rationale for their deficient identification. What actions has the 
Department taken to ensure that institutions correct any deficiencies?
    Answer. As noted in last year's response, testing in this area was 
not performed earlier due to the relationship between the due diligence 
requirement and the disclosure of mean/median fees requirement, which 
requires the institution to calculate and disclose the mean and median 
costs of contracts with financial services companies. The disclosure of 
mean/median fees requirement became effective September 1, 2017. 
Institutions are expected to rely on this information to conduct 
adequate due diligence reviews, which are required every 2 years. Thus, 
the Department determined that October 1, 2019, the start of the first 
review cycle that follows a full two-year period after September 1, 
2017, would be the most appropriate time to begin incorporating 
institutional compliance with the due diligence review requirement as 
part of program reviews. This guidance was incorporated into the 
program review procedures in April 2020. As to any specific agreements 
or actions taken, please know that it is Department policy to not 
comment on any deliberative, preliminary, or ongoing investigative work 
to enforce the Title IV regulations.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
fsa nextgen contracting and subcontracting and inclusion of state-based 
                        and nonprofit servicers
    Question. The implementation of Federal Student Aid (FSA)'s Next 
Generation Financial Services Environment (NextGen) initiative must 
ensure strong service for student loan borrowers. It is important that 
the Department's contracting and subcontracting requirements do not 
have the unintended consequence of preventing State-based and nonprofit 
loan services with years of experience in student loan servicing from 
continuing to contribute their expertise.
    Do the current loan servicing contracts assess small business 
participation in terms of a percentage of subcontracted dollars, or as 
a percentage of total contract dollars?
    Answer. The current loan servicing contracts assess small business 
participation in terms of both subcontracted dollars and total contract 
dollars.
    Question. What is the current percentage requirement of 
subcontracted dollars that each current loan servicing contractor must 
allocate to small businesses?
    Answer. The following figures represent the percentage requirement 
of subcontracted dollars that current loan servicers must allocate to 
small businesses:
  --Small Business--31%
  --Small Disadvantaged Business--5%
  --Woman-Owned Small Business- 5%
  --Service-Disabled Veteran-Owned Small Business--3%
  --HUBZone Small Business--3%
  --Veteran-Owned Small business--1%
    Question. In NextGen, will contractors awarded a Business Process 
Operations (BPO) contract be assessed for small business and HUBZone 
participation as a percentage of total contract dollars or as a 
percentage of subcontracted dollars?
    Answer. Goals were required to be provided based both on total 
dollars subcontracted and total contract value, which is permitted by 
the Federal Acquisition Regulation (FAR) Subcontracting Clause. The 
determination to negotiate goals as a percentage of total contract 
dollars or as a percentage of subcontracted dollars will be determined 
by FSA Acquisitions at award, in coordination with the Small Business 
Administration.
    Question. In NextGen, what is the percentage that will be required 
for each BPO contractor to allocate to small businesses and to 
HUBZones?
    Answer. Next Gen's Business Process Operations (BPO) solicitation 
requires the following goals to be submitted with a proposal based on a 
percentage of total contract dollars and a percentage of subcontracted 
dollars:
  --Small Business--47%
  --Woman-Owned--5%
  --Small Disadvantaged Business--5%
  --Service-Disabled Veteran Owned Small Business--3%
  --HUBZone--19 percent (Year 1), 25 percent (Year 2), 30 percent (Year 
        3)
    Question. What is FSA's plan to include State-based and non-profit 
entities in the subcontracting process for the BPO component of 
NextGen?
    Answer. Inclusion of State-based and non-profit entities is 
dependent upon the offers submitted by prime contractors; Federal law 
does not allow the Department to include such a requirement. State-
based and non-profit entities seeking to participate in BPO contracts 
should reach out to the individual prime contractors' Small Business 
Liaison Officers for assistance in obtaining a contract.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
     justification for proposed elimination of public service loan 
                              forgiveness
    Question. In an era where student loan debt is crippling a 
generation, you recommend, for a fourth time, to end the Public Student 
Loan Forgiveness program. We, Congress, have rejected your 
recommendations. Can you explain to me why you eliminate a program that 
encourages students to pursue noble career paths that are intrinsically 
necessary to our communities and our democracy and at the same time 
provides them with much needed student debt relief after 10 years?
    Answer. The Department proposes to sunset the Public Service Loan 
Forgiveness program because it does not believe it is the proper role 
of the Department of Education, let alone the Federal Government, to 
incentivize one type of work over another. The Department also has 
concerns that this program, which is quite costly, is not well 
targeted. As currently structured, it disproportionately benefits 
borrowers with graduate degrees, who have higher earning power. 
Further, this program provides incentives to over-borrow and be less 
price-sensitive to the individual student's return on higher education.
    To address student debt relief where it is needed the most--
undergraduate borrowers struggling to repay--the Department proposes a 
single income-driven repayment (Single IDR) plan with affordable 
monthly payments and expedited forgiveness for undergraduate borrowers 
after 15 years of repayment. To further improve and simplify loan 
repayment, the Department also proposes auto-enrolling severely 
delinquent borrowers into the Single IDR plan.
    Lastly, the issue of student debt is one that the Department and 
this Administration take very seriously. The Department has started to 
tackle this issue administratively by providing more data for students 
and families to make more informed choices. It also included proposals 
in its budget request to cap borrowing for parents and graduate 
students and give greater flexibility to schools to limit unnecessary 
borrowing. The Department acknowledges there is more to do in this area 
and looks forward to working with Congress on ways to further control 
college costs and student debt.
     education freedom scholarships and tax treatment of donations
    Question. Your Education Freedom Scholarship is a private school 
voucher program. For every dollar a donor gives to an organization set 
up to issue vouchers, that donor receives a dollar back from the 
government. So it essentially costs them nothing.
    Why do you think it's appropriate that donors are fully reimbursed 
for their donation with a dollar-for-dollar credit?
    Answer. The administration's Education Freedom Scholarship proposal 
would establish a Federal tax credit for voluntary donations to State-
designed scholarship programs for elementary and secondary students. By 
encouraging voluntary donations for scholarships, which could be 
available for public- school or private-school options as determined by 
States, the proposal would expand the opportunities for families to 
find an educational setting that best suits their students' needs. 
Individuals or domestic businesses that make such voluntary donations 
would be eligible to receive a non-refundable, dollar-for-dollar 
Federal tax credit. No contributor will be allowed a total tax benefit 
greater than the amount of their contribution.
    Question. Why should donations for private school vouchers be 
treated differently than donations to other arguably worthy causes?
    Answer. The administration's Education Freedom Scholarship proposal 
would empower families to choose the best educational setting for their 
children--regardless of where they live, how much they make, and how 
they learn. By establishing a tax credit, this proposal would improve 
educational experiences and increase options available to students 
though privately funded scholarships without taking a single dollar 
away from public schools, their teachers or the students who attend 
them.
      civil rights protections and education freedom scholarships
    Question. As currently drafted, the Education Freedom Scholarship 
program contains no guardrails that would bar the participation of 
private schools that discriminate against students or employees based 
on sexual orientation, gender identity, or disability.
    Would you support such guardrails as conditions of eligibility?
    Answer. All children deserve access to a high-quality education 
that meets their needs and an opportunity to learn free from 
discrimination. The administration's Education Freedom Scholarship 
proposal would empower families to choose the best educational setting 
for their children--regardless of where they live, how much they make, 
and how they learn. The proposal gives students and families the 
freedom to decide what's best for them. No family is forced to accept a 
scholarship, no taxpayer is forced to contribute, no organization is 
forced to participate, and no State is forced to participate. This tax 
credit would help extend education choice to the greatest number of 
families possible while respecting Federalism.
    States, not the Federal Government, will determine which education 
providers can receive scholarships under the Education Freedom 
Scholarship proposal. States may include private schools in their local 
programs, but they are not obliged to do so. The Department will 
continue to enforce all existing civil rights laws for all private and 
public schools. If the Education Freedom Scholarship program is 
enacted, the Department will not--and cannot--waive any existing civil 
rights laws.
    extending idea protections to students under education freedom 
                              scholarships
    Question. Private schools are not required to comply with the 
Individuals with Disabilities Education Act. They may deny students 
admission on the basis of eligibility. Even if they do offer admission, 
they are not required to implement the student's individualized 
education program (IEP) or section 504 plan.
    Would you enforce regulations that condition private school 
eligibility for tax credit-funded vouchers on the requirement that 
those schools admit and accommodate students with disabilities, 
according to IDEA?
    Answer. The administration's Education Freedom Scholarship (EFS) 
proposal can empower children with disabilities and their families to 
access individualized learning opportunities, while relieving some of 
the financial pressure many families experience in obtaining additional 
educational support. Under EFS, States may choose to focus their 
programs on complementing and expanding public school students' access 
to special education programs and services, individualized supports, 
services, instruction, interventions, and therapies. Private school 
settings also are one of a variety of educational options that States 
designing scholarship programs could include as an eligible education 
provider.
    Should a State include private school settings as an eligible 
education provider, families of students with disabilities could then 
voluntarily choose to use their scholarships to access a private school 
education program. IDEA requires local educational agencies (LEAs) to 
ensure the equitable participation of children with disabilities 
enrolled by their parents in private schools. However, under IDEA, 
these students (often referred to as parentally-placed students) do not 
have an individual entitlement to services they would receive if 
enrolled in a public school. Instead, the LEA is required to expend a 
proportionate amount of IDEA Federal funds to provide services to 
qualified children with disabilities. Changing IDEA is a matter for 
Congress, and the administration remains happy to work with you should 
Congress take up IDEA reauthorization.
  private religious schools, title ix, and discrimination on basis of 
                                religion
    Question. Private religious schools may discriminate on the basis 
of religion. Where they are under the control of a religious 
organization, they may also not be subject to the sex discrimination 
prohibitions of Title IX.
    Do you believe that private schools that discriminate on the basis 
of religion and sex should be eligible to participate in a federally 
subsidized program? Would you support participation of schools that 
accept only boys?
    Answer. It is important to recognize, in considering both of these 
questions, that States, not the Federal Government, will determine 
which education providers can receive scholarships under the Education 
Freedom Scholarship proposal. States may include private schools in 
their local programs, but they are not obliged to do so. The Department 
will continue to enforce all existing civil rights laws for all private 
and public schools. If the Education Freedom Scholarship program is 
enacted, the Department will not--and cannot--waive any existing civil 
rights laws.
  tax credit voucher models and discrimination against lgbtq students
    Question. Private schools, like those recently in the news in 
Florida, are funded in part by the State's tax credit voucher scheme--
like what you propose at the Federal level. Those private schools are 
not upheld to the same transparency, accountability or anti-
discrimination protections of public schools. Therefore, they are free 
to exclude, reject, or otherwise discriminate against students using 
funds that provided a Federal tax incentive--financial benefit--to 
taxpayers. As a result, schools receiving vouchers through a tuition 
tax credit voucher scheme are openly discriminating against LGBTQ 
students.
    Are you promoting Federal policy that allows discrimination against 
LGBTQ students? Students with LGBTQ parents?
    Answer. States, not the Federal Government, will determine which 
education providers can receive scholarships under the Education 
Freedom Scholarship proposal. States may include private schools in 
their local programs, but they are not obliged to do so. The Department 
will continue to enforce all existing civil rights laws for all private 
and public schools. If the Education Freedom Scholarship proposal is 
enacted, the Department will not--and cannot--waive any existing civil 
rights laws.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                         title iv-a usage data
    Question. Following up on a question proposed in the hearing, 
please provide any information the Department has collected regarding 
how school districts are utilizing the funds they receive under the 
Student Support and Academic Enrichment Grant program under Title IV-A 
of the Every Student Succeeds Act. If no such data collection has yet 
occurred, please provide information about the Department's plans to do 
so, including any timeline. If the Department does not intend to 
collect such data, please provide a rationale for that decision.
    Answer. The Department released findings from a ``first-look'' 
study on local use of Student Support and Academic Enrichment Grants 
funds in February; see https://www2.ed.gov/rschstat/eval/esea/title-iv-
first-look-2020.pdf. More information on the Department's efforts to 
collect data on the use of program funds, including through the 
Consolidated State Performance Reports and a formal program 
implementation study, is available on pp. D-68-69 of the Department's 
fiscal year 2021 Congressional budget justifications. The budget 
justification also includes a summary of key findings from the ``first-
look'' study.
  public posting of approved institution plans for federal work study 
                           flexibility pilot
    Question. While the Department has posted the names of the 190 
institutions approved for this new Experimental Sites Initiative (ESI) 
on February 19, it has not posted the applications submitted by those 
institutions. When does the Department plan to publicly post the 
applications of approved institutions?
    Answer. The Department does not plan to publish the letters of 
interest by institutions that were approved to participate in the 
Federal Work Study (FWS) Experiment under the Experimental Sites 
Initiative. In the May 23, 2019, Federal Register notice announcing the 
FWS experiment, institutions were asked to submit letters of interest, 
not formal applications, and were not informed that their letters of 
interest would be published. The Department does not typically publish 
applications or letters of interests for experiments under the 
Experimental Sites Initiative.
     data on institution applications for federal work study pilot
    Question. Institutions were required in their applications to 
describe the types of private-sector job opportunities, work-and-learn 
programs, or required externships or student teaching experiences that 
will be targeted by the institution as a result of the experiment. For 
the 190 institutions approved, please provide data on which 
institutions indicated in their application that they intend to use at 
least part of their FWS allocation for:
  --private-sector jobs (please provide a complete list of the types of 
        jobs in addition to the corresponding institution);
  --work-and-learn programs (please provide a complete list of the 
        types of programs in addition to the corresponding 
        institution);
  --externships (please provide a complete list of types of externships 
        in addition to the corresponding institution); or
  --student teaching (please provide a complete list of types of 
        student teaching in addition to the corresponding institution).
    Answer. The May 23, 2019 Federal Register notice announcing the FWS 
experiment requested, but did not require, that institutions submit 
information about its intent to offer jobs related to these categories. 
Additionally, the notice did not provide instructions for how to define 
the terms ``private-sector jobs,'' ``work-and-learn programs,'' 
``externships,'' or ``student teaching.'' Therefore, the Department 
cannot state with certainty whether the information included in the 
letters of interest accounts for all job offerings intended by 
institutions approved for participation in the experiment.
    With those caveats in mind, the Department analyzed the information 
in the letters of interest in order to respond to this request. It 
estimates that:
  --Approximately 85 percent of applications include an apparent 
        reference to an outside employer, but at this time the 
        Department has no way of knowing the tax status of those 
        employers based on the information provided;
  --Approximately 40 percent of applications include a reference to 
        teacher training of some kind; and
  --Approximately 15 percent of the applications include a reference to 
        ``externship,'' ``internship,'' and/or ``apprenticeship.''
    Because the experiment is generally focused on ``work-and-learn'' 
programs, the Department determined that all of the letters of interest 
for institutions approved to participate included at least one 
reference to a ``work-and-learn'' job or program, broadly defined. The 
Department plans to collect information regarding the types of programs 
and employers that institutions partner with as part of its evaluation 
of the experiment.
  number of federal work study pilot participants partnering with for-
                          profit organizations
    Question. Of the 190 institutions that are approved to participate, 
how many indicated in their applications that they intend to partner 
with for-profit organizations to provide employment?
    Answer. Please see the response to the previous question. Note 
that, though the letters of interest often referred to arrangements 
with employers other than the institution itself, the Department is 
unable to determine with any certainty whether the letters of interest 
referred to for-profit employers or non-profit employers. Many letters 
included only the name of the employer, and the Department does not 
have the resources to research each of these organizations to determine 
its tax status. Additionally, because the May 23, 2019, Federal 
Register notice announcing the FWS experiment did not require 
institutions to list every employer they planned to work with, the 
letters may not indicate all employers that the institutions intend to 
partner with. As noted above, the Department plans to collect 
information regarding the types of programs and employers that 
institutions partner with as part of its evaluation of the experiment, 
including each employer's tax status.
     community service job allocation and federal work study pilot
    Question. An institution that participates in the Federal Work-
Study (FWS) Program is required to expend at least 7 percent of its FWS 
Federal allocation to pay the Federal share of wages to students 
employed in community service jobs. This provision has been waived 
under this ESI. Of the 190 institutions approved, how many indicated in 
their applications that they will expend less than 7 percent of its FWS 
allocation to support community service? If this information is not 
included in the application, will you provide the Committee with the 
number of institutions that expend less than 7 percent of its FWS 
allocation within 6 months?
    Answer. In the May 23, 2019, Federal Register notice announcing the 
FWS experiment, the Department did not request or require that 
institutions express in their letters of interest whether they would 
waive the community service requirements as part of their participation 
in the experiment. The Department will include information regarding 
the number of institutions that waived the community service 
requirement in its reports to Congress regarding implementation and 
evaluation of the experiment. Note that Sec. 487A(b)(2) of the Higher 
Education Act requires the Department to publish such reports on a 
biennial basis.
   federal work study pilot funding use for employment at for-profit 
                             organizations
    Question. Of the 190 institutions approved, how many indicated in 
their applications that they will be using these funds for student 
employment at for-profit organizations? In addition, please provide a 
complete list of the for-profit organizations identified in the 
approved applications.
    Answer. Though many of the institutions indicated plans to employ 
students at private sector organizations, none of the letters of 
interest received by the Department specifically indicated an 
institution's intent to use the additional allocation of FWS funds in 
this manner. Though institutions may only use the additional allocation 
received under the experiment for jobs and functions created under the 
experimental waivers, institutions are not required to use the 
additional allocation received under the experiment solely to pay wages 
to students who are employed with for-profit organizations. Many 
institutions may choose to use it for other activities, such as 
supporting Job Location and Development programs or paying FWS wages to 
students participating in student teaching programs, nursing clinical 
rotations and other kinds of work-based learning experiences required 
by the institution's academic programs.
 federal work study pilot funding share of compensation to private for-
                          profit organizations
    Question. Under this ESI, the Federal share of compensation for 
employment in private for-profit organizations is increased from 50 
percent to 75 percent for small businesses. Will you commit to 
providing the Committee with the Federal share of compensation for 
employment in private for-profit organizations within 6 months and from 
then on, at least once annually?
    Answer. The Department will include information regarding the 
number of institutions that approved a wage share percent of less than 
50 percent for small businesses, as per the guidelines of the 
experiment, in its report to Congress regarding implementation and 
evaluation of the experiment. Note that Sec. 487A(b)(2) of the Higher 
Education Act requires the Department to publish such reports on a 
biennial basis.
      data-related activities under the every student succeeds act
    Question. What efforts has the Department undertaken to help States 
and school districts understand specific set-aside or other funds under 
ESSA to support data-related activities to improve student outcomes, 
such as increasing data literacy for staff, making data more accessible 
and helpful to educators, and improving transparency and data quality? 
Does the Department intend to issue additional guidance to support such 
efforts?
    Answer. The Department has provided guidance to States on the need 
to use data to plan program spending. For example, the 2016 Non-
Regulatory Guidance for Title II, Part A, discussed the need for State 
and local educational agencies to understand and identify the rigor of 
evidence associated with interventions in order to select strategies 
that are most likely to improve student outcomes and to generate and 
share evidence about particular interventions. The guidance also notes 
that implementation plans may include strategies to monitor performance 
and ensure continuous improvement, including plans for data collection, 
analysis, or evaluation. The 21st Century Community Learning Centers 
program (21st CCLC) has supported technical assistance activities to 
help State educational agencies understand their authority in using up 
to 5 percent of their 21st CCLC grant funds for State activities, 
including data-related activities from evaluating subgrantee projects 
to building local capacity in data analysis. The Department notes, 
however, that most decisions about the collection, analysis, and use of 
education-related data are made at the State and local level. The 
Department continues to assess options for providing guidance and 
technical assistance to State and local leaders in this area, and to 
launch new activities when appropriate. For example, the Department's 
Institute of Education Sciences is planning a 2021 grant competition on 
using longitudinal data to support State-level education policymaking.
 school safety clearinghouse staffing, vetting of best practices, and 
                          community moderation
    Question. The Department, alongside the Departments of Homeland 
Security, Justice, and Health and Human Services, currently maintains a 
clearinghouse on school safety issues.
    Please provide the number of the Department's staff members that 
manage the schoolsafety.gov clearinghouse and their qualifications.
    Answer. Note--the website referenced in all responses to questions 
on this topic is https://www.schoolsafety.gov.
    The Department of Education (Department) has designated two staff 
members to manage the workload associated with the SchoolSafety.gov 
website. In addition to their duties related to the Clearinghouse 
website (SchoolSafety.gov), these staff members have key roles in the 
Office of Elementary and Secondary Education (OESE). One staff member 
serves as a subject matter expert for the Department on school safety, 
preparedness, and emergency operations and management. The second staff 
member serves as a Group Leader for the Department's school safety 
programs, focusing on safe and supportive learning environments, 
emergency response issues, violence prevention, school climate, and 
mental and behavioral health.
    In addition, as a collaborative effort of the Departments of 
Education, Homeland Security, Justice, and Health and Human Services, 
the Federal School Safety Clearinghouse Editorial Board (``Board'') was 
established last year to review and to validate decisions about the 
products, tools, and resources submitted for potential inclusion on the 
Clearinghouse website. The Departments of Education, Homeland Security, 
Justice, and Health and Human Services each have a decision vote on the 
Board. One of the staff members referenced above serves as the 
Department's representative on the Board.
    Question. Please describe the Department's vetting process for 
listing best practices on the clearinghouse's website, and can the 
Department commit that all of such best practices on the site have a 
basis in evidence?
    Answer. The Department's vetting process for recommending best 
practices and other resources for inclusion on the Clearinghouse 
website, consists of the identification, collection, and screening of 
school safety materials and resources. This involves review by career 
subject matter experts and the leadership of OESE of the 
recommendations for posting to the site. The Department's 
recommendations are then shared with other Federal partner agencies for 
review (Department of Justice, Department of Homeland Security, and the 
Department of Health and Human Services) and approval. Once approved, 
the resources are then forwarded to the Board for final review and 
validation decisions. All of the Department's posted best practice 
resources have an evidence base.
    Question. What are the Department's plans to monitor and moderate 
the information sharing community hosted on the clearinghouse, to 
ensure that users do not promote harmful policies that may negatively 
impact the school's learning environment or infringe students' civil 
rights?
    Answer. As a member of the Board, the Department's representative 
reviews and approves content to post on the clearinghouse website, 
SchoolSafety.gov, consistent with the standards set forth in the 
Federal School Safety Clearinghouse Memorandum of Understanding. Once 
posted, content can be removed from SchoolSafety.gov at the 
recommendation of the agency with subject matter expertise or by a vote 
of the Editorial Board.
    The public values the exchange of information related to school 
safety. The Department shares concerns about public communications but 
also believes that public dialogue on policy matters is most vigorous 
and effective if not overly burdened by censorial restrictions. Staff 
review of comments is consistent with constitutional parameters and 
principles of free speech.
    The Department also notes that considerable differences of opinion 
exist among persons of good will as to the manner in which various 
policies may affect students' civil rights, including the right to life 
and security of free speech.
    Question. Does the Department intend to dedicate staff to moderate 
such activity on the clearinghouse?
    Answer. The Department of Education has committed two staff members 
to manage various activities associated with the Clearinghouse website. 
Staff are in OESE's Office of Safe and Supportive Schools.
                  diversity in the teaching profession
    Question. Research shows that students of color benefit 
tremendously from having teachers of color, particularly one of the 
same racial background. Studies have found that students of color that 
have teachers of color are less likely to be chronically absent or 
suspended from school, more likely to be recommended for gifted and 
talented programs, and low-income Black students who have a Black 
teacher for at least 1 year in elementary school are less likely to 
drop out of high school and more likely to consider college. And while 
students of color make up the majority of students in public schools, 
the diversity gap for teachers of color still exists across every 
State.
    Does the Department agree that students of color benefit from 
having teachers of color, particularly of the same racial background, 
and if so, what is the Department's strategy for increasing the number 
of teachers of color in America?
    Answer. The Department is committed to ensuring that all students 
have effective teachers and, as part of that commitment, is supporting 
strategies, described below, that increase teacher diversity. The lack 
of racial and gender diversity among public-school teachers is not a 
new issue. In 2000, when 61 percent of American students were white, 84 
percent of teachers were white. Despite intense attention to teacher 
diversity since then, the portion of teachers who are white decreased 
just four percentage points, to 80 percent, by 2015. Meanwhile the 
portion of students who are white decreased 12 points to 49 percent. 
Similarly, women have dominated the teaching workforce, at 75 percent 
in 2000 and 77 percent in 2015. In both years for the elementary 
grades, 89 percent were women.
    Question. What is the Department doing to encourage States to 
increase teacher diversity through institutions of higher education or 
other high-quality alternative certification programs?
    Answer. The Department has included priorities designed to increase 
teacher diversity in discretionary grant programs. For example, the 
Office of Special Education and Rehabilitative Services has included a 
priority for Historically Black Colleges and Universities (HBCUs) and 
Minority-Serving Institutions (MSIs) in the competitions for Personnel 
Preparation grants. The 2017 Supporting Effective Educator Development 
(SEED) competition included a competitive preference priority for 
promoting diversity in the educator workforce, including improving the 
recruitment, support, and retention of educators from diverse 
backgrounds.
                                 ______
                                 
           Questions Submitted by Senator Christopher Murphy
  department role in usda decisions around school meals and plans to 
                       support meal distribution
    Question. As schools close due to cases of Coronavirus, there will 
be a number of ripple effects throughout communities. One of the 
biggest could be that students who are eligible for school meals will 
have no way to get those meals and could go hungry. I was encouraged to 
see that this week USDA announced that waivers would be available in 
the event of school closures to ensure students can still access the 
school meals they depend on.
    Generally, what role does the Department have in these decisions 
around school meals? How are you working with USDA to support schools 
and districts getting the word out to families about congregate meal 
sites and regulatory waivers offered by USDA? How are you supporting 
school districts that do not participate in the Summer Meals Program to 
distribute meals?
    Answer. Under the provisions of Section 4 of the Child Nutrition of 
Act of 1966, which is administered by the U.S. Department of 
Agriculture (USDA), the law assigns no role or responsibility to the 
Department of Education (ED or Department) in decisions about school 
meals, including waivers.
    However, please know that the Department disseminates information 
from the USDA on the school lunch program. In addition, in recent weeks 
the Department hosted conference calls to brief the membership and 
staff of the Council of Chief State School Officers, the National 
Association of State Boards of Education and other elementary and 
secondary education stakeholders. These briefings were held on March 12 
and 20, respectively. Senior leaders from USDA and the Centers for 
Disease Control and Prevention also participated in these briefings 
providing helpful information to the participants. On April 8, ED 
participated in a multi-agency call, hosted by the White House, in 
which the USDA provided additional information regarding their Food 
Program.
    The Department continues to host COVID-19 briefing calls to ensure 
our stakeholders have up-to-date information from ED and other key 
Federal agencies, including the USDA. The Department has created a 
website dedicated to COVID-19 information as it relates to many of our 
programs at: https://www.ed.gov/coronavirus. ED will regularly update 
this page as more information and resources become available.
public comment and subsequent changes to national center for education 
                       statistics data collection
    Question. On November 6, 2018, the National Center for Education 
Statistics (NCES) within the Department of Education provided the 
general public and Federal agencies with an opportunity to comment on 
proposed, revised, and continuing collections of information. 
Specifically, the Department sought public comment regarding the 
EDFacts Data Collection for School Years 2019-2020, 2020-2021, and 
2021-2022 (with 2018-19 continuation). The Department asked the 
following questions: (1) Is this collection necessary to the proper 
functions of the Department; (2) will this information be processed and 
used in a timely manner; (3) is the estimate of burden accurate; (4) 
how might the Department enhance the quality, utility, and clarity of 
the information to be collected; and (5) how might the Department 
minimize the burden of this collection on the respondents, including 
through the use of information technology.
    In October 2019, the Department released an updated set of data 
collected through EDFacts that retired, revised, and added a 
significant number of questions impacting the data that is collected 
and made available to researchers, advocates, and other organizations 
and entities.
    For each of the 18 retired questions:
    a.  How many public comments requested the removal of the question?
    b.  Of the public comments that requested removal of the question, 
        how many were a State government agency, local government, 
        school board or educational agency, academic/think tank, civil 
        rights organization, community organization, Congress, 
        institution of higher education, national advocacy 
        organization, or individual (e.g. principal, teacher, parent)?
    For each of the 24 new questions:
    c.  How many public comments requested the addition of the 
        question?
    d.  Of the public comments that requested the addition of the 
        question, how many were a State government agency, local 
        government, school board or educational agency, academic/think 
        tank, civil rights organization, community organization, 
        Congress, institution of higher education, national advocacy 
        organization, or individual (e.g. principal, teacher, parent)?
    For each of the 42 questions revised:
    e.  How many public comments requested the revision?
    f.  Of the public comments that requested the revision, how many 
        were a State government agency, local government, school board 
        or educational agency, academic/think tank, civil rights 
        organization, community organization, Congress, institution of 
        higher education, national advocacy organization or individual 
        (e.g. principal, teacher, parent)?
    Answer. Thank you for the opportunity to provide more information 
about the EDFacts information collection. As context, while EDFacts 
data may have value for researchers, advocates, and other individuals 
and entities, virtually all--90 percent--of the information collected 
is administrative data the Department needs to fulfill its statutory 
responsibility to monitor the implementation and use of funds in 
formula grant programs. It is important to understand that changes to 
the data elements in EDFacts are driven by changes to the statutes 
authorizing these programs. These changes were not introduced to meet 
the statistical needs of NCES or outside researchers, advocates, or 
other individuals or entities.
    EDFacts is designed to reduce reporting burden on States by 
consolidating separate reporting instruments for multiple Federal grant 
programs into one information collection. Previously, SEAs were 
required to report separately for each program, often entering the same 
data multiple times. As you will see in the information provided below, 
States (and other commenters) generally supported the proposed changes. 
Where they did not, the Department revised or eliminated proposed 
changes.
    EDFacts data are the primary source of information about program 
participants, participant performance (often by subgroup), counts of 
personnel needed to implement the program, and other information 
necessary for monitoring program implementation and impact. The 
programs for which EDFacts collects data--including formula grants 
under the Elementary and Secondary Education Act of 1965, as amended by 
the Every Student Succeeds Act, the Individuals with Disabilities 
Education Act, the Carl D. Perkins Act, as amended, and the General 
Education Provisions Act-provide approximately $30 billion to support 
the educational needs of over 50 million students in public schools. 
SEAs receiving grant awards under these programs are required to report 
these data as a condition of the grant award.
    In the response to the questions below, the Department has provided 
information on each data group that the Department proposed to retire, 
add, or revise in the November 6, 2018 Federal Register notice. It is 
important to stress that these proposed changes are related and should 
be viewed in that context. Where the Department proposed to retire a 
specific data group, another data group may have been revised or added 
to capture that information or to respond to changes in the program 
authorizations enacted by Congress. More detailed information and 
explanation is publicly available through the public docket for this 
information collection package and can be accessed at: https://
www.regulations.gov/docket?D=ED-2018-ICCD-0117.
    As with all Department information collections, NCES takes its 
responsibilities under the Paperwork Reduction Act seriously and grant 
making offices across the Department strive to keep the administrative 
reporting burden on States to a minimum, while ensuring that the data 
it collects are of sufficient quality and detail to meet the needs of 
program offices charged with monitoring the implementation of Federal 
grant programs. As noted below, some changes initially proposed to the 
EDFacts data collection were revised based on the comments received 
from SEAs and others. For background, the Department received comments 
from the following groups on the Federal Register notices requesting 
comments on the proposed changes to the EDFacts data collection:

------------------------------------------------------------------------
                                          60 day comment  30 day comment
               Submitters                     period          period
------------------------------------------------------------------------
State...................................              40              13
Association.............................              26              13
Individual..............................              76              56
Other...................................               1               0
                                         -------------------------------
    Total...............................             143              82
------------------------------------------------------------------------

    Most of the public comments were in response to directed questions 
the Department posed to the field in November 6, 2018 notice. The 
directed questions explained the Department's intent with proposed 
changes and requested input about feasibility of reporting data on the 
proposed changes.
    a and b. There were no major comments received on the proposed 
retired data groups. Please see the attached summaries of responses to 
comments for detailed information about comments received about the 
information collection package:
  --Attachment 1 EDFacts (2019-20 to 2021-22 Response to 60-Day Public 
        Comments)
  --Attachment 2 EDFacts (2019-20 to 2021-22 Response to 30-Day Public 
        Comments)
    c and d. The Department proposed to add 24 new data groups in the 
information collection package and accompanying Federal Register notice 
requesting public comments for the 60 days. These new data groups were 
proposed to address changes enacted with the reauthorization of the 
Elementary and Secondary Education Act, as amended by ESSA, the 
reauthorization of Perkins, and to improve the Department's 
understanding of charter schools. Several of the proposed new data 
groups would have expanded the data collection to cover postsecondary 
data for programs authorized under Perkins and improved charter school 
reporting. The public comments received did not support some of the new 
data groups (States did not have the infrastructure to report the 
informative, but not required, changes), so the Department removed them 
from the final information collection package.
    The final information collection package added 13 (of the original 
24 proposed) new data groups to the EDFacts collection. Of the 13, 8 
data groups provide data required by the reauthorization of Perkins and 
the other 5 include a new charter item and expansion of existing 
EDFacts data groups. See attachments F for a detailed explanation.
    e and f. The final Information Collection package included 28 data 
group (question) revisions and 12 revised data categories (permitted 
values that go with the data groups) from the prior three-year 
Information Collection Package. NCES was unable to replicate a count of 
42. None of the proposed revisions were initiated by the public, but 
the Department received comments about the following specific 
revisions. In the November 2018 Federal Register notice, the Department 
proposed adding school psychologists to a personnel reporting category 
for the Common Core of Data; this revision was overwhelming supported 
by public comments and adopted. The Department also proposed changing a 
data group related to IDEA to align with implementation of programs for 
children with disabilities (5-year-olds can be either in preschool or 
in kindergarten). The Department adopted the recommendations based on 
public comments from the field. Also, under IDEA, the Department 
collects counts of staff providing special education and related 
services. These data have been collected by age group (3 to 5 and 6 to 
21). The Department proposed changing this data group to collect by 
grade spans (elementary, middle, high school). The public comment did 
not support this change, so the Department removed the proposed 
revisions. See attachments for a detailed summary of responses.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
            Questions Submitted by Senator Joe Manchin, III
           mckinney-vento homeless children and youth funding
    Question. Many people are shocked to learn that there are 1.5 
million homeless children and youth enrolled in public schools across 
this country, including more than 10,500 in my own State. Children and 
youth experiencing homelessness are hidden in our schools and in our 
communities, moving from place to place, and often staying in places 
like motels or temporarily with other people. Education Week recently 
published an article on the 1.5 million children and youth experiencing 
homelessness and highlighted the critically important work of school 
district homeless liaisons. These liaisons are charged with ensuring 
that homeless children and youth are identified and connected to the 
services that they need to succeed, inside and outside of school. They 
are able to provide these services through the McKinney-Vento Act's 
Education for Homeless Children and Youth funding. These services 
ensure that students be connected to counseling, clothing, school 
supplies, tutoring, special education evaluations, healthcare, and much 
more. The fiscal year 2021 request for the Department of Education 
calls for consolidating 29 Federal education programs into a single 
block grant--including the McKinney-Vento funding. The budget proposal 
only asks for $19.4 billion for this new block grant, which is $4.7 
billion less than the funding that Congress appropriated to these 29 
programs in fiscal year 2020.
    If McKinney-Vento funding is consolidated with 28 other Federal 
programs--as this budget proposes--how are rural States and school 
districts in West Virginia supposed to continuing providing services to 
homeless children and youth with less resources?
    Answer. Under the proposed Elementary and Secondary Education for 
the Disadvantaged Block Grant (ESED Block Grant), States and school 
districts would still be required to identify and serve homeless 
children and youth. Specifically, both State educational agencies 
(SEAs) and local educational agencies (LEAs) would be required to 
develop and implement plans consistent with sections 1111 and 1112 of 
the ESEA, respectively, which include provisions describing how they 
will meet the needs of homeless students, including through a range of 
services similar to those supported by the Education for Homeless 
Children and Youth program. SEAs and LEAs also would continue to 
maintain protections for homeless students consistent with the 
requirements of the McKinney-Vento Homeless Assistance Act and would 
report performance on State academic assessments and graduation rates 
for homeless students. Furthermore, after ESED Block Grant funds are 
allocated by formula to SEAs and LEAs, LEAs would then have the 
flexibility to determine what portion of their allocation they would 
dedicate to serving homeless students. This could mean, for example, 
that LEAs could dedicate more funding to serve homeless students than 
they currently receive through their allocations from the Education for 
Homeless Children and Youth program under the McKinney-Vento Act if 
they determine that there is a great need for those services in their 
area.
            substance misuse and abuse education in schools
    Question. My home State of West Virginia has been devastated by the 
opioid epidemic. We are the hardest hit State in the Nation and have 
the highest overdose death rate. This country has lost hundreds of 
thousands of folks to substance use disorder including 963 West 
Virginians in 2018 alone. In National Institute on Drug Abuse reported 
that 1 out of 8 high school seniors used prescription opioids 
recreationally. Of those seniors, 7 out of 10 also used another 
substance like marijuana or alcohol. We cannot let this continue. It is 
our duty to invest in prevention education in order to save the next 
generation. That is why I introduced the Saving America's Future by 
Educating Kids Act (SAFE Kids). This bill would direct the Department 
of Education along with several Federal health agencies to develop 
evidence-based, age appropriate curriculum on the negative impacts of 
substance misuse and abuse. It would also establish a competitive grant 
program for States to implement this curriculum.
    What resources are currently available through the Department for 
States to use for substance use educations? Is there anything in your 
budget proposal that would help States implement prevention education?
    Answer. Key sources of Federal education funding and other support 
for substance use education and prevention include the Student Support 
and Academic Enrichment (SSAE) Grants authorized under Title IV, Part A 
of the Elementary and Secondary Education Act (ESEA), which in fiscal 
year 2020 will provide $1.2 billion to States and school districts for 
use during 2020-2021 school year, including an estimated $7.6 million 
for West Virginia. States allocate 95 percent of SSAE funds to school 
districts, which in general have flexibility to use up to four-fifths 
of their allocations for activities to support safe and healthy 
students, including substance abuse prevention and mitigation if a 
local needs assessment identifies such activities as a high priority. 
Under the proposed ESED Block Grant, school districts would have even 
greater flexibility to dedicate a significant share of Federal 
education funds to preventing and mitigating opioid abuse. The 
Department also funds School Climate Transformation Grants (SCTGs) to 
SEAs and LEAs under the School Safety National Activities program. 
SCTGs support the development and implementation of multi-tiered 
systems of support, such as Positive Behavioral Interventions and 
Supports, that can help guide the selection and implementation of 
evidence-based behavioral practices that reduce and respond to drug and 
alcohol abuse. Nearly all of the 83 currently funded projects include 
strategies to prevent or mitigate the effects of opioid abuse. Under 
the ESED Block Grant proposal, the Department would fund these projects 
to their completion, and States and districts subsequently could use 
block grant funds to continue or expand such activities.
        plans for fiscal year 2020 trio and gear up competitions
    Question. In West Virginia, we have a lot of students who are first 
time college students, many of whom come from low-income families that 
don't have the resources or experience to help their children navigate 
things like AP classes, SAT tests, college applications, financial aid, 
and finally college itself. That is why programs like TRIO and GEAR UP 
are so important. These programs provide the support that high school 
students need to thrive in higher education. Without them, we'd see too 
many students who wouldn't know what opportunities are available or who 
wouldn't have the emotional and academic support to succeed. I'm 
disappointed that the fiscal year 2021 budget proposal recommends 
consolidating these programs while reducing funding. Congress has 
continually invested in this program because the data shows it is 
working for students across the country.
    Both TRIO and GEAR UP will have active competitive grant 
competitions this year. What is the Department currently doing to 
ensure that the competitions will be conducted fairly and 
expeditiously?
    Answer. The Department's overall fiscal year 2020 plans for TRIO 
and GEAR UP are described in the Congressional Justifications for these 
programs. For example, the Department plans to award new State and 
Partnership GEAR UP awards to high-scoring applications from previous 
competitions, with about $13 million for four new State awards and 
about $8.6 million for three new Partnership awards. For TRIO, the 
Department is running competitions for Student Support Services and 
Staff Training in fiscal year 2020. The notice inviting applications 
(NIA) for the Student Support Services program was published in the 
Federal Register on December 17, 2019, and can be found at https://
www.Federalregister.gov/documents/2019/12/17/2019-27115/applications-
for-new-awards-student-support-services-program. The NIA describes in 
detail how this competition will be conducted. Similarly, the NIA for 
the Staff Training program, which was published in the Federal Register 
on January 31, 2020, and can be found at https://
www.Federalregister.gov/documents/2020/01/31/2020-01813/applications-
for-new-awards-training-program-for-Federal-trio-programs, describes 
the process and procedures for conducting a fair competition.

                          SUBCOMMITTEE RECESS

    Senator Blunt. And the subcommittee stands in recess.
    [Whereupon, at 11:58 a.m., Thursday, March 5, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
